No. 20-1312

In the Supreme Court of the United States
XAVIER BECERRA, SECRETARY OF HEALTH AND HUMAN
SERVICES, PETITIONER
v.
EMPIRE HEALTH FOUNDATION, FOR VALLEY HOSPITAL
MEDICAL CENTER
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX
BRIAN H. FLETCHER
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
Counsel of Record
for Petitioner

DANIEL J. HETTICH
King & Spalding, LLP
1700 Pennsylvania Ave., N.W.
Washington, D.C. 20006
dhettichappeals@kslaw.com
(202) 626-9128
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: MAR. 19, 2021
CERTIORARI GRANTED: JULY 2, 2021

TABLE OF CONTENTS

Page
Court of appeals docket entries (18-35845) .......................... 1
District court docket entries (2:16-cv-00209-RMP) ............... 11
Complaint for judicial review under the Medicare Act
(June 9, 2016) .......................................................................... 21
Excerpt of HCFA, HHS, Medicare Program;
Prospective Payment for Medicare Inpatient
Hospital Services: Final Rule, 49 Fed. Reg. 234
(Jan. 3, 1984) .................................................................... 39
Excerpt of CMS, HHS, Medicare Program; Proposed
Changes to the Hospital Inpatient Prospective
Payment Systems and Fiscal Year 2004 Rates:
Proposed Rule, 68 Fed. Reg. 27,154 (May 19, 2003) ..... 45
Excerpt of comments by Mercy Hospital (July 2, 2003) ......... 54
Excerpt of comments by BlueCross BlueShield
Association (July 7, 2003) ............................................... 56
Excerpt of comments by Healthcare Association of
New York State (July 7, 2003) ........................................ 58
Excerpt of comments by Vinson & Elkins
(July 7, 2003) ................................................................... 61
Excerpt of comments by American Association of
Medical Colleges (July 8, 2003) ...................................... 64
Excerpt of comments by American Hospital
Association (July 8, 2003) ............................................... 67
Excerpt of comments by Federation of American
Hospitals and Health Systems (July 8, 2003) ................ 70
Excerpt of comments by National Association of
Public Hospitals and Health Systems
(July 8, 2003) ................................................................... 75
Excerpt of comments by Southwest Consulting
Associates (July 8, 2003) ................................................. 83

(I)

II
Table of Contents—Continued:

Page

Excerpt of CMS, HHS, Medicare Program; Changes
to the Hospital Inpatient Prospective Payment
Systems and Fiscal Year 2004 Rates: Final Rule,
68 Fed. Reg. 45,346 (Aug. 1, 2003) ................................. 86
Excerpt of Medicare Program; Proposed Changes to
the Hospital Inpatient Prospective Payment
Systems and Fiscal Year 2005 Rates: Proposed
Rule, 69 Fed. Reg. 28,196 (May 18, 2004) ...................... 87
Excerpt of comments by American Hospital Association (July 2, 2004) ............................................................ 89
CMS, HHS Web Posting: Disproportionate Share
Hospital Adjustment—Dual Eligible Patient Days
(July 7, 2004) ................................................................... 93
Excerpt of comments by W.V. Hospital Association
(July 7, 2004) ................................................................... 95
Excerpt of comments by Touro Infirmary
(July 8, 2004) ................................................................. 101
Excerpt of comments by Lincoln General Hospital
(July 8, 2004) ................................................................. 105
Excerpt of comments by Louisiana Hospital
Association (July 8, 2004) ............................................. 108
Excerpt of comments by National Association of
Public Hospitals and Health Systems
(July 8, 2004) ................................................................. 111
Excerpt of comments by Ochsner Clinic Foundation
(July 8, 2004) ................................................................. 120
Excerpt of comments by Tennessee Hospital
Association (July 8, 2004) ............................................. 123
Excerpt of comments by Catholic Healthcare West
(July 9, 2004) ................................................................. 127
Excerpt of comments by Illinois Hospital Association
(July 9, 2004) ................................................................. 131

III
Table of Contents—Continued:

Page

Excerpt of comments by Jewish Hospital HealthCare
Services (July 9, 2004) .................................................. 134
Excerpt of Michigan Health & Hospital Association
letter (July 9, 2004) ....................................................... 136
Excerpt of comments by Missouri Hospital
Association (July 9, 2004) ............................................. 140
Excerpt of comments by California Health
Association (July 12, 2004)............................................ 144
Excerpt of comments by Detroit Medical Center
(July 12, 2004) ................................................................ 147
Excerpt of comments by Federation of American
Hospitals (July 12, 2004) ............................................... 152
Comments by New Jersey Hospital Association
(July 12, 2004) ................................................................ 157
Excerpt of CMS, HHS, Medicare Program; Changes
to the Hospital Inpatient Prospective Payment
Systems and Fiscal Year 2005 Rates: Final Rule,
69 Fed. Reg. 48,916 (Aug. 11, 2004) ............................. 161
Excerpt of CMS, HHS, Medicare Program; Hospital
Inpatient Prospective Payment Systems for Acute
Care Hospitals and the Long-Term Care Hospital
Prospective Payment System Changes and
FY2011 Rates; Provider Agreements and Supplier
Approvals; and Hospital Conditions of Participation for Rehabilitation and Respiratory Care
Services; Medicaid Program: Accreditation for
Providers of Inpatient Psychiatric Services:
Final Rules and Interim Final Rules with
Comment Period, 75 Fed. Reg. 50,042
(Aug. 16, 2010) ............................................................... 176
Request by Quality Reimbursement Services, Inc. for
Expedited Judicial Review (Feb. 12, 2016) .................. 184

IV
Table of Contents—Continued:

Page

Excerpt of Administrative Record (PRRB Record
205, 208, 211-212, 275, 279, 296-298) (C.A. Supp.
E.R. 32-43) ..................................................................... 194
Excerpt of Defendant’s Combined Cross-Motion for
Summary Judgment and Opposition to Plaintiff ’s
Motion for Summary Judgment (May 9, 2018) ............ 220

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 18-35845
EMPIRE HEALTH FOUNDATION, FOR VALLEY HOSPITAL
MEDICAL CENTER, PLAINTIFF-APPELLEE
v.
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
DEFENDANT-APPELLANT
DOCKET ENTRIES
DATE

10/12/18

DOCKET
NUMBER PROCEEDINGS

1

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
The schedule is set as follows: Mediation Questionnaire due on
10/19/2018. Transcript ordered
by 11/13/2018. Transcript due
12/10/2018. Appellant Alex M.
Azar II opening brief due
01/22/2019.
Appellee Empire
Health Foundation answering
brief due 02/22/2019.
Appellant’s optional reply brief is due 21
days after service of the answering brief. [11044958] (RT) [Entered: 10/12/2018 11:30 AM]
*

*

*
(1)

*

*

2
DATE

10/19/18

DOCKET
NUMBER PROCEEDINGS

5

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
Setting cross-appeal briefing
schedule as follows: Mediation
Questionnaire due on 10/26/2018.
First cross appeal brief due
01/22/2019 for Alex M. Azar II.
Second brief on cross appeal due
02/22/2019 for Empire Health
Foundation.
Third brief on
cross appeal due 03/25/2019 for
Alex M. Azar II. Optional cross
appeal reply brief is due within 21
days of service of third brief on
cross appeal [11053184] [1835872, 18-35845] (JBS) [Entered:
10/19/2018 10:01 AM]
*

4/11/19

16

4/11/19

17

* * * *
Submitted (ECF) excerpts of record. Submitted by Appellant Alex
M. Azar, II in 18-35845, Appellee
Alex M. Azar, II in 18-35872. Date
of
service:
04/11/2019.
[11260797] [18-35845, 18-35872]
(Marcus, Stephanie) [Entered:
04/11/2019 12:16 PM]
Submitted (ECF) First Brief on
Cross-Appeal for review. Submitted by Appellant Alex M. Azar,
II in 18-35845, Appellee Alex M.

3
DATE

4/11/19

DOCKET
NUMBER PROCEEDINGS

Azar, II in 18-35872. Date of
service:
04/11/2019.
[11261303] [18-35845, 18-35872]
(Marcus, Stephanie) [Entered:
04/11/2019 03:48 PM]
Filed clerk order: The first brief
on cross-appeal [17] submitted by
Alex M. Azar, II is filed. Within 7
days of the filing of this order,
filer is ordered to file 7 copies of
the brief in paper format, accompanied by certification (attached
to the end of each copy of the
brief) that the brief is identical to
the version submitted electronically. Cover color: blue. The
Court has reviewed the excerpts
of record [16] submitted by Alex
M. Azar, II. Within 7 days of
this order, filer is ordered to file 4
copies of the excerpts in paper
format securely bound on the left
side, with white covers. The paper copies shall be submitted to
the principal office of the Clerk.
[11261316] [18-35845, 18-35872]
(SML) [Entered:
04/11/2019
03:55 PM]

18

*

*

*

*

*

4
DATE

DOCKET
NUMBER PROCEEDINGS

6/12/19

23

6/12/19

24

6/14/19

25

Submitted (ECF) Second Brief on
Cross-Appeal for review. Submitted by Appellee Empire
Health Foundation in 18-35845,
Appellant Empire Health Foundation in 18-35872.
Date of
service:
06/12/2019.
[11328934] [18-35845, 18-35872]—
[COURT UPDATE:
Attached
corrected brief.
6/13/2019 by
TYL] (Sherman, Teresa) [Entered: 06/12/2019 03:06 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted by
Appellee Empire Health Foundation in 18-35845, Appellant Empire
Health Foundation in 18-35872.
Date of service:
06/12/2019.
[11328943] [18-35845, 18-35872]
(Sherman, Teresa) [Entered:
06/12/2019 03:08 PM]
Filed clerk order: The second
brief on cross-appeal [23] submitted by Empire Health Foundation
is filed. Within 7 days of the filing of this order, filer is ordered
to file 7 copies of the brief in paper
format, accompanied by certification (attached to the end of each
copy of the brief) that the brief is
identical to the version submitted
electronically.
Cover color:

5
DATE

DOCKET
NUMBER PROCEEDINGS

red. The Court has reviewed the
supplemental excerpts of record
[24] submitted by Empire Health
Foundation. Within 7 days of
this order, filer is ordered to file 4
copies of the excerpts in paper
format securely bound on the left
side, with white covers. The paper copies shall be submitted to
the principal office of the Clerk.
[11332545] [18-35845, 18-35872]
(SML) [Entered:
06/14/2019
04:20 PM]
*
8/9/19

30

8/9/19

31

* * * *
Submitted (ECF) Third Brief on
Cross-Appeal for review. Submitted by Appellant Alex M. Azar,
II in 18-35845, Appellee Alex M.
Azar, II in 18-35872. Date of
service:
08/09/2019.
[11393127] [18-35845, 18-35872]
(Marcus, Stephanie) [Entered:
08/09/2019 04:13 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellant Alex M. Azar, II in
18-35845, Appellee Alex M. Azar,
II in 18-35872. Date of service:
08/09/2019. [11393166] [18-35845,
18-35872]

6
DATE

8/12/19

DOCKET
NUMBER PROCEEDINGS

(Marcus, Stephanie) [Entered:
08/09/2019 04:41 PM]
Filed clerk order:
The third
brief on cross-appeal [30] submitted by Alex M. Azar, II is filed.
Within 7 days of the filing of this
order, filer is ordered to file 7 copies of the brief in paper format,
accompanied by certification (attached to the end of each copy of
the brief) that the brief is identical
to the version submitted electronically.
Cover color:
yellow.
The Court has reviewed the supplemental excerpts of record [31]
submitted by Alex M. Azar, II.
Within 7 days of this order, filer is
ordered to file 4 copies of the excerpts in paper format securely
bound on the left side, with white
covers. The paper copies shall
be submitted to the principal
office of the Clerk. [11393836]
[18-35845, 18-35872] (SML) [Entered: 08/12/2019 10:05 AM]

32

*
9/30/19

40

* * * *
Submitted (ECF) Cross-Appeal
Reply Brief for review. Submitted
by Appellee Empire Health Foundation in 18-35845, Appellant
Empire Health Foundation in

7
DATE

10/1/19

DOCKET
NUMBER PROCEEDINGS

18-35872.
Date of service:
09/30/2019.
[11449368] [1835845, 18-35872]—[COURT UPDATE attached corrected PDF of
cross-appeal
reply
brief.
10/01/2019 by KT] (Hettich, Daniel) [Entered: 09/30/2019 06:33
PM]
Filed clerk order: The cross-appeal reply brief [40] submitted by
Empire Health Foundation is
filed. Within 7 days of the filing
of this order, filer is ordered to
file 7 copies of the brief in paper
format, accompanied by certification (attached to the end of each
copy of the brief) that the brief is
identical to the version submitted
electronically.
Cover color:
gray. The paper copies shall be
submitted to the principal office of
the Clerk. [11450227] [18-35845,
18-35872]
(KT)
[Entered:
10/01/2019 01:50 PM]

41

*
2/6/20

46

* * * *
ARGUED AND SUBMITTED
TO MILAN D. SMITH, JR., N.
RANDY SMITH and JOHN R.
TUNHEIM.
[11587896]
[18-35845, 18-35872] (KRK) [Entered: 02/06/2020 11:38 AM]

8
DATE

5/5/20

DOCKET
NUMBER PROCEEDINGS

*

* * * *
FILED OPINION (MILAN D.
SMITH, JR., N. RANDY SMITH
and JOHN R. TUNHEIM) AFFIRMED AND REMANDED.
Judge:
MDS
Authoring.
FILED AND ENTERED JUDGMENT. [11680465] [18-35845, 1835872]—[Edited 05/06/2020 (attached corrected PDF—typo corrected) by AKM] (AKM) [Entered: 05/05/2020 08:01 AM]

*

* * * *
Filed (ECF) Appellant Alex M.
Azar, II in 18-35845, Appellee
Alex M. Azar, II in 18-35872 petition for rehearing en banc (from
05/05/2020 opinion).
Date of
service: 07/14/2020. [11753029]
[18-35845, 18-35872] (Marcus,
Stephanie)
[Entered:
07/14/2020 04:15 PM]
Filed order (MILAN D. SMITH,
JR., N. RANDY SMITH and
JOHN R. TUNHEIM) PlaintiffAppellee is ordered to file a response to Defendant-Appellant’s
petition for rehearing en banc,
filed with this court on July 14,
2020 (Dkt. [51]). The response

48

7/14/20

51

8/5/20

52

9
DATE

DOCKET
NUMBER PROCEEDINGS

shall not exceed 20 pages, and
shall be filed within 21 days of the
date of this order. [11778471]
[18-35845, 18-35872] (WL) [Entered: 08/05/2020 01:36 PM]
*
9/16/20

57

10/20/20

58

* * * *
Filed (ECF) Appellee Empire
Health Foundation in 18-35845,
Appellant Empire Health Foundation in 18-35872 response to Petition for Rehearing En Banc
(ECF Filing), Petition for Rehearing En Banc (ECF Filing) for
rehearing by en banc only (all active, any interested senior judges).
Date of service: 09/16/2020.
[11827002]. [18-35845, 18-35872]
(Hettich,
Daniel)
[Entered:
09/16/2020 07:46 PM]
Filed order (MILAN D. SMITH,
JR., N. RANDY SMITH and
JOHN R. TUNHEIM) Judge M.
Smith voted to deny the petition
for rehearing en banc, and Judges
N.R. Smith and Tunheim so recommended. The full court has
been advised of the petition for rehearing en banc and no judge has
requested a vote on whether to rehear the matter en banc. Fed. R.

10
DATE

10/28/20

DOCKET
NUMBER PROCEEDINGS

App. P. 35. The petition for rehearing en banc is DENIED.
[11865271] [18-35845, 18-35872]
(WL) [Entered:
10/20/2020
11:14 AM]
MANDATE ISSUED.
(MDS,
NRS and JRT) [11873840]
[18-35845, 18-35872] (JFF) [Entered: 10/28/2020 08:55 AM]

59

*

*

*

*

*

11
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON
(SPOKANE)

Case No. 2:16-cv-00209-RMP
EMPIRE HEALTH FOUNDATION FOR VALLEY HOSPITAL
MEDICAL CENTER, PETITIONER
v.
SYLVIA MATTHEWS BURWELL, SECRETARY OF THE
UNITED STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES; THOMAS E. PRICE MD, SECRETARY OF THE
UNITED STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES, DEFENDANTS
DOCKET ENTRIES
DATE

6/9/16

6/14/16

DOCKET
NUMBER PROCEEDINGS

1

4

COMPLAINT for Judicial Review Under the Medicare Act
against Sylvia Matthews Burwell
(Filing fee $ 400; Receipt # 09802356554) Filed by Empire Health
Foundation. (Attachments: #
1 Exhibit Exhibit A to Complaint,
# 2 Summons, # 3 Civil Cover
Sheet) (Sherman, Teresa) (Entered: 06/09/2016)
* * * * *
Summons Issued as to Sylvia
Matthews Burwell. (SK, Case

12
DATE

DOCKET
NUMBER PROCEEDINGS

Administrator)
06/14/2016)
12/5/16

11

1/13/17

15

2/3/17

16

(Entered:

* * * * *
MOTION to Dismiss for Lack of
Jurisdiction by Sylvia Matthews
Burwell.
Motion Hearing set
for 1/27/2017 Without Oral Argument before Judge Rosanna
Malouf Peterson.
(Attachments: # 1 Exhibit, # 2 Exhibit, # 3 Exhibit, # 4 Text of
Proposed
Order)
(Bickford,
James) (Entered: 12/05/2016)
* * * * *
RESPONSE to Motion re 11 MOTION to Dismiss for Lack of Jurisdiction filed by Empire Health
Foundation.
Motion Hearing
set for 2/28/2017 at 10:00 AM Spokane Courtroom 901 before
Judge Rosanna Malouf Peterson.
(Attachments: # 1 Text of Proposed Order) (Sherman, Teresa)
(Entered: 01/13/2017)
REPLY MEMORANDUM re 11
MOTION to Dismiss for Lack of
Jurisdiction filed by Sylvia Matthews Burwell.
(Bickford,
James) (Entered: 02/03/2017)

13
DATE

2/28/17

9/1/17

9/20/17

1/26/18

DOCKET
NUMBER PROCEEDINGS

17

22

26

34

Minute Entry for proceedings
held before Judge Rosanna Malouf
Peterson: Motion Hearing held
on 2/28/2017 re 11 MOTION to
Dismiss for Lack of Jurisdiction
filed by Sylvia Matthews Burwell.
(Reported/Recorded by: Ronelle
F. Corbey) (MF, Courtroom Deputy) (Entered: 02/28/2017)
* * * * *
ORDER GRANTING PLAINTIFF’S MOTION TO SUPPLEMENT THE RECORD 19 AND
DENYING
DEFENDANT’S
MOTION TO DISMISS 11.
Signed by Judge Rosanna Malouf
Peterson.
(VR, Courtroom
Deputy) (Entered: 09/01/2017)
* * * * *
ANSWER to Complaint by
Thomas E Price MD. (Bickford,
James) (Entered: 09/20/2017)
* * * * *
MOTION for Summary Judgment by Empire Health Foundation.
Motion Hearing set for
6/14/2018 at 10:00 AM in Spokane
Courtroom 901 before Judge Ro-

14
DATE

DOCKET
NUMBER PROCEEDINGS

sanna Malouf Peterson. (Sherman,
Teresa)
(Entered:
01/26/2018)
3/13/18

3/13/18

38

40

* * * * *
MOTION to Amend/Correct Administrative Record, MOTION to
Vacate Briefing Schedule by
Thomas E Price MD. Motion
Hearing set for 4/12/2018 Without Oral Argument before Judge
Rosanna Malouf Peterson. (Attachments: # 1 Text of Proposed Order) (Bickford, James)
(Entered: 03/13/2018)
* * * * *
TEXT-ONLY ORDER (no PDF
will issue) granting ECF No. 38,
Motion to Amend/Correct Administrative Record, Motion to
Vacate Briefing Schedule, and
ECF No. 39, Motion to Expedite
hearing of the same. Defendant
shall produce the missing rulemaking record to Plaintiff no
later than March 23, 2018. The
current summary judgment briefing schedule as outlined in the
Court’s text-order at ECF No. 37
is vacated, and a new briefing

15
DATE

DOCKET
NUMBER PROCEEDINGS

schedule will be set after consultation between the attorneys.
This text-only entry constitutes
the Court’s ruling on these matters. Signed by Judge Rosanna
Malouf Peterson. (MS, Judicial
Assistant) (Entered: 03/13/2018)
5/9/18

46

5/9/18

47

6/8/18

48

6/29/18

49

* * * * *
Cross MOTION for Summary
Judgment by Thomas E Price
MD.
Motion Hearing set for
7/10/2018 at 01:30 PM in Spokane
Courtroom 901 before Judge Rosanna Malouf Peterson.
(Attachments: # 1 Text of Proposed Order) (Bickford, James)
(Entered: 05/09/2018)
RESPONSE to Motion re 34 MOTION for Summary Judgment
filed by Thomas E Price MD.
(Bickford, James) (Entered:
05/09/2018)
REPLY MEMORANDUM re 46
Cross MOTION for Summary
Judgment, 34 MOTION for Summary Judgment filed by Empire
Health Foundation. (Sherman,
Teresa) (Entered: 06/08/2018)
REPLY MEMORANDUM re 46
Cross MOTION for Summary
Judgment filed by Thomas E

16
DATE

DOCKET
NUMBER PROCEEDINGS

Price MD. (Attachments: # 1
Exhibit Memorandum Opinion in
Stringfellow v. Azar) (Bickford,
James) (Entered: 06/29/2018)
7/10/18

53

8/3/18

55

8/3/18

56

8/13/18

57

* * * * *
Minute Entry for proceedings
held before Judge Rosanna Malouf
Peterson: Motion Hearing held
on 7/10/2018 re 46 Cross MOTION for Summary Judgment
filed by Thomas E Price MD, 34
MOTION for Summary Judgment filed by Empire Health
Foundation. (Reported/Recorded
by:
Allison R. Stovall) (MF,
Courtroom Deputy) (Entered:
07/10/2018)
* * * * *
APPENDIX (Rulemaking Record) by Thomas E Price MD.
(Bickford, James) (Entered:
08/03/2018)
APPENDIX (PRRB Record) by
Thomas E Price MD. (Bickford,
James) (Entered: 08/03/2018)
ORDER GRANTING IN PART
AND DENYING IN PART 34
PLAINTIFFS MOTION FOR
SUMMARY JUDGMENT, AND
DENYING 46 DEFENDANTS

17
DATE

81/3/18

DOCKET
NUMBER PROCEEDINGS

58

10/11/18

59

10/11/18

60

MOTION FOR SUMMARY
JUDGMENT.
Case
is
CLOSED. Signed by Judge Rosanna Malouf Peterson.
(LR,
Case Administrator) (Entered:
08/13/2018)
JUDGMENT IN A CIVIL ACTION in favor of Plaintiff. (LR,
Case Administrator) (Entered:
08/13/2018)
* * * * *
LODGED NOTICE OF APPEAL from District Court decision as to 58 Clerk’s Judgment, 57
Order on Motion for Summary
Judgment, by Thomas E Price
MD.
Filing fee $505, receipt
number WAIVED.
(Bickford,
James) (Entered: 10/11/2018)
NOTICE OF APPEAL from District Court decision as to 58
Clerk’s Judgment filed 8/13/18 57
Order on Motion for Summary
Judgment filed 8/13/18 by
Thomas E Price MD cc: Court
Reporter: Ronelle Corbey, Allison Stovall.
(VR, Courtroom
Deputy) Modified on 10/12/2018
(9CCA No. 18-35845) (VR, Courtroom
Deputy).
(Entered:
10/11/2018)

18
DATE

10/17/18

5/5/20

10/28/20

DOCKET
NUMBER PROCEEDINGS

64

68

71

* * * * *
NOTICE OF CROSS APPEAL
from District Court decision as to
58 Clerk’s Judgment, 57 Order on
Motion for Summary Judgment,
by Empire Health Foundation.
Filing fee $505, receipt number
0980-3012047.
(Sherman, Teresa) Modified on 10/19/2018
(9CCA No. 18-35872) (VR, Courtroom Deputy).
(Entered:
10/17/2018)
* * * * *
9CCA Slip Opinion: Decision of
the District Court is Affirmed &
Remanded.
9CCA Case No.
18-35845 & 18-35872. (SG, Case
Administrator)
(Entered:
05/05/2020)
* * * * *
MANDATE from 9CCA as to 60
Notice of Appeal, filed by Thomas
E Price MD and 64 Notice of
Cross Appeal, filed by Empire
Health Foundation. Decision of
the District Court is Affirmed
and Remanded. 9CCA:
1835845 & 18-35872. (SG, Case
Administrator)
(Entered:
10/28/2020)

19
DATE

11/30/20

DOCKET
NUMBER PROCEEDINGS

72

1/8/21

78

1/25/21

79

3/12/21

80

MOTION to Enforce Judgment
of Mandate of the Court of Appeals by Empire Health Foundation.
Motion Hearing set for
1/21/2021 Without Oral Argument
before Judge Rosanna Malouf
Peterson.
(Sherman, Teresa)
(Entered: 11/30/2020)
* * * * *
MEMORANDUM in Opposition
re 72 MOTION to Enforce Judgment of Mandate of the Court of
Appeals filed by Thomas E Price
MD.
(Bickford, James) (Entered: 01/08/2021)
REPLY MEMORANDUM re 72
MOTION to Enforce Judgment
of Mandate of the Court of Appeals filed by Empire Health
Foundation.
(Hettich, Daniel)
(Entered: 01/25/2021)
ORDER GRANTING IN PART
AND DENYING IN PART 72
PLAINTIFF’S MOTION TO
ENFORCE MANDATE OF
THE COURT OF APPEALS;
Court REMANDS to the Provider Reimbursement Review
Board. Case Management Deadline set for 9/13/2021. Signed by
Judge Rosanna Malouf Peterson.

20
DATE

DOCKET
NUMBER PROCEEDINGS

(SG, Case Administrator) (Entered: 03/12/2021)
*

*

*

*

*

21
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

No.
EMPIRE HEALTH FOUNDATION FOR VALLEY HOSPITAL
MEDICAL CENTER MEDICARE COST REPORT
09/30/2008, PLAINTIFF
v.
SYLVIA MATTHEWS BURWELL SECRETARY OF THE
UNITED STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES, DEFENDANT
Filed:

June 9, 2016

COMPLAINT FOR JUDICIAL REVIEW UNDER THE
MEDICARE ACT

The above-named Plaintiff, by and through their undersigned counsel, state the following in the form of this
Complaint against SYLVIA MATTHEWS BURWELL,
Secretary of the United States Department of Health
and Human Services (the “Secretary”):
I.

INTRODUCTION

1. Plaintiff (also referred to hereinafter as the
“Hospital”) was, at all relevant times, a not-for-profit
hospital that participated in the Medicare and Medicaid
programs. The Hospital challenges the Secretary’s
policy of treating patient days for which no payment
was received under Medicare Part A as nonetheless “entitled to benefits under part A” for purposes of calculat-

22
ing both fractions of the Disproportionate Share Hospital (“DSH”) payment adjustment.
See 42 U.S.C.
§ 1395ww(d)(5)(F)(vi) (the “Medicare DSH Statute”).
If the Secretary’s treatment of unpaid Part A days as
“days entitled to benefits under part A” is upheld, the
Hospital contends that the Secretary must at least apply
that interpretation of the word “entitled” consistently
by also treating days for which no supplemental security
income payments were received as days “entitled to supplemental security income benefits” under 42 U.S.C.
§ 1395ww(d)(5)(F)(vi)(I).
As explained below, the Secretary’s policy of applying different interpretations to the same term, “entitled,” used in the same sentence of the statute is the
epitome of arbitrary and capricious agency action and
must be reversed. See Northeast Hosp. Corp. v. Sebelius, 657 F.3d 1, 20 n.1 (D.C. Cir. 2011) (Kavanaugh, J.,
concurring) (“HHS thus interprets the word “entitled”
differently within the same sentence of the statute.
The only thing that unifies the Government’s inconsistent definitions of this term is its apparent policy of
paying out as little money as possible. I appreciate the
desire for frugality, but not in derogation of law.”);
see also Walter O. Boswell Mem’l Hosp. v. Heckler, 749
F.2d 788, 799 (D.C. Cir. 1984) (“It would be arbitrary
and capricious for [the Secretary] to bring varying interpretations of the statute to bear, depending upon
whether the result helps or hurts Medicare’s balance
sheets. . . . ”).
II.

JURISDICTION AND VENUE

2. This action arises under Title XVIII of the Social
Security Act, as amended (“Medicare Act”) (42 U.S.C.

23
§§ 1395 et. seq.), and the Administrative Procedure Act
(“APA”), 5 U.S.C. §§ 551 et seq.
3. This Court has jurisdiction under 42 U.S.C.
§ 1395oo(f )(1), to review a final decision of the Provider
Reimbursement Review Board (“PRRB”). The final
decision of the PRRB, granting expedited judicial review, was issued April 8, 2016 under PRRB Case No.
15-3126GC, a copy of which is attached hereto as Exhibit
“A.” This decision was received by the Hospital several days after it was issued and this action is therefore
timely pursuant to 42 U.S.C. § 1395oo(f )(1) and 42
C.F.R. § 405.1801.
4. Pursuant to 42 U.S.C. § 1395oo(f )(1), venue is
proper in the judicial district in which the provider is located. Plaintiff is located in the judicial district for
Eastern Washington.
III.

PARTIES

5. Plaintiff, Empire Health Foundation, acquired
the assets consisting of any outstanding Medicare reimbursement owed to Valley Hospital Medical Center for
the Medicare cost year at issue. Valley Hospital Medical Center operated a short-term acute care hospital assigned Medicare Provider No. 50-0119, with this action
covering its Medicare fiscal year ending September 30,
2008. At all relevant times, Plaintiff had a Medicare
provider agreement and was eligible to participate in
the Medicare Program.
6. Defendant, SYLVIA MATTHEWS BURWELL
is the Secretary of the Department of Health and Human Services, 200 Independence Avenue, S.W., Washington D.C. 20201, the federal agency responsible for

24
the administration of the Medicare and Medicaid Programs. Defendant BURWELL is sued in her official
capacity. References to the Secretary herein are meant
to refer to her, to her subordinates, and to her official
predecessors or successors as the context requires.
7. The Center for Medicare and Medicaid Services
(“CMS”) is a component of the Department of Health
and Human Services (“HHS”) with responsibility for
day-to-day operations and administration of the Medicare program. References to CMS herein are meant to
refer to the agency and its predecessors.
IV.

THE MEDICARE PROGRAM

8. Congress enacted the Medicare Program (Title
XVIII of the Social Security Act) in 1965. As originally
enacted, Medicare was a public health insurance program that furnished health benefits to the aged, blind
and disabled. Over the years, the scope of benefits and
covered individuals has been expanded.
9. Among the benefits covered by Medicare are inpatient hospital services. For cost reporting years beginning prior to October 1, 1983, the Medicare Program
reimbursed inpatient hospital services on a “reasonable
cost” basis. 42 U.S.C. § 1395f(b). Effective with cost
reporting years beginning on or after October 1, 1983,
Congress adopted a prospective payment system (“PPS”)
to reimburse most acute care hospitals, including Plaintiff, for inpatient operating costs. 42 U.S.C. § 1395ww(d).
Under PPS, hospitals are paid a fixed amount for services rendered based upon diagnosis-related groups
(“DRGs”), subject to certain payment adjustments, such
as the DSH payment at issue here.

25
10. The Secretary has delegated much of the responsibility for administering the Medicare Program to
CMS, which was formerly known as the Health Care Financing Administration.
The Secretary, through
CMS, contracted out many of the audit and payment
functions for inpatient hospital care furnished to Medicare program beneficiaries to organizations known as
fiscal intermediaries or Medicare administrative contractors (“Medicare contractor”). 42 U.S.C. § 1395h.
11. At the close of the fiscal year, a hospital provider
of services must submit to its Medicare contractor a cost
report showing the allowable costs incurred and amounts
due from Medicare for the fiscal year and the payments
received from Medicare. The Medicare contractor is
required to audit the cost report and inform the hospital
provider of a final determination of the amount of Medicare reimbursement through a Notice of Program Reimbursement (“NPR”). 42 CFR §405.1803.
12. A hospital provider dissatisfied with its Medicare contractor’s determination may file an appeal to the
Provider Reimbursement Review Board (“PRRB”) as
long as the amount in controversy is $10,000 or more and
the request for hearing is within 180 days of the date the
hospital provider receives the NPR.
42 U.S.C. §
1395oo(a). The PRRB was established by the Social Security Amendments of 1972 (Pub. L. 92-603) as a national, independent forum for hearing and deciding payment disputes between hospital providers and their
Medicare contractors.
13. Upon filing a timely hearing request, a hospital
provider may add specific Medicare payment issues to
the original hearing request by submitting a written request to the PRRB within no later than 60 days after the

26
expiration of the applicable 180-day period to file the initial hearing request. 42 C.F.R. § 405.1835(e).
14. Pursuant to PRRB Rule 16 a hospital provider
may transfer a specific issue from an individual appeal
to an existing group appeal when there is a single common issue to be resolved. The PRRB Rules set out the
documentation requirements for such a transfer.
15. The decision of the PRRB is a final administrative decision, unless the Secretary, through the Administrator of CMS, reviews the PRRB’s decision; the Administrator may reverse, affirm or modify the PRRB’s
decision. 42 U.S.C. § 1395oo(f ). When the PRRB
grants a hospital provider’s request for expedited judicial review (“EJR”) because it has jurisdiction over an
appeal but lacks the authority to grant the relief requested, the Administrator of CMS may only review the
jurisdictional component of the PRRB’s EJR decision.
The Administrator of CMS may not review the PRRB’s
determination of its authority to decide the legal question. 42 C.F.R. § 405.1842(g)(1)(i) and (ii).
16. A hospital provider has the right to obtain judicial review of any final decision of the PRRB, or of the
Secretary, by filing a civil action within 60 days of the
date on which notice of any final decision by the PRRB,
or of any reversal, affirmance, or modification by the
Secretary, is received. 42 U.S.C. § 1395oo(f ). Pursuant to 42 C.F.R. § 405.1801 the date of receipt for a decision of the PRRB is presumed to be 5 days after the
date of issuance of such decision. If the PRRB grants
EJR, the hospital provider may file a complaint in Federal district court in order to obtain review of the legal
question. 42 C.F.R. § 405.1842(g)(2).

27
V.

THE MEDICARE DISPROPORTIONATE SHARE
PAYMENT ADJUSTMENT

17. In 1986, Congress amended Title XVIII of the
Social Security Act to require the Secretary to make additional payments to hospitals that serve “a significantly
disproportionate number of low-income patients . . . ”
42 U.S.C. § 1395ww(d)(5)(F)(i)(I). Eligibility for these
“disproportionate share” (DSH) payments, and the level
of these payments, is based on the calculation of a “disproportionate share percentage” that considers the
number of low-income patients a hospital serves. See
42 U.S.C. §§ 1395ww(d)(5)(F)(v) and (vi).
18. As the Ninth Circuit observed in Portland Adventist Medical Ctr. v. Thompson, 399 F.3d 1091, 1095
(9th Cir. 2005) (quoting Legacy Emanuel Hosp. & Health
Ctr. v. Shalala, 97 F.3d 1261, 1265 (9th Cir. 1996)):
Congress “overarching intent” in passing the [Medicare] disproportionate share provision was to supplement the prospective payment system payments of
hospitals serving “low income” persons . . . Congress intended the Medicare and Medicaid fractions
to serve as a proxy for all low-income patients.
19. To be eligible for the DSH payment, a hospital
must meet certain systemic criteria, including a disproportionate patient percentage that exceeds the threshold. The amount of the DSH payment then depends
upon the extent to which the disproportionate patient
percentage exceeds the threshold.
20. The disproportionate patient percentage is statutorily defined as the sum of two fractions expressed as
a percentage for a hospital’s cost reporting period.

28
These fractions are commonly known as the “SSI fraction” and the “Medicaid fraction,” respectively, and are
defined as follows:
(I) The fraction (expressed as a percentage) the
numerator of which is the number of such hospital’s
patient days for such period which were made up of
patients who (for such dates) were entitled to benefits under part A of this title and were entitled to supplemental security income benefits (excluding any
State supplementation) under title XVI of this Act,
and the denominator of which is the number of such
hospital’s patient days for such fiscal year which were
made up of patients who (for such days) were entitled
to benefits under part A of this title,
. . .
(II) The fraction (expressed as a percentage), the
numerator of which is the number of the hospital’s
patient days for such period which consists of patients who (for such days) were eligible for medical
assistance under a State plan approved under title
XIX of this chapter, but who were not entitled to benefits under part A of this title, and the denominator
of which is the total number of the hospital’s patient
days for such period.
42 U.S.C. § 1395ww(d)(5)(F)(vi) (emphasis added).
21. As set forth in the statutory language above, the
numerator of the Medicaid fraction consists of days of
patients who were both eligible for medical assistance
under Title XIX, or Medicaid, and not entitled to benefits under Part A of Title XVII, or Medicare. The denominator for the Medicaid fraction is the hospital’s total patient days for the period. The statutory language

29
defines the SSI fraction as consisting solely of days for
patients who were “entitled to benefits under part A” of
Medicare. The denominator of the SSI fraction includes all Part A days, and the numerator includes only
those Part A days for patients who are also entitled to
social security income (“SSI”) benefits.
22. The Secretary implemented the Medicare DSH
provisions through 42 C.F.R. § 412.106. The portion of
the regulation which applies to the SSI fraction, prior to
the change in language in 2008, states:
(b) Determination of a hospital’s disproportionate
patient percentage—
(1) General Rule. A hospital’s disproportionate
patient percentage is determined by adding the
results of two computations and expressing that
sum as a percentage.
(2) First computation: Federal fiscal year. For
each month of the Federal fiscal year in which
the hospital’s cost reporting period begins,
CMS—
(i)

Determines the number of covered patient
days that—
(A) Are associated with discharges occurring during each month; and
(B) Are furnished to patients who during
that month were entitled to both
Medicare Part A and SSI, excluding
those patients who received only
State supplementation;

(ii) Adds the results for the whole period; and

30
(iii) Divides the number determined under paragraph (b)(2)(ii) of this section by the total
number of patient days that—
(A)

Are associate with discharges that
occur during that period; and

(B)

Are furnished to patients entitled to
Medicare Part A.

(emphasis added to the word “covered”). The change
to the regulation which first appeared in the 2008 regulations, but allegedly effective October 1, 2004, omits the
word “covered”:
(b) Determination of a hospital’s disproportionate
patient percentage—
(1) General Rule. A hospital’s disproportionate
patient percentage is determined by adding the
results of two computations and expressing that
sum as a percentage.
(2) First computation: Federal fiscal year. For
each month of the Federal fiscal year in which
the hospital’s cost reporting period begins, CMS—
(i)

(ii)

Determines the number of patient days
that—
(A)

Are associated with discharges occurring during each month; and

(B)

Are furnished to patients who during that month were entitled to both
Medicare Part A and SSI, excluding
those patients who received only
State supplementation;

Adds the results for the whole period; and

31
(iii)

Divides the number determined under paragraph (b)(2)(ii) of this section by the total
number of patient days that—
(A)

Are associate with discharges that
occur during that period; and

(B)

Are furnished to patients entitled to
Medicare Part A.

23. While the Secretary attempted to enshrine
her policy in regulation by amending 42 C.F.R.
§ 412.106(b)(2) through rulemaking as described above,
she has now acquiesced to the D.C. Circuit’s decision in
Allina Health Servs. v. Sebelius, 746 F.3d 1102, 1111
(D.C. Cir. 2014) (“Allina”) that her rulemaking process
violated the APA. Since all hospitals have recourse to
the D.C. Circuit for their Medicare reimbursement appeals, the Secretary conceded that “the 2004 Final Rule
has ceased to exist.” See Def ’s Response to the Court’s
Sept. 29, 2014 Minute Order at 2, Allina Health Servs.
v. Sebelius, 904 F. Supp. 2d 75 (D.D.C. 2012), aff ’d in
part, rev’d in part, 746 F.3d at 1111 (No. 1:14-cv-01415RMC), ECF No. 13 (“Because the D.C. Circuit upheld
[the vacat[ur] of the 2004 Final Rule] . . . , the 2004
Final Rule has ceased to exist”); see also 42 U.S.C.
§ 1395hh(a)(4) (stating that when a final Medicare rule
is not the logical outgrowth of a proposed rule that it
“shall be treated as a proposed regulation and shall not
take effect until there is the further opportunity for public comment and a publication of the provision again as
a final regulation”).
That recently invalidated regulation, however, was
clearly relied upon in establishing the Hospital’s DSH
percentage for its 2008 cost reporting period and was

32
relied upon in the final decision of the Secretary in this
case. See Exhibit A.
While the Hospital believes that the reliance on the
invalidated regulation was error, it is nonetheless true
that the Secretary continues to consider an individual to
be “entitled to benefits under Part A,” regardless of
whether the days were “covered” or not “covered” by
Medicare Part A, even in the absence of the invalidated
regulation.
In other words, it is the Secretary’s policy that noncovered categories of Medicare Part A days—for example, days for which Part A benefits have been exhausted,
days for which payment was made under Part C and not
Part A, and days for which Medicare Part A was a secondary payor and therefore made no payments, are included in the SSI fraction and, even if Medicaid eligible,
excluded from the Medicaid fraction.
24. Despite the Secretary’s policy of treating unpaid
Part A days as days entitled to benefits under Part A,
CMS has at all times required that a beneficiary be paid
SSI benefits (or “covered” by SSI) during the period of
his or her hospital stay in order for such days to be included in the numerator of the SSI fraction as a day “entitled to supplemental security income benefits.” The
Secretary, therefore, does not include days in the numerator of the SSI fraction when individuals were eligible for SSI but did not receive SSI payment during their
hospitalization for such reasons as failure of the beneficiary to have a valid address, representative payee problems, Medicaid paying for more than 50% of the cost of
care in a medical facility, or the period of hospitalization
is during the first month of eligibility before a cash pay-

33
ment is made. This policy ultimately reduces the Secretary’s DSH payment obligation, as does the Secretary’s wholly inconsistent policy of treating unpaid Part
A days as days entitled to benefits under Part A.
25. Of more than 100 Social Security Administration
payment status codes, the Secretary only uses C01, M01,
and M02, to identify SSI entitled individuals. 75 Fed.
Reg. 50280-50281 (August 16, 2010).
The Secretary is aware of other payment codes, as
identified in the August 16, 2010 Federal Register, that
could be used to determine the numerator of the SSI
fraction, but has adopted a policy of including only codes
reflecting actual SSI cash payments. Id.
26. The Secretary has a consistent practice of limiting and paying out as little money as possible to hospitals. An analysis of CMS Administrator decisions (Exhibit P-4 to Plaintiff ’s Position Paper filed with the PRRB)
demonstrates the Secretary’s bias and record of ruling
against hospitals in appeals for Medicare reimbursement.
27. In sum, the Secretary contends that “the phrase
‘entitled to benefits under part A’ applies to all individuals who meet the statutory criteria in 42 U.S.C. § 426(a)
and (b) for receiving ‘hospital insurance benefits under
Part A,’ ” Northeast Hosp. Corp., 657 F.3d at 20 n.1, but
does not interpret the analogous phrase “entitled to supplemental security income benefits” as encompassing all
individuals who meet the statutory criteria in 42 U.S.C.
§ 1382(a) for receiving supplemental security income
benefits. Because these contradictory interpretations
reduce the Secretary’s DSH payment obligation, they
can only be reconciled with the Secretary’s interest in

34
“paying out as little money as possible.” Id. The Secretary has, therefore, arbitrarily and capriciously adopted
two conflicting interpretations of the same word in the
same sentence.
VI.

THE HOSPITAL’S ADMINISTRATIVE APPEAL

28. On August 10, 2012, the Medicare contractor,
Wisconsin Physicians Services, issued a NPR for the
Hospital’s cost reporting period ending September 30,
2008 (“FYE 9/30/2008”).
29. This NPR for FYE 9/30/2008 was timely appealed to the PRRB on November 1, 2012 by written
request for hearing. The PRRB assigned Case No.
13-0059 for the hearing request.
30. The Hospital timely added additional issues to
PRRB Case No. 13-0059, including the issue currently
before this Court, and subsequently transferred the issue to the group that was the subject of the PRRB’s
EJR decision at issue here.
31. The Hospital then filed Requests to Transfer
some of the issues to existing group appeals pursuant to
the Board’s Rules. The DSH SSI percentage Systemic
Errors issue was transferred to Case. No. 15-3126GC.
32. In a related decision for the only other provider
in PRRB Case 15-3126GC, Deaconess Medical Center
fiscal year end 9/30/2008, the PRRB found it did not
have jurisdiction over Deaconess’s appeal because of
unique procedural circumstances that are not applicable
to the Hospital here. The PRRB therefore dismissed
Deaconess’s appeal on February 23, 2016 and Empire
Health Foundation filed a Complaint for Judicial Review of that final decision on April 27, 2016 under Cause
No. 2:16-cv-00135-RMP in this Court.

35
33. By decision dated April 8, 2016, the PRRB found
that it had jurisdiction over the Hospital’s appeal but
lacked the authority to grant the relief requested by the
Hospital and therefore granted the Hospital’s request
for EJR on the group appeal issue in PRRB Case No.
15-3126GC. A copy of this decision is attached as Exhibit “A”.
VII.

ASSIGNMENT OF ERRORS

34. The applicable provisions of the APA provide
that the “reviewing court shall . . . hold unlawful
and set aside agency action . . . found to be . . .
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law; . . . (C) in excess
of statutory jurisdiction, authority, or limitations, or
short of statutory right; (D) without observance of procedure required by law; [or] (E) unsupported by substantial evidence[.]” 5 U.S.C. §706(2).
35. The Secretary’s determination to treat days for
which no Part A payments were made as nonetheless
“entitled to benefits under part A” is arbitrary and capricious and otherwise contrary to law because it is:
a) inconsistent with the plain language of the
Medicare statute and conflates the statutory term
“entitled” with the statutory term “eligible”;
b) inconsistent with the plain language of the
controlling pre-2004 regulation, which explicitly included only “covered,” i.e., “paid,” Part A days and
that pre-2004 is controlling since CMS admitted that
its attempt to amend that 2004 regulation was procedurally invalid and “ceased to exist”;
c) inconsistent with the Secretary’s longstanding interpretation of “entitled to benefits under Part

36
A” to mean “entitled to payment under Part A,” see
55 Fed. Reg. 35990, 35996 (“entitle[ment] to benefits
under part A” ceases when “[e]ntitlement to payment
under part A ceases”); and
d) inconsistent with the Secretary’s longstanding interpretation of “entitled to supplemental security income benefits” as including only SSI days for
which payment was actually made, see, e.g., 75 Fed.
Reg. 50042, 50280 (Aug. 16, 2010) (stating that “[e]ntitlement to” receive SSI benefits [requires that an
individual] ‘be paid benefits by the Commissioner of
the Social Security’. . . . ”).
36. The Secretary’s interpretation of “entitled to
supplemental security income benefits” under 42 U.S.C.
§ 1395ww(d)(5)(F)(vi)(I) as including only days for which
actual SSI payments were made is arbitrarily and capriciously inconsistent with her policy described above of
treating unpaid Part A days as “entitled to benefits under part A” and arbitrarily assigns two different meanings to the same term “entitled.”
In addition, because the purpose of the DSH adjustment is to provide additional payment to hospitals that
incur higher costs in treating low-income patients, an
agency interpretation that does not take into account
SSI payment status codes associated with eligible SSI
individuals is also unreasonably and impermissibly inconsistent with the legislative history and purpose of the
Medicare DSH Statute.
37. For the reasons set forth above, the Secretary’s
amendment of the regulation, and policy in its applica-

37
tion, conflicts with the Medicare DSH Statute and is otherwise arbitrary and capricious, as well as an abuse of
discretion.
WHEREFORE the Hospital requests an order:
(a) Declaring invalid and enjoining the Secretary
from applying her policy that unpaid Medicare Part A
days are “days entitled to benefits under part A” for
purposes of the DSH SSI and Medicaid fractions or, in
the alternative, directing the Secretary to include unpaid SSI eligible patient days in the numerator of the
SSI percentage utilizing SSI payment status codes that
reflect the individuals’ eligibility for SSI—even if the individuals did not receive SSI payments;
(b) Directing the Secretary to calculate the Plaintiff
Hospital’s DSH payment consistent with that Order and
to make prompt payment of any additional amounts due
to the Plaintiff Hospital plus interest calculated in accordance with 42 U.S.C. § 1395oo(f )(2); and
(c) For Plaintiff ’s costs and reasonable attorney’s
fees, and for such other and further relief as the Court
deems appropriate.

38
Dated this 9th day of June, 2016.
PAUKERT & TROPPMANN, PLLC
By: /s/ TERESA A. SHERMAN
TERESA A. SHERMAN
WSBA No. 14637
Attorney for Plaintiff
Paukert & Troppmann, PLLC
522 W. Riverside Avenue, Suite 560
Spokane, WA 99201
Telephone: (509) 324-3331
Fax: (509) 232-7762
Email: tsherman@pt-law.com

39
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Health Care Financing Administration
42 CFR Parts 405, 409, and 489
Medicare Program; Prospective Payment for Medicare
Inpatient Hospital Services

Health Care Financing Administration
(HCFA), HHS
AGENCY:

ACTION:

Final rule.
*

*

*

*

*

E. Hospitals with Disproportionate Numbers of Low
Income Patients or Medicare Beneficiaries or Both

Section 1886(d)(5)(C)(i) authorizes adjustments to
the propsective payment rates in consideration of the
special needs of certain classes of hospitals that incur
additional costs because they serve a significantly disproportionate number of low income patients or Medicare Part A beneficiaries or both. We did not make
special provisions for these hospitals in the regulations
(§ 405.476) because our current data do not show that an
adjustment is warranted.
Comment—A number of commenters stated that
hospitals with disproportionate numbers of low income
patients or Medicare beneficiaries or both should receive special treatment because of the excess cost of
providing health care to this group resulting from additional staffing, supplies and lengths of stay. The commenters believe that a review and analysis of bad debt
and charity cases should be undertaken in addition to
the studies of Medicaid recipients which may vary from
State to State.

40
Response—We have previously responded to this issue in the following documents:
Interim final notice on Schedules of Limits on Hospital Inpatient Operating Costs (47 FR 43296);
Final notice on Schedule of Limits on Hospital Inpatient Operating Costs (48 FR 39426); and
Interim final rules on Prospective Payment for Medicare Inpatient Hospital Services (48 FR 39752).
We direct you to our responses published in these
documents for a complete discussion of the reasons for
our decision not to make special provision in such cases.
In summary and after a careful review of all comments received, we repeat that the data now available to
us do not indicate that Medicare cost is generally affected by disproportionate numbers of low income patients or Part A beneficiaries. Therefore, there is not
a sufficient basis for providing for an exception or adjustment at this time for hospitals that treat these patients. These hospitals may have a problem with bad
debts. However, under the Act and long­standing regulations, Medicare is prohibited from reimbursing for
bad debts other than uncollectible deductible and coinsurance amounts attributable to Medicare beneficiaries.
This part of the law was not altered by Pub. L. 98-21.
We are continuing to examine this issue further to
determine what action may be appropriate with respect
to these types of hospitals. After consultation with industry representatives, we have agreed to an independent study of our data. As of this date, the study is
still ongoing. Preliminary analysis of 487,706 1980 discharges across the nation’s large urban hospitals is

41
yielding results which differ greatly from other studies.
Our preliminary work shows that:
• Large urban non-public general hospitals have
an average length-of-stay for their Medicare patients
that is 63 days greater than the average length-of­stay
for Medicare patients at a public general hospital.
• Nineteen out of the 20 most common DRGs at
large urban hospitals had greater Medicare average
lengths-of­stay at the non-public general hospitals than
at the public general hospitals.
• For the DRGs where discharge data is available,
the majority of the DRGs have a longer Medicare average length­of-stay at the large non-public general urban
hospitals compared to the public general hospitals.
• The percentage of Medicare average length-ofstay long-stay cases to hospital discharges is greater at
the large non-public general urban hospitals compared
to the public general hospitals. This conclusion was
consistent across five separate definitions of long-stay
case boundaries.
Our preliminary data analysis is using 1980 data from
MEDPAR, the Medicare Cost Reports, the Office of
Civil Rights hospital survey and other previously generated HCFA data such as the Medicare Case-Mix Index,
the Bureau of Labor Statistics hospital wage index and
the ratio of interns and residents to beds. These data
are the best available data we have to conduct our analysis. We will evaluate the results once the final report
is completed. If this evaluation shows there is a need
and basis for an adjustment, we will take appropriate
action.

42
Comment—One commenter suggested that the study
we are conducting should not examine public general
hospitals as a group, but rather those hospitals (both
public general hospitals and private hospitals) which
have a disproportionate number of low-income patients.
Response—Our current public general hospital analysis has examined a hospital’s percentage of Medicaid
admissions as an indicator of its proportion of lowincome patients. This is the best surrogate variable
available to use as an indicator of a hospital’s proportion
of low-income patients. Our current study results to
date show that a significantly higher percentage of Medicaid patients are served by the public general hospitals
compared to the other large urban hospitals. This
finding leads us to believe that the public general hospitals as a group treat a higher proportion of low-income
patients than do the private hospitals. We have not
pursued a study which specifically examines low income
patients independent of their Medicaid status because
we do not have a measure of patients’ incomes.
Comment—One commenter stated, that in their
study, hospitals serving disproportionate numbers of
low-income patients or Medicare beneficiaries have the
following characteristics:
• Municipal hospitals have a greater concentration of more complex cases attributable to the variety of
diagnoses within DRG’s.
• Voluntary hospitals perform more surgery; however, the performance of surgery is not automatically
associated with a higher level of complexity.
• A significantly greater proportion of outlier admissions occur through public hospital emergency rooms

43
and these may be associated with a significantly larger
average length-of-stay.
• Cost alone may be inadequate to measure the
special need of low-income patients. Additional focus
is required on the needs of these patients, not merely
the costs.
Response—Contrary to this commenter’s study, preliminary findings from our current analysis indicate the
following:
• Our 1980 national data for large urban hospitals
has shown that the Medicare Case-Mix Index (MCMI)
at the public general hospitals is 1.114. The MCMI at
the other non-public general hospitals is 1.111. This
difference is slight and was not statistically significant.
• Our study of large urban hospitals using 1980
data concludes that the non­public general hospitals
have a longer Medicare average length-of-stay than the
public general hospitals do. Our data show that these
non-public general hospitals had an average length-ofstay of 11.59 days for their Medicare patients compared
to the average length-of-stay for Medicare patients of
10.96 days at the public general hospitals. Our data
also show that Medicare length-of-stay long-stay cases
represent a higher percentage of Medicare discharges
at the non-public general hospitals compared to the public general hospitals.
• The study is also looking at Medicare average
cost per case and Medicare average length-of-stay.
However, other “need” variables such as a hospital’s
percentage of patients having surgery, and the percentage of a hospital’s inpatients admitted from the emergency room are being examined descriptively. As

44
many low-income patient resource need variables as are
available are included in our current research.
*

*

*

*

*

45
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 412 and 413
[CMS–1470–P]
RIN 0938–AL89
Medicare Program; Proposed Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year
2004 Rates
AGENCY: Centers for Medicare and Medicaid Services (CMS), HHS.
ACTION:

Proposed rule.
*

7.

*

*

*

*

Dual-Eligible Patient Days

As described above, the DSH patient percentage is
equal to the sum of the percentage of Medicare inpatient
days attributable to patients entitled to both Medicare
Part A and SSI benefits, and the percentage of total inpatient days attributable to patients eligible for Medicaid but not entitled to Medicare Part A benefits. If a
patient is a Medicare beneficiary who is also eligible for
Medicaid, the patient is considered dual-eligible and
the patient days are included in the Medicare fraction of
the DSH patient percentage but not the Medicaid fraction. This is consistent with the language of section
1886(d)(5)(F)(vi)(II) of the Act, which specifies that patients entitled to benefits under Part A are excluded
from the Medicaid fraction.
This policy currently applies even after the patient’s
Medicare coverage is exhausted. In other words, if a

46
dual-eligible patient is admitted without any Medicare
Part A coverage remaining, or the patient exhausts
Medicare Part A coverage while an inpatient, his or her
patient days are counted in the Medicare fraction before
and after Medicare coverage is exhausted. This is consistent with our inclusion of Medicaid patient days even
after the patient’s Medicaid coverage is exhausted.
We are proposing to change our policy, to begin to
count in the Medicaid fraction of the DSH patient percentage the patient days of dual-eligible Medicare beneficiaries whose Medicare coverage has expired. We
note the statute referenced above stipulates that patient
days attributable to patients entitled to benefits under
Medicare Part A are to be excluded from the Medicaid
fraction, while the statute specifies the Medicaid fraction is to include patients who are eligible for Medicaid.
As noted above, our current policy regarding dualeligible patient days is that they are counted in the Medicare fraction and excluded from the Medicaid fraction,
even if the patient’s Medicare Part A coverage has been
exhausted. We believe this interpretation is consistent
with the statutory intent of section 1886(d)(5)(F)(vi)(II)
of the Act. However, we recognize there are other
plausible interpretations. In addition, on a more practical level, we recognize it is often difficult for fiscal intermediaries to differentiate the days for dual-eligible
patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.
Some States identify all dual-eligible beneficiaries in
their lists of Medicaid patient days provided to the hospitals, while in other States the fiscal intermediary must

47
identify patient days attributable to dual-eligible beneficiaries by matching Medicare Part A bills with the list
of Medicaid patients provided by the State. The latter
case is problematic when Medicare Part A coverage is
exhausted because no Medicare Part A bill may be submitted for these patients. Thus, the fiscal intermediary has no data by which to readily verify any adjustment for these cases in the Medicaid data provided by
the hospital. Currently, the fiscal intermediaries are
reliant on the hospitals to identify the days attributable
to dual-eligible beneficiaries so these days can be excluded from the Medicaid patient days count.
Therefore, in order to facilitate consistent handling
of these days across all hospitals, we are proposing that
the days of patients who have exhausted their Medicare
Part A coverage will no longer be included in the Medicare fraction. Instead, we are proposing these days
should be included in the Medicaid fraction of the DSH
calculation. (We note that not all SSI recipients are
Medicaid eligible. Therefore, it will not be automatic
that the patient days of SSI recipients will be counted in
the Medicaid fraction when their Part a coverage expires.)
Under this proposed change, before a hospital could
count patient days attributable to dual-eligible beneficiaries in the Medicaid fraction, the hospital must submit documentation to the fiscal intermediary that justifies including the days in the Medicaid fraction after the
Medicare Part A benefits have been exhausted. That
is, if the State provides data on all the days associated
with all dual-eligible patients treated at a hospital, regardless of whether the beneficiary had Medicare Part
A coverage, the hospital is responsible for providing

48
documentation showing which days should be included
in the Medicaid fraction because Medicare Part A coverage was exhausted.
8.

Medicare+Choice (M+C) Days

Under § 422.1, an M+C plan ‘‘means health benefits
coverage offered under a policy or contract by an M+C
organization that includes a specific set of health benefits offered at a uniform premium and uniform level of
cost-sharing to all Medicare beneficiaries residing in the
service area of the M+C plan.’’ Generally, each M+C
plan must provide coverage of all services that are covered by Medicare Part A and Part B (or just Part B if
the M+C plan enrollee is only entitled to Part B).
We have received questions whether patients enrolled in an M+C Plan should be counted in the Medicare fraction or the Medicaid fraction of the DSH patient percentage calculation. The question stems from
whether M+C plan enrollees are entitled to benefits under Medicare Part A since M+C plans are administered
through Medicare Part C.
We note that, under § 422.50, an individual is eligible
to elect an M+C plan if he or she is entitled to Medicare
Part A and enrolled in Part B. However, once a beneficiary has elected to join an M+C plan, that beneficiary’s benefits are no longer administered under Part
A.
Therefore, we are proposing to clarify that once a
beneficiary elects Medicare Part C, those patient days
attributable to the beneficiary should not be included in
the Medicare fraction of the DSH patient percentage.
These patient days should be included in the count of to-

49
tal patient days in the Medicaid fraction (the denominator), and the patient’s days for the M+C beneficiary who
is also eligible for Medicaid would be included in the numerator of the Medicaid fraction.
D. Medicare Geographic Classification Review
Board (MGCRB) Reclassification Process (§ 412.230)
With the creation of the MGCRB, beginning in FY
1991, under section 1886(d)(10) of the Act, hospitals
could request reclassification from one geographic location to another for the purpose of using the other area’s
standardized amount for inpatient operating costs or the
wage index value, or both (September 6, 1990 interim final rule with comment period (55 FR 36754), June 4,
1991 final rule with comment period (56 FR 25458), and
June 4, 1992 proposed rule (57 FR 23631)). Implementing regulations in subpart L of part 412 (§§ 412.230
et seq.) set forth criteria and conditions for redesignations for purposes of the wage index or the average
standardized amount, or both, from rural to urban, rural
to rural, or from an urban area to another urban area,
with special rules for SCHs and rural referral centers.
Effective with reclassifications for FY 2003, section
1886(d)(10)(D)(vi)(II) of the Act provides that the
MGCRB must use the average of the 3 years of hourly
wage data from the most recently published data for the
hospital when evaluating a hospital’s request for reclassification. The regulations at § 412.230(e)(2)(ii) stipulate that the wage data are taken from the CMS hospital
wage survey used to construct the wage index in effect
for prospective payment purposes. To evaluate applications for wage index reclassifications for FY 2004, the
MGCRB used the 3-year average hourly wages published in Table 2 of the August 1, 2002 IPPS final rule

50
(67 FR 50135). These average hourly wages are taken
from data used to calculate the wage indexes for FY
2001, FY 2002, and FY 2003, based on cost reporting periods beginning during FY 1997, FY 1998, and FY 1999,
respectively.
Last year, we received a comment suggesting that we
allow for the correction of inaccurate data from prior
years as part of a hospital’s bid for geographic reclassification (67 FR 50027). The commenter suggested that
not to allow corrections to the data results in inequities
in the calculation in the average hourly wage for purposes of reclassification. In the August 1, 2002 IPPS
final rule, we responded:
‘‘Hospitals have ample opportunity to verify the accuracy of the wage data used to calculate their wage index and to request revisions, but must do so within the
prescribed timelines. We consistently instruct hospitals that they are responsible for reviewing their data
and availing themselves to the opportunity to correct
their wage data within the prescribed timeframes. Once
the data are finalized and the wage indexes published in
the final rule, they may not be revised, except through
the mid-year correction process set forth in the regulations at § 412.63(x)(2). Accordingly, it has been our
consistent policy that if a hospital does not request corrections within the prescribed timeframes for the development of the wage index, the hospital may not later
seek to revise its data in an attempt to qualify for
MGCRB reclassification.
‘‘Allowing hospitals the opportunity to revise their
data beyond the timelines required to finalize the data
used to calculate the wage index each year would lessen
the importance of complying with those deadlines. The

51
likely result would be that the data used to compute the
wage index would not be as carefully scrutinized because hospitals would know they may change it later,
leading to inaccuracy in the data and less stability in the
wage indexes from year to year.’’
Since responding to this comment in the FY 2003
IPPS final rule, we have become aware of a situation in
which a hospital does not meet the criteria to reclassify
because its wage data were erroneous in prior years, and
these data are now being used to evaluate its reclassification application. In addition, in this situation, the
hospital’s wage index was subject to the rural floor because the hospital was located in an urban area with an
actual wage index below the statewide rural wage index
for the State, and it was for a time period preceding the
requirement for using 3 years of data. Therefore, the
hospital contends, it had no incentive to ensure its wage
data were completely accurate. (However, we would
point out that hospitals are required to certify that their
cost reports submitted to CMS are complete and accurate. Furthermore, inaccurate or incomplete reporting may have other payment implications beyond the
wage index.)
While we continue to have all of the concerns we expressed in last year’s final rule, we now more fully understand this particular hospital’s situation. Although
we do have administrative authority to establish a policy
allowing corrections for this particular set of circumstances, we are concerned about establishing a precedent that could reduce the importance of ensuring that
the final wage data published in the annual IPPS final
rule are complete and accurate. As we indicated in our
response last year, we are concerned this could lead to

52
less accuracy and stability in the wage indexes from
year to year.
However, we are soliciting comments on whether it
may be appropriate to establish a policy whereby, for
the limited purpose of qualifying for reclassification
based on data from years preceding the establishment
of the 3-year requirement (that is, cost reporting years
beginning before FY 2000), a hospital in an urban area
that was subject to the rural floor for the period during
which the wage data the hospital wishes to revise were
used to calculate the wage index, a hospital may request
that its wage data be revised.
*
7.

*

*

*

*

Dual-Eligible Patient Days

We are proposing to change our policy for counting
days for patients who are Medicare beneficiaries and
also eligible for Medicaid, to begin to count in the Medicaid fraction of the DSH patient percentage the patient
days of these dual-eligible Medicare beneficiaries whose
Medicare coverage has expired. Our current policy regarding dual-eligible patient days is they are counted in
the Medicare fraction and excluded from the Medicaid
fraction, even if the patient has no Medicare Part A coverage or coverage has been exhausted. However, we
recognize it is often difficult for fiscal intermediaries to
differentiate the days for dual-eligible patients whose
Part A coverage has been exhausted. We believe the
impact of this proposed change would be minimal, both
because situations where dual-eligible patients exhaust
their Medicare benefits occur infrequently, and because,
due to the administrative difficulty separately identifying these days, in many cases they are already included

53
in the hospital’s Medicaid fraction. Accordingly, we do
not have data available to allow us to quantify the impact
of this proposed change precisely.
*

*

*

*

*

54

July 2, 2003
Thomas Scully, Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Attention: CMS-1470-P
P.O. Box 8010
Baltimore, MD 21244-1850
Re: Medicare Program: Hospital Inpatient Prospective Payment Systems and Fiscal Year 2004 Rates (Proposed Rule, 68 Federal Register), May 19, 2003.
Dear Mr. Scully,
On behalf of Mercy Hospital, a large urban short-term
acute hospital located in Miami, Florida, I appreciate
the opportunity to comment on the Proposed Changes
to the Hospital Inpatient Prospective Payment Systems
for Federal Fiscal Year 2004 as published in the Federal
Register dated May 19, 2003. Specifically, I will comment on proposed rules that will affect the Wage Index,
Disproportionate Share payments, Indirect Medical Education payments, and the Transfer Payment Policy.
*

*

*

*

*

Issues Influencing Disproportionate Share Payments

We oppose the proposed rule for disproportionate
share payments related to dual-eligible patients and
we believe the comments regarding the Medicare+

55
Choice days are unclear. We continue to believe
that providers should be given access to the patient
detail that comprises the SSI fraction in order to verify and to assess proposed changes to it.
• We do not support the proposal to remove Part A exhausted days from the SSI percentage.

We are uncomfortable with the removal of any item
from the SSI percentage, as the details of the fraction
have never been available to providers. It is unclear
whether the removal of these days will result in revision to both the numerator and denominator of the
SSI percentage and to what extent this will impact
disproportionate share payments. Since we are not
aware of the extent of Part A exhausted days included in the SSI fraction, we cannot accurately assess the financial impact.
We can make the assumption that the days will only
be removed from the numerator of the SSI fraction
and added to the numerator of the Medicaid fraction.
The result will be a loss ranging from approximately
($500,000) to ($800,000) for each 1,000 days adjusted
based on a varied Medicaid eligibility percentage
from 100% to 0%. Depending on the magnitude of
the days removed and the Medicaid eligible percentage of the displaced days; this will definitely result in
financial loss and is likely to be significant. Additionally, since providers will not be given a patient
detailed list of Part A exhausted days removed; it will
be improbable to capture all of the Medicaid eligible
days from the population excluded from the SSI fraction.
*

*

*

*

*

56

July 7, 2003
Mr. Thomas Scully
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Attention: CMS-1470-P
P.O. Box 8010
Baltimore, MD 21244-1850
Re:

Comments on Medicare Program; Proposed Changes
to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2004 Rates; Proposed Rule

Dear Mr. Scully:
We have the following comments on the proposed rule
for changes to the hospital inpatient prospective payment system (IPPS) for fiscal year 2004, published in
the May 19, 2003, Federal Register.
*

*

*

*

*

Dual Eligible Days - Page 27207

CMS proposes to change its policy to include in the Medicaid percentage the patient days of dual eligible Medicare beneficiaries whose Medicare coverage has expired.
We agree with the proposed change to include in the Med-

57
icaid percentage the patient days of dual eligible Medicare beneficiaries whose Medicare coverage has expired.
However, we recommend eliminating the requirement
that the hospital submit documentation to the fiscal intermediary that justifies including the days in the Medicaid fraction. As indicated in the preamble, to identify
these days is very difficult since these are usually patients that have exhausted their Part A benefits before
entering the hospital. As a result, the hospital has
identified these patients as Medicaid only. These patient days would already be counted as Medicaid.
*

*

*

*

*

58

July 7, 2003
The Honorable Thomas A. Scully
Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Room C5-14-03
Central Building
7500 Security Boulevard
Baltimore, MD 21244-1850
Re:

CMS-1470-P; Medicare Program, Changes to the
Hospital Inpatient Prospective Payment System
and Fiscal Year 2004 Rates; (68 Federal Register
96), May 19, 2003

Dear Administrator Scully:
The Healthcare Association of New York State (HANYS),
on behalf of our more than 550 hospitals, nursing homes,
home health agencies, and other health care providers,
welcomes the opportunity to comment on the proposed
rule related to the Medicare Prospective Payment System (PPS) for inpatient admissions.
*

*

*

*

*

59
Dual-Eligible Patient Days

CMS states that it is often difficult for fiscal intermediaries to differentiate the days for dual­eligible patients
whose Part A coverage has been exhausted. Some
states are able to report all dual-eligible beneficiaries in
the lists of Medicaid days provided to hospitals, while in
other states the intermediary must identify them by
matching Medicare claims to the list of Medicaid patients provided by the state. In these cases, there may
be no Medicare claim submitted for patients who have
exhausted their Part A coverage. Currently, the intermediary must rely on the hospital to identify dualeligible days for exclusion from the Medicaid count.
CMS is proposing that the days of dual-eligible patients
who have exhausted their Medicare Part A coverage no
longer be included in the Medicare fraction. Instead,
these days would be included in the Medicaid fraction of
the Disproportionate Share Hospital (DSH) calculation.
Under this proposal, hospitals would be required to submit information to the fiscal intermediary documenting
the days included in the Medicaid fraction after the
Medicare Part A benefits have been exhausted.
The proposal will result in a redistribution of DSH funds.
This would be justifiable if it resulted in more equitable
payments. However, CMS did not make this proposal
based on policy considerations. Instead, the proposal is
based on practical considerations aimed at making determinations of the DSH days easier and more uniform. In
fact, the proposal does not improve the process for identifying the days to be used in the DSH calculation. Currently, hospitals must provide the fiscal intermediary
with a report of all dual-eligible days for exclusion from
the Medicaid count. Under the proposal, hospitals would

60
instead be required to report the days incurred by dualeligible patients after exhausting Part A coverage to include in the Medicaid count. This will be at least as difficult for hospitals to collect and for intermediaries to
verify. Moreover, it will be difficult for hospitals to provide the data required under this proposal.
In addition, fiscal intermediaries now have a process and
criteria in place to collect and review the required information for this calculation. The proposal would require
major changes in the data required to determine Medicaid
days. Because data are provided by state Medicaid programs and individual hospitals, this will be a complicated
process for everyone involved. Given that the proposal
serves no policy objective and the practical benefits are
doubtful, we urge that CMS not change the rules for counting dual-eligible days.

*

*

*

*

*

61

July 7, 2003
[By Federal Express]
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Attention: CMS-1470-P
Room 443-G
Hubert H. Humphrey Building
200 Independence Ave., SW
Washington, DC 20201
Re:

CMS-1470-P
Hospital Inpatient PPS Proposed Rule for FFY 2004
Disproportionate Share Payments
Treatment of Dual-Eligible Patients Who Have
Exhausted Part A Coverage

Dear Sir or Madam:
These comments relate to CMS’ preamble discussion
in the proposed inpatient hospital PPS rule for federal
fiscal year 2004 of how it will count in the disproportionate share payment formula the days of inpatient services
furnished to patients who are dual-eligible but who have
exhausted their Medicare Part A coverage.

62
We support the proposal to count dual-eligible days
in the Medicaid fraction when a patient has exhausted
the days of Part A coverage during a spell of illness.
We disagree, however, that CMS’ description of its past
practice is correct, and believe that the proposed policy
must also be applied retrospectively to all open cost reporting periods.
In the preamble, CMS summarizes the current treatment of days for a dual-eligible patient when the patient
has exhausted his or her Part A coverage of inpatient
days for a spell of illness by saying:
If a patient is a Medicare beneficiary who is also eligible for Medicaid, the patient is considered dualeligible and the patient days are included in the Medicare fraction of the DSH patient percentage but not
the Medicaid fraction. [68 Fed. Reg. 27207, col. 3]
This description of past practice is at odds with the plain
language of the regulation. The regulation describes
the Medicare fraction as including “covered patient
days” only. 42 C.F.R. § 412.106(b)(2)(i). A day of
care furnished to a Medicare beneficiary who has exhausted his or her Part A benefits is not a “covered patient day” and thus could not be properly included in the
past or future in the Medicare fraction. Moreover, not
all dual-eligible patients are entitled to SSI benefits.
To the extent that dual-eligible patients were not entitled to SSI benefits, under CMS’ regulation and the statute, they should not have been included in the Medicare
fraction. Thus, CMS’ description of its past practice is
irreconcilable with the wording of the law and regulation.

63
Apart from the limitations of the law and regulation,
CMS’ description of its past practice is factually unsupportable. First, CMS could not have included days in
the Medicare fraction for dual-eligible patients who
were not entitled to SSI benefits since those patients
could not have been included in the SSI data furnished
by the Social Security Administration to CMS. Second, it is our understanding that the MedPAR data that
is matched with SSI data furnished by the Social Security Administration does not include data for noncovered services furnished after patients have exhausted
days of coverage in a spell of illness. Finally, the information emerging in pending appeals on the Medicare
fraction shows that such days were not included in the
fraction.
If CMS chooses to stand by the preamble statements
that are factually and legally incorrect, it will squander
its credibility with the courts and sets itself up not only
to lose as the issue is litigated but to subject itself to
paying attorney fees and other sanctions.
The proposed policy should be applied retrospectively to all open cost reports.
*

*

*

*

*

64

July 8, 2003
Thomas A. Scully, Administrator
Centers for Medicare & Medicaid Services
Humbert H. Humphrey Building
Room 443-G
200 Independence Ave, SW
Washington, DC 20201
Attention:

CMSA-1470-P

Dear Administrator Scully:
The Association of American Medical Colleges (AAMC)
welcomes this opportunity to comment on the Centers
for Medicare & Medicaid Services” (CMS or the Agency)
proposed rule entitled “Medicare Program; Proposed
Changes to the Hospital Inpatient Prospective Payment
Systems and Fiscal Year 2004 Rates.” 68 Fed. Reg.
27154 (May 19, 2003). The AAM:C represents approximately 400 major teaching hospitals and health systems; all 126 accredited U.S. medical schools; 96 professional and academic societies; and the nation’s medical
students and residents.
A primary focus of this letter is to comment on proposed
changes to the regulations for Medicare direct graduate
medical education (DGME) and indirect medical educa-

65
tion (IME) payments that, if finalized, would dramatically and fundamentally change the purpose of these
payments.
We also believe the cost threshold under the Medicare
outlier payment methodology must be reduced substantially below that published in proposed rule. In fact,
we believe that as a result of the changes in the outlier
final rule published on June 9, 2003 (68 Fed. Reg. 34494),
the outlier threshold for Federal fiscal year (FY) 2004
must be set below the FY 2003 level in order to ensure
that the statutorily mandated level of outlier payments
is achieved.
We also believe other aspects of the proposed rule must
be addressed, including:
•

Withdrawing the proposal to expand the postacute care transfer policy,

•

Clarifying the initial residency period for specialties requiring a general clinical training year,

•

Reconsidering the nursing and allied health proposals,

•

Withdrawing proposals relating to counting beds
and patient days for Medicare IME and disproportionate share (DSH) payment methodologies,
and

• Addressing wage index, new technology, and drugeluting stent payment policies.
*

*

*

*

*

66
VII. THE PROPOSALS AFFECTING PATIENT DAY
COUNTS FOR MEDICARE DSH PAYMENTS
SHOULD BE MODIFIED IN THE FINAL RULE

The methodology for calculating Medicare disproportionate share (DSH) payments involves two fractions:
1) inpatient days associated with Medicare patients receiving supplemental security income (SSI) divided by
total Medicare inpatient days, and 2) inpatient days associated with Medicaid patients divided by total inpatient days. Patient days associated with patients eligible for both Medicare and Medicaid (so called “dual eligibles”) currently are included in the Medicare SSI inpatient day count and not the Medicaid count.
A.

Dual-Eligible Patient Days

The proposed rule would include the patient days of dual
eligible Medicare patients whose Medicare coverage has
expired in the Medicaid fraction of the DSH methodology. They currently are included in the Medicare fraction.
CMS acknowledges that the current policy is consistent
with statutory intent (68 Fed. Reg. at 27208). Thus, it
appears that the proposed rule change is due solely to
practical considerations regarding fiscal intermediaries’
abilities in obtaining data on Medicare SSI beneficiaries.
We find CMS’ rationale for making this change unconvincing particularly given the new administrative burden it will place on hospitals to provide documentation
to fiscal intermediaries that a patient’s Medicare Part A
coverage has been exhausted.
*

*

*

*

*

67

July 8, 2003
Thomas A. Scully
Administrator
Centers for Medicare & Medicaid Services
200 Independence Avenue, S.W. Room 443-G
Washington, DC 20201
RE: TECHNICAL ADDENDUM
Ref: CMS-1470-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2004 Rates; Proposed Rule (68 Federal Register
27154), May 19, 2003.

Dear Mr. Scully:
On behalf of our nearly 5,000 member hospitals, health
care system, networks and other providers of care, the
American Hospital Association (AHA) appreciates the
opportunity to submit this technical addendum in addition to our comment letter of July 2, 2003 on the Centers
for Medicare & Medicaid Services (CMS) proposed rule
establishing new policies and payment rates for hospital
inpatient services for fiscal year (FY) 2004. Specifically,
we would like to provide additional comments related to
the outlier threshold the post-acute care transfer policy,

68
and the counting of patient days for calculating Medicare disproportionate share hospital (DSH) payments.
*

*

*

*

*

Dual-Eligible Patient Days
The AHA opposes CMS’s proposed change in the counting
of dual-eligible patient days for the purpose of calculating the disproportionate share hospital (DSH) patient
percentage.

The DSH patient percentage is a sum of two fractions:
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the number of patient days attributable to patients eligible for
Medicaid but not entitled to Medicare Part A benefits
divided by total patient days. CMS is proposing a change
to its treatment of dual eligible patients who have exhausted their Medicare coverage. Rather than continue
to include these patients as part of the Medicare fraction, CMS is proposing to exclude them from the Medicare fraction and count them in the Medicaid fraction.
CMS provides no justified reason for making this change,
and there are clear reasons not to make this change.
First, CMS clearly states in the proposed rule that the
current formula is consistent with statutory intent (page
27208). Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates in the rule that “it is often
difficult for fiscal intermediaries (FIs) to differentiate
days for dual-eligible patients whose Part A coverage
has been exhausted. The degree of difficulty depends
on the data provided by the States, which may vary from

69
one State to the next.” The shift of this administrative
burden to hospitals is unjustified, especially given the
inability of hospitals to access this information. Government agencies, specifically the FIs and the States,
have records regarding the Medicaid and Medicare status of patients as well as information regarding whether
they have exhausted their benefits.
Additionally, it is likely that this proposed change would
result in reduced DSH payments to hospitals. Any
transfer of a particular patient day from the Medicare
fraction (based on total Medicare patient days) to the
Medicaid fraction (based on total patient days) will dilute the value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment. Thus the calculation of dual-eligible days must
not be changed.

*

*

*

*

*

70

July 8, 2003
Mr. Thomas A. Scully
Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Room 443-G
Hubert H. Humphrey Building
200 Independence Ave., S.W.
Washington, D.C. 20201
Re:

CMS-1470-P Medicare Program; Proposed
Changes to the Hospital Inpatient Prospective
Payment System and Fiscal Year 2004 Rates (68

Federal Register 12153)

Dear Administrator Scully:
The Federation of American Hospitals (“FAH”) is the
national representative of privately owned or managed
community hospitals and health systems throughout the
United States. Our members include teaching and nonteaching hospitals in urban and rural America, and provide a wide range of acute and post-acute services. We
appreciate the opportunity to comment on the Centers
for Medicare and Medicaid Services’ (“CMS”) proposed

71
rule regarding changes to the hospital inpatient prospective payment system and FY04 rates.
*
F.

*

*

*

*

Dual-Eligible Patient Days

The FAH also opposes CMS’s proposed policy change
regarding counting dually eligible patient days. Under
current law, patients entitled to Medicare Part A and eligible for Supplement Security Income (“SSI”) are included in the “Medicare fraction” for DSH payment purposes. (SSA § 1886(d)(5)(F)(vi)(I).) CMS’s proposed
policy change would affect patients that are entitled to
Medicare Part A and SSI benefits, but do not have Medicare coverage for particular inpatient services because
they have exhausted their allotment of covered days for
such services under the Medicare Part A benefit (“Exhausted Days” ). CMS proposes to remove Exhausted
Days from the Medicare fraction. The Proposed Rule
also appears to indicate that if a hospital provides sufficient and verifiable data, then CMS would include the
Exhausted Days in the Medicaid fraction instead. (See
SSA § 1886(d (5)(F)(vi)(II).)
From a reimbursement perspective, the proposed policy
would result in a reduction of DSH payments when Exhausted Days are removed from the Medicare fraction,
with the financial impact mitigated to some degree if the
hospital can provide adequate data to include those days
in the Medicaid fraction. Given the mechanics of the
DSH payment formula, this means that under either
scenario the hospital will receive lower DSH payments
than what it currently receives. CMS does not expressly acknowledge this outcome, but the policy change
seems driven by a desire to reduce DSH payments.

72
The FAH believes that CMS lacks statutory authority
to implement the proposed policy regarding Exhausted
Days. The Medicare fraction of the statutory DSH
payment methodology includes patients that are entitled to both Medicare Part A and SSI benefits. In our
view, Exhausted Days patients remain entitled to Medicare Part A benefits, although they have reached their
coverage limit for inpatient hospital services. However, CMS’s proposed policy would remove these patients from the Medicare fraction based on the unfounded premise that patients who exhaust their coverage are, as a result, no longer entitled to Medicare Part
A benefits. This conclusion confuses concepts and is
improper under the Medicare statute.
A patient who exhausts his/her coverage for inpatient hospital services remains entitled to all Medicare Part A benefits, and will still receive covered services under other
Part A benefit categories. Under CMS’s proposed interpretation of the DSH statute, it is impossible to reconcile
the position that these patients are not entitled to Medicare Part A when they can receive other covered Part A
services, such as skilled nursing services. Therefore, we
find CMS s proposed policy to be an impermissible and untenable interpretation of the Medicare statute. The
FAH strongly urges CMS not to finalize this policy, and to
leave the Exhausted Days in the Medicare fraction as part
of the Medicare Part A entitlement variable.
While concluding that CMS is without statutory authority to remove Exhausted Days from the Medicare fraction, the FAH also believes CMS lacks statutory authority to include Exhausted Days in the Medicaid fraction.
The Medicare statute specifies that patients entitled to
benefits under Medicare Part A are excluded from the

73
Medicaid fraction. (SSA § 1886(d)(5)(F)(vi)(II).) This
result would be expected, given there needs to be a
clearly drawn line between who qualifies for the Medicare and the Medicaid fractions under the DSH payment
methodology. It is also logical to conclude that a patient who has exhausted his/her coverage under the inpatient hospital benefit has not lost his/her entitlement
to Medicare Part A benefits.
In addition to the lack of statutory support, CMS’s policy proposal would also impose a substantial record
keeping burden on providers and drain valuable resources
by forcing providers to collect and maintain data necessary to support a request to have Exhausted Days included in the Medicaid fraction. From our reading of the
proposal, it does not appear that Exhaust ed Days would
be subject to a direct reclassification from the Medicare
fraction to the Medicaid fraction. Instead, it appears
Exhausted Days would be automatically removed from
the Medicare fraction but would only be included in the
Medicaid fraction if the provider could present accurate
and reliable supporting documentation identifying those
days. If this policy proposal is finalized, CMS should
clarify in the final rule whether our understanding of the
mechanics of the proposed policy is correct.
Notably, the preamble concedes that CMS currently has
no direct source of Exhausted Days data. So, the burden would fall onto hospitals to produce this information
in order to receive the financial benefit of having these
days included in the Medicaid fraction. In addition to
the statutory authority concerns, we believe placing this
burden on hospitals is inappropriate from a policy perspective and will be extremely burdensome for providers while producing minimal policy benefits for CMS.

74
We especially oppose any policy that would require hospitals to submit documentation to their fiscal intermediaries for approval in advance of counting the days. This
process should not be governed by special rules but, instead, should be subject to the normal Medicare review
and audit procedures, such that hospitals are required
to maintain supporting documentation as part of their
normal operations for potential later scrutiny.
The FAH is troubled by the dearth of reasons offered
by CMS to support this proposed policy change. CMS
has included Exhausted Days in the Medicare fraction
for years, but now only offers that the agency “recognizes there are other plausible interpretations” when
announcing its proposed policy change. (68 Fed. Reg.
at 27,208.) While deciding whether there are other plausible interpretations is a separate issue, we find CMS’s reason for the policy change announced in the Proposed Rule
to be unpersuasive and inappropriate to support this
significant change to a long standing Medicare policy.
CMS’s proposed change to the IME and DSH regulations clearly present significant changes to current policy. Due to the substantive policy changes that would
occur if the Proposed Rule is finalized, we strongly urge
CMS to implement any policy changes prospectively.
That is, CMS should indicate specifically in the final rule
that such changes will only be applied to a provider’s
cost reporting period beginning on or after October 1,
2003. CMS should not apply its final policy to any prior
cost reporting periods that remain open with, or unsettled by, Medicare, or are settled but potentially subject
to reopening under the Medicare rules.
*

*

*

*

*

75

July 8, 2003
The Honorable Thomas A. Scully
Administrator
Centers for Medicare & Medicaid Services
Department of Health and Human Services
Humbert H. Humphrey Building, Room 443-G
200 Independence Ave, SW
Washington, DC 20201
Re:

CMS-1470-P—Medicare Program; Changes to
the Hospital Inpatient Prospective Payment
Systems and Fiscal Year 2004 Rates; Proposed
Rule

Dear Mr. Scully:
The National Association of Public Hospitals and
Health Systems (NAPH) appreciates the opportunity to
submit comments on the above-captioned proposed
rule.1 NAPH represents more than 100 metropolitan
area safety net hospitals and health systems. NAPH
members are significant providers of care to low-income
and uninsured patients: approximately 40 percent of the
patients served by these systems are Medicaid recipients; another 24 percent are uninsured. NAPH members also provide certain essential specialized services
to their entire communities, such as emergency and
1

68 Fed. Reg. 27154 (May 19, 2003).

76
trauma care, burn care, and neonatal intensive care.
Our members are multifaceted institutions, often operating facilities at multiple sites and frequently serving
as major training centers for medical residents and interns. Because of all of these characteristics, the proposed rule changes would significantly impact day-today operations of NAPH members.
With respect to other provisions of the proposed rule
that impact payment formulas, NAPH is concerned that
a number of them will reduce Medicare payments to
safety net hospitals at a time when they already provide
care to the elderly at a significant loss. Recent analysis of NAPH member data from fiscal year 2000 (the
most recent year available) indicates that NAPH members lost $420 million treating Medicare patients. Eightyone percent reported losses on Medicare patients in
2000, up from 68 percent the year before. Safety net
hospitals like NAPH members cannot continue to sustain losses like these and maintain their multiple missions of patient care to the low-income, specialized services to all, emergency preparedness, and educating our
nation’s physicians and other front-line providers.
Changes like the ones contemplated in the proposed
rule, particularly to the DSH, IME, DGME and outlier
formulas will further jeopardize the situation of these
providers.

77
COMMENTS ON PROPOSED CHANGES TO THE
FY 2004 INPATIENT PROSPECTIVE PAYMENT
RULE
I.

Counting of Patient Days for Purposes of Calculating Medicare DSH Payments

NAPH strongly opposes a proposed change in the counting of patient days for the purpose of calculating the Medicare DSH patient percentage, a key component of the

DSH payment formula. The DSH patient percentage
is a sum of two fractions, which the proposed rule refers
to as the “Medicare fraction” and the “Medicaid fraction.” CMS is proposing a change to its treatment of
dual eligible patients who have exhausted their Medicare coverage, so that such patients would no longer be
considered part of the Medicare fraction and instead
would be counted in the Medicaid fraction. In addition,
the proposed change would place a new burden on hospitals to document a patient’s status as having exhausted Medicare coverage. This change will have the
effect of reducing DSH payments across-the-board, while
imposing costly new administrative burdens on hospitals,
which they are not equipped to fulfill. At a time of increasing demand and shrinking public support for safety
net hospitals, such a policy change is extremely illadvised.

The proposed change compounds fundamental flaws
with the current Medicare DSH formula. Medicare DSH
payments are intended to ensure that Medicare beneficiaries have access to hospitals that, due to their disproportionate share of low income patients, are under more
financial stress than the average facility. When originally enacted by Congress, the statutory formula identified eligible hospitals according to their share of low

78
income Medicare beneficiaries (i.e. SSI recipients) and
Medicaid recipients. It did not include a measure of
uninsured patients, because at that time (mid-1980s),
those hospitals with high Medicaid volumes were generally the same hospitals with high uninsured volumes,
thus Medicaid served as a reasonable proxy for low income care. That generalization is clearly no longer
true in today’s healthcare marketplace, and currently
the most financially stressed hospitals are those with
highest uninsured volumes (who may not be the same as
those with high Medicaid volumes).
For many years, the Medicare Payment Assessment
Commission or MedPAC has recommended that the formula be updated to incorporate uncompensated care so
that all low­income care is reflected, not just Medicaid and
Medicare/SSI. NAPH wholeheartedly supports MedPAC’s approach to reforming Medicare DSH. Although
we acknowledge that such a change would require an
amendment to the statute, we are especially wary of any
changes to the Medicare DSH formula which would have
the effect of reducing DSH payments, because the formula is already so flawed and therefore inadequate to its
intended purpose.
As CMS describes in the preamble to the Proposed Rule,
the DSH patient percentage is equal to the sum of two
fractions. The “Medicare fraction” is the number of
patient days attributable to patients eligible for both
Medicare Part A and SSI benefits divided by total Medicare days. The “Medicaid percentage” is the number
of patient days attributable to patients eligible for Medicaid, but not entitled to Medicare Part A benefits divided by total days. CMS also explains that under current policy, patients entitled to both Medicare Part A

79
and SSI benefits who have exhausted their Medicare
coverage are included in the Medicare fraction of the patient percentage, but not the Medicaid fraction. Moreover, CMS notes that “this interpretation is consistent
with the statutory intent.”
Nevertheless, despite express acknowledgement that
the current interpretation is consistent with the intent
of the statute, CMS is proposing to change its policy to
one that by its own admission is merely a “plausible” interpretation of the language (with seemingly no regard
to implementing congressional intent). CMS is proposing to shift these patient days associated with dual
eligibles who have exhausted their Medicare coverage to
the Medicaid fraction instead of the Medicare fraction.
NAPH strongly urges CMS to consider the ramifications
of this change and to maintain its current policy.
The proposed policy would have an across-the-board negative financial impact on all hospitals that receive Medicare DSH payment. The two fractions that comprise

the DSH patient percentage are structured such that
the Medicare fraction is always more heavily weighted
than the Medicaid fraction. The denominator of the
Medicare fraction is total Medicare patient days while
the denominator of the Medicaid fraction is total patient
days. Thus the transfer of any particular patient day
from the Medicare to the Medicaid fraction will always
dilute the value of that day and therefore reduce the
overall patient percentage and the resulting DSH adjustment.

Moreover, the proposed change would place a significant
new regulatory and administrative burden on hospitals in
order to receive payments for these patient days. Under

the proposed change, CMS would require hospitals to

80
submit documentation to their fiscal intermediaries to
justify the inclusion in the Medicaid fraction of any days
for patients who have exhausted their Medicare benefits. This shift of the burden onto hospitals is inappropriate given their relative lack of access to information
as compared to the fiscal intermediary and the state regarding the Medicaid or Medicare status of their patients and whether they have exhausted benefits. Moreover, CMS does not even acknowledge this burden in its
assessment in the preamble of the information collection
and recordkeeping requirements it is imposing, as required by the Paperwork Reduction Act of 1995. While
we acknowledge the practical difficulties of the current
policy outlined in the preamble, we do not think that the
solution to these practical difficulties lies in either the
change in policy or the imposition of the entire burden
of classification of patients onto hospitals. Rather,
NAPH urges CMS to develop uniform data collection and
reporting requirements on the part of both the intermediaries and the state in order to facilitate accurate counting
of patient days.

Such a solution would be consistent with Congress’ intent that states accurately identify Medicaid managed
care days for purposes of the Medicare DSH formula
(see 42 U.S.C. § 1396u-2(g)) and the current efforts in
Congress to require fiscal intermediaries to provide certain data in connection with DSH payments (see Medicare Prescription Drug and Modernization Act of 2003,
H.R. 1, § 951).
Ironically, CMS accurately notes that its current policy
is consistent with its inclusion of Medicaid patient days
in the Medicaid fraction even after a patient exhausts

81
his or her Medicaid coverage. Prior to 1997, the Secretary applied a policy that excluded from the Medicaid
fraction of the Medicare DSH calculation the patient
days associated with those patients eligible for Medicaid, but for which the hospital did not receive payment
(because, for example, Medicaid benefits have been exhausted). That policy was soundly rejected by four
United States Courts of Appeal. See Cabell v. Huntington Hosp. v. Shalala, 101 F.3d 984 (4th Cir. 1996);
Legacy Emanuel Hosp. & Health Ctr. v. Shala, 97 F.3d
1261 (9th Cir. 1996) Deaconess Health Serv. Corp. v.
Shalala, 83 F.3d 1041 (8th Cir. 1996); Jewish Hosp., Inc.
v. Secretary of Health & Human Services, 19 F.3d 270
(6th Cir. 1994). It was only in response to these federal
court decisions that CMS (then the Health Care Financing Administration (“HCFA”)) implemented its current
policy. See HCFA Ruling 97-2 (Feb. 27, 1999). Indeed, the litigation is still ongoing even with respect to
the retroactive application of the mandated policy change.
See Monmouth Medical Center v. Thompson, 257 F.3d
807 (D.C. Cir. 2001). The new policy with regards to
Medicare beneficiaries who have exhausted their Part A
coverage will undoubtedly invite similarly lengthy legal
challenges to which neither CMS nor the hospital industry should have to devote resources.

If, despite these concerns, CMS decides to move forward with its new policy, we urge you to clarify that the
new policy will enable hospitals to include certain days
in the Medicaid fraction that previously were included
in neither fraction. In particular, if SSI recipients who
have exhausted their Medicare coverage are to be treated
as not entitled to Medicare (and therefore included in
the Medicaid fraction) than other, non-SSI Medicaid recipients who have exhausted their Medicare coverage

82
should also be included in the Medicaid fraction. Under the current policy, these individuals are included in
neither fraction because they are considered to be entitled to Medicare (and therefore ineligible for the Medicaid fraction) but they are not SSI recipients (and therefore ineligible for the Medicare fraction). CMS should
clarify for hospitals and fiscal intermediaries that this
new class of patient days will now be included in the DSH
patient percentage.

*

*

*

*

*

83

July 8, 2003
CMS
Room 443-G
Hubert Humphrey Building
200 Independence Avenue, SW
Washington, DC 20201
RE

2004 Proposed Regulations
File Code: CMS-1470-P

We would like to offer the following comments proposed
regulations concerning the Medicare DSH calculation.
*

*

*

*

*

Dual Eligible Days

CMS’ statement “the days of patients who have exhausted their Medicare Part A coverage will no longer
be included in the Medicare fraction” is inconsistent
with CMS’ current actual practice with respect to the
Medicare fraction. In our analysis of the SSI fraction,
based on data received from CMS and the HHS Office
of General Counsel, generally only covered Medicare
days are included in the numerator and denominator of
the SSI fraction. The published documentation for the
SSI percentages also labels the denominator days as
Covered Days. In addition, SCA has a letter from OGC

84
stating that only covered days are used in the SSI fraction. To say that these days “will no longer be included” may be a change in policy”, but it is clearly not
a change in “practice”. That begs the question—What
was the “policy”—what CMS professed or what it did?
SCA has found, on occasion, that more than covered
days are included in the denominator of the SSI fraction,
but these have always been errors on CMS’s part.
These errors include the inclusion of Medicare HMO
days, exempt unit days, and inappropriate billings to
Part A (which were voided on the PS&R, but remained
in the SSI fraction). These errors are inconsistent
from provider to provider, and from year to year.
In relation to the exhausted benefits issue is the question of a Medicare beneficiary where Medicare does not
pay the claim. For example, if a Medicare beneficiary
(who is also Medicaid eligible) is in an auto accident,
then the auto insurance company will pay the hospital
bill. In fact, Medicare is usually not even billed in this
situation. However, the fiscal intermediaries are routinely removing these days from the Medicaid fraction
of the DSH calculation because the patient is a Medicare
beneficiary.
The purpose of the DSH calculation is to count the indigent population. A patient in the scenario described
above would not be included in the DSH calculation under proposed rules. We submit that since the patient
was not entitled to Medicare Part A and thus Medicare
did not pay the claim and these days are not in the SSI
fraction, a provider should be able to include these days
in the Medicaid fraction of the DSH calculation, otherwise a portion of the indigent population is excluded

85
from the calculation. We request that CMS specifically allow patients with Medicare eligibility, but without entitlement (payment from Medicare Part A) to be
included in the Medicaid fraction of the DSH calculation.

86
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 412 and 413
[CMS–1470–F]
RIN 0938–AL89
Medicare Program; Changes to the Hospital Inpatient
Prospective Payment Systems and Fiscal Year 2004 Rates

Centers for Medicare and Medicaid Services (CMS), HHS.
AGENCY:

ACTION:

Final rule.
*

7.

*

*

*

*

Dual-Eligible Patient Days

We are still reviewing the large number of comments
received on the proposed provision relating to dualeligible patient days in the May 19, 2003. Due to the
number and nature of the comments we received on our
proposed policies, we are addressing the public comments in a separate document. We refer individuals
who are interested in reviewing the background information and discussions regarding this policy to the May
19, 2003 proposed rule (68 FR 27207–27208).
*

*

*

*

*

87
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 403, 412, 413, 418, 460, 480, 482, 483, 485, and
489
[CMS–1428–P]
RIN 0938–AM80
Medicare Program; Proposed Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year
2005 Rates

Centers for Medicare and Medicaid Services (CMS), HHS.
AGENCY:
ACTION:

Proposed rule.
*

*

*

*

*

2. Proposals for Available Beds and Patient Days for
the DSH Adjustment
In our May 19, 2003 IPPS proposed rule for FY 2004
(68 FR 27201), we proposed changes to our policy
on counting available beds and patient days for the
purposes of the DSH adjustment. For the available
beds policy we proposed changes to counting unoccupied
beds and observation beds. In regard to patient days,
we proposed changes to counting dual-eligible and
Medicare+Choice (M+C) days. Due to the number
and nature of the public comments received, we did not
respond to the public comments on these proposals in
the final rule for FY 2004 (68 FR 45415). We indicated
that we would address those public comments in a sepa-

88
rate document. We plan to address the comments regarding unoccupied beds, observation beds, dual eligible
days, and M+C days in the IPPS final rule for FY 2005.
*

*

*

*

*

89

July 2, 2004
Mark McClellan, M.D., Ph.D.
Administrator
Centers for Medicare and Medicaid Services
200 Independence Ave., S.W.
Room 443-G
Washington, DC 20201
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal
Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
On behalf of our nearly 5,000 member hospitals, health
care systems, networks and other providers of care, the
American Hospital Association (AHA) appreciates the
opportunity to comment on the Centers for Medicare &
Medicaid Services (CMS) proposed rule establishing
new policies and payment rates for hospital inpatient
services for fiscal year (FY) 2005.

90
The rule is one of the most complicated and lengthy in
the history of the Medicare program. It not only implements a number of provisions of the Medicare Modernization Act of 2003 (MMA), but also proposes a significant number of complex regulatory changes. The
AHA is pleased that Congress acknowledged that Medicare payments to hospitals were inadequate and provided $25 billion in relief through the MMA. We are
concerned, however, that the agency is proposing provisions that would reduce these gains. The Medicare
Payment Advisory Commission (MedPAC) in its March
2004 report to Congress said that hospitals’ overall Medicare margins had dropped from 4.1 percent in 2001 to
1.7 percent in 2002, the most recent year for which data
is available. While the MMA was a good first step, we
will continue to urge Congress to provide adequate Medicare reimbursement to hospitals, and, in our attached
comments on this proposed rule, we encourage CMS to
make changes that would prevent a further decline in
Medicare payment.
*

*

*

*

*

Dual-Eligible Patient Days
The AHA would like to reiterate its opposition to CMS’
proposed changes las year in the counting of dual-eligible
patient days for the purpose of calculating the DSH patient percentage. CMS did not finalize its proposal last

year, but indicates in this year’s proposed rule that it
will respond to last year’s comments and make a decision in its FY 2005 final rule.
The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of pa-

91
tient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the ‘‘Medicaid fraction,” calculated as the
number of patient days attributable to patients eligible
for Medicaid but not entitled to Medicare Part A benefits divided by total patient days.
CMS proposes
changing how it treats dual eligible patients who have
exhausted their Medicare coverage. Rather than continue to include these patients as part of the Medicare
fraction, CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dualeligible patients whose Part A coverage has been exhausted. The degree of difficulty depends on the data
provided by the States, which may vary from one State
to the next.” The shift of this administrative burden to
hospitals is unjustified, especially given the inability of
hospitals to access this information.
Government
agencies, specifically the FIs and the states, have records regarding the Medicaid and Medicare status of patients as well as whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the

92
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be changed.

93

Disproportionate Share Hospital Adjustment—Dual Eligible Patient Days

The Medicare disproportionate share hospital (DSH)
adjustment is based in part on the DSH patient percentage. The DSH patient percentage is the sum of two
fractions: the Medicare fraction and the Medicaid
fraction. The Medicare fraction is the number of patient days attributable to patients entitled to both Medicare Part A and SSI benefits divided by the total number of days for all patients entitled to Medicare. The
Medicaid fraction is the number of patient days attributable to patients who, for those days, were eligible for
Medicaid but were not entitled to benefits under Medicare Part A. As we stated in the May 19, 2003 proposed
rule (68 FR 27207), if a patient is a Medicare beneficiary
who is also eligible for Medicaid, the patient is considered a dual-eligible and the patient days are generally
included in the Medicare fraction of the DSH patient
percentage, but not the Medicaid fraction. This is consistent with the language of section 1886(d)(5)(F)(vi)(II)
of the Act, which specifically excludes patients that are
entitled to benefits under Part A from the Medicaid
fraction.
In the May 19, 2003 proposed rule (68 FR 27207) we indicated, with respect to dual-eligibles, that the policy described above currently applies even after the patient’s
Medicare Part A coverage is exhausted. That is, we
stated that if a dual-eligible patient is admitted without
any Medicare Part A coverage remaining, or the patient
exhausts Medicare Part A coverage while an inpatient,

94
the non-covered patient days are counted in the Medicare fraction. It has come to our attention, however,
that this statement is not accurate. Our policy has
been that only covered patient days are included in the
Medicare fraction (42 CFR ? 412.106(b)(2)(i)).

95

Mark McClellan, M.D., Ph.D.
Administrator
Centers for Medicare & Medicaid Services
P.O. Box 8010
Baltimore, MD 21244-1850
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
On behalf of our 73 member hospitals and health systems, the West Virginia Hospital Association appreciates the opportunity to comment on the Centers for
Medicare & Medicaid Services (CMS) proposed rule establishing new policies and payment rates for hospital
inpatient services for fiscal year (FY) 2005.
The rule is one of the most complicated and lengthy in
the history of the Medicare program. It not only implements a number of provisions of the Medicare Modernization Act of 2003 (MMA), but also proposes a significant number of complex regulatory changes. The
Association is pleased that Congress acknowledged that
Medicare payments to hospitals were inadequate and

96
provided $25 billon in relief through the MMA. However, we are concerned that the agency is proposing a
number of provisions that would reduce these gains for
West Virginia’s hospitals.
The Association is concerned about the redistribution of
hospital payments due to the proposed revisions to metropolitan statistical areas (MSAs), the implementation
of an occupational mix adjustment and changes to geographic reclassification. The Office of Management
and Budget, in releasing its revised standards for defining MSAs, cautions that the new definitions “should not
be used to develop and implement Federal, State, and
local nonstatistical programs and policies without full
consideration of the effects of using these definitions for
such purposes. These areas should not serve as a
general-purpose geographic framework for nonstatistical activities, and they may or may not be suitable for
use in program funding formulas.” We question whether
CMS has given full consideration regarding the effects
that the revised MSA definitions will have on hospital
payments. For example, while we support CMS’ proposal to not adopt the OMB micropolitan statistical areas, for the same reason that CMS rejects these areas
(the creation of a number of one-hospital micropolitan
areas), it should also reject the movement of City Hospital in Martinsburg, WV, from its current MSA (Washington, D.C.) to the Hagerstown MSA. City Hospital
would become the only hospital in that MSA subject to
the IPPS, since the only other WV hospital in the MSA
is a CAH, and the only remaining hospital is a Maryland
hospital not subject to the IPPS. Its IPPS payments

97
would be reduced in excess of 10% due to this MSA
change. * * *
* * * The rule discusses a potential change—but does
not propose a change—in how CMS would “weight” the
direct GME resident count for residents that pursue
specialties requiring an initial year of broad-based training. Currently a number of programs, such as anesthesiology and radiology, require a year of generalized clinical training in internal medicine as a prerequisite to
subsequent training in their chosen specialty. This requirement can be met by either spending the first year
in internal medicine, pediatrics, or surgery, or participating in a one-year, freestanding “transitional year”
program.
CMS policy, however, bases direct GME payments on the resident’s first year of training, without
factoring in the specialty in which the resident ultimately
seeks board certification. For example, an anesthesiologist who does a base year of generalized clinical training would be labeled with a three-year training period—
which is the time required to be board eligible in internal
medicine—rather than the four years it takes to be board
eligible in anesthesiology. The result is that the resident is eligible for only partial direct GME reimbursement in the fourth year.
Current CMS policy violates the statute, does not reflect
congressional intent, and results in inequitable payments
to teaching hospitals for residents training in certain specialties. The MMA conference report language clearly

states, “the initial residency period for any residency for
which the Accreditation Council on Graduate Medical
Education (ACGME) requires a preliminary or general

98
clinical year of training is to be determined in the resident’s second year of training.”
CMS discusses the possibility of reweighing these residents to allow hospitals their full direct GME payments.
Given that it has been CMS’ longstanding policy to allow
an appropriate calculation of the full residency period
for those residents training in “transitional year” programs, we also feel strongly that this interpretation
should be extended to those spending their first year in
internal medicine, pediatrics or surgery. The AHA believes that this issue needs to be addressed and corrected
in the final regulation.
The Association is also opposed to CMS’ proposed changes
last year in the counting of dual-eligible patient days for
the purpose of calculating the DSH patient percentage.

CMS did not finalize its proposal last year, but indicates in
this year’s proposed rule that it will respond to last year’s
comments and make a decision in its FY 2005 final rule.
The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the
number of patient days attributable to patients eligible
for Medicaid but not entitled to Medicare Part A benefits divided by total patient days.
CMS proposes
changing how it treats dual eligible patients who have
exhausted their Medicare coverage. Rather than continue to include these patients as part of the Medicare
fraction, CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.

99
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dual-eligible
patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.”
The shift of this administrative burden to hospitals is
unjustified, especially given the inability of hospitals to
access this information. Government agencies, specifically the FIs and the states, have records regarding the
Medicaid and Medicare status of patients as well as
whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be changed.
Finally, we are disappointed that the rule contains a proposal to further expand the post-acute care transfer policy, as a result of changing, less than a year after its last
revision, the criteria that the agency uses in defining a
DRG that qualifies for the transfer provision. There is
no sound policy rationale for CMS’ proposal to adopt a

100
new set of “alternative criteria.”
be withdrawn.

This provision must

101

July 8, 2004
Mark McClellan, M.D., Ph.D.
Administrator, Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
Thank you for the opportunity to comment on the Centers for Medicare & Medicaid Services (CMS) proposed
rule establishing new policies and payment rates for
hospital inpatient services for fiscal year (FY) 2005.
We are pleased that Congress acknowledged that Medicare payments to hospitals were inadequate and provided $25 billion in relief through the Medicare Modernization Act of 2003 (MMA). We are concerned, however, that the agency is proposing provisions that would
reduce these gains.

102
The adequacy and equity of Medicare payments to hospitals is essential, yet 39 percent of hospitals lost money
providing inpatient services to Medicare patients in FY
2001, and preliminary estimates indicate that figure has
jumped to almost 50 percent in FY 2002.
The economic viability of Touro Infirmary, a hospital
that has been serving our community for over 150 years,
and the only remaining not for profit hospital in New Orleans, is increasingly threatened.
There is no question
that Medicare reimbursement is less than our cost of
proving services. Medicare reimbursement is less than
40% of our charges.

Our detailed comments are contained in the following
sections of this letter and address CMS’s proposed
changes to the inpatient payment system, including
those related to the wage index, outlier threshold, transfer policy, new technology, graduate medical education,
critical access hospitals, and diagnosis-related groupings.
*

*

*

*

*

Dual-Eligible Patient Days
We oppose CMS’ proposed changes last year in the
counting of dual-eligible patient days for the purpose
of calculating the DSH patient percentage. CMS did

not finalize its proposal last year, but indicates in this
year’s proposed rule that it will respond to last year’s
comments and make a decision in its FY 2005 final rule.

The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the

103
number of patient days attributable to patients eligible
for Medicaid but not entitled to Medicare Part A benefits divided by total patient days.
CMS proposes
changing how it treats dual eligible patients who have
exhausted their Medicare coverage. Rather than continue to include these patients as part of the Medicare
fraction, CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dualeligible patients whose Part A coverage has been exhausted. The degree of difficulty depends on the data
provided by the States, which may vary from one State
to the next.” The shift of this administrative burden to
hospitals is unjustified, especially given the inability of
hospitals to access this information.
Government
agencies, specifically the FIs and the states, have records regarding the Medicaid and Medicare status of patients as well as whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.

104
The calculation of dual-eligible days must not be
changed.

*

*

*

*

*

105
LINCOLN GENERAL HOSPITAL
North Central Louisiana’s Reginal Medical Center

July 8, 2004
Mark McClellan, M.D., Ph.D.
Administrator, Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
Thank you for the opportunity to comment on the Centers for Medicare & Medicaid Services (CMS) proposed
rule establishing new policies and payment rates for
hospital inpatient services for fiscal year (FY) 2005.
We are pleased that Congress acknowledged that Medicare payments to hospitals were inadequate and provided $25 billion in relief through the Medicare Modernization Act of 2003 (MMA). We are concerned, however, that the agency is proposing provisions that would
reduce these gains.

106
The adequacy and equity of Medicare payments to hospitals is essential, yet 39 percent of hospitals lost money
providing inpatient services to Medicare patients in FY
2001, and preliminary estimates indicate that figure has
jumped to almost 50 percent in FY 2002.
Our detailed comments are contained in the following
sections of this letter and address CMS’s proposed
changes to the inpatient payment system, including
those related to the wage index, outlier threshold, transfer policy, new technology, graduate medical education,
critical access hospitals, and diagnosis-related groupings.
*

*

*

*

*

Dual-Eligible Patient Days
We oppose CMS’ proposed changes last year in the counting of dual-eligible patient days for the purpose of calculating the DSH patient percentage. CMS did not final-

ize its proposal last year, but indicates in this year’s proposed rule that it will respond to last year’s comments
and make a decision in its FY 2005 final rule.

The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction” calculated as the number of patient days attributable to patients eligible for
Medicaid but not entitled to Medicare Part A benefits
divided by total patient days. CMS proposes changing
how it treats dual eligible patients who have exhausted
their Medicare coverage. Rather than continue to include these patients as part of the Medicare fraction,

107
CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dual-eligible
patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.”
The shift of this administrative burden to hospitals is
unjustified, especially given the inability of hospitals to
access this information. Government agencies, specifically the FIs and the states, have records regarding the
Medicaid and Medicare status of patients as well as
whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be changed.
*

*

*

*

*

108

July 8, 2004
Mark McClellan, M.D., Ph.D.
Administrator, Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
On behalf of our 158 member hospitals the Louisiana
Hospital Association (LHA) appreciates the opportunity
to comment on the Centers for Medicare & Medicaid
Services (CMS) proposed rule establishing new policies
and payment rates for hospital inpatient services for fiscal year (FY) 2005.
We are pleased that Congress acknowledged that Medicare payments to hospitals were inadequate and provided $25 million in relief through the Medicare Modernization Act of 2003 (MMA). We are concerned, however, that the agency is proposing provisions that would
reduce these gains.

109
The adequacy and equity of Medicare payments to hospitals is essential, yet 39 percent of hospitals lost money
providing inpatient services to Medicare patients in FY
2001, and preliminary estimates indicate that figure has
jumped to almost 50 percent in FY 2002.
Our detailed comments are contained in the following
sections of this letter and address CMS’s proposed
changes to the inpatient payment system, including
those related to the wage index, outlier threshold, transfer policy, new technology, graduate medical education,
critical access hospitals, and diagnosis-related groupings.
*

*

*

*

*

Dual-Eligible Patient Days
We oppose CMS’ proposed changes last, year in the counting of dual-eligible patient days for the purpose of calculating the DSH patient percentage. CMS did not final-

ize its proposal last year, but indicates in this year’s proposed rule that it will respond to last year’s comments
and make a decision in its FY 2005 final rule.

The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the
number of patient days attributable to patients eligible
for Medicaid but not entitled to Medicare Part A benefits divided by total patient days.
CMS proposes
changing how it treats dual eligible patients who have
exhausted their Medicare coverage. Rather than continue to include these patients as part of the Medicare

110
fraction, CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent.
Second the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dualeligible patients whose Part A coverage has been exhausted. The degree of difficulty depends on the data
provided by the States, which may vary from one State
to the next.” The shift of this administrative burden to
hospitals is unjustified, especially given the inability of
hospitals to access this information.
Government
agencies spec ifically the FIs and the states, have records regarding the Medicaid and Medicare status of patients as well as whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be
changed.

*

*

*

*

*

111

July 8, 2004
Dr. Mark McClellan, M.D., Ph.D.
Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Hubert H. Humphrey Building, Room 443-G
200 Independence Avenue, SW
Washington, D.C. 20201
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule.
Re: DSH Adjustment; Graduate Medical Education;
Revised MSAs

Dear Dr. McClellan:
The National Association of Public Hospitals and
Health Systems (NAPH) appreciates the opportunity to
submit comments on the above-captioned proposed
rule.1 2 NAPH represents more than 100 metropolitan
area safety net hospitals and health systems. Our
members are significant providers of care to low-income
and uninsured patients. For example, approximately
40 percent of the inpatient services provided by NAPH

1

69 Federal Register 28196 (May 18, 2004).

112
members is to Medicaid recipients and another 24 percent is provided to uninsured patients. NAPH members also provide certain essential specialized services
to their entire communities, such as emergency and
trauma care, burn care, and neonatal intensive care.
Our members are multifaceted institutions, often operating facilities at multiple sites and frequently serving
as major training centers for medical residents and interns. Because of all of these characteristics, the proposed rule changes would significantly impact day-today operations of NAPH members.
With regard to the FY 2005 IPPS proposed rule, NAPH
is particularly concerned that a number of the changes
contemplated by the Centers for Medicare and Medicaid
Services (CMS) will reduce Medicare payments to safety
net hospitals at a time when they already provide care
to Medicare patients at a significant loss. Recent analysis of NAPH member data from fiscal year 2002 (the
most recent year available) indicates that NAPH members lost $903 million treating Medicare patients. In
total ninety percent of NAPH members reported losses
on Medicare patients in 2002. Safety net hospitals like
NAPH members cannot continue to sustain losses like
these and maintain their multiple missions of patient
care to the low-income, specialized services to all, emergency preparedness, and educating our nation’s physicians and other front-line providers. * * *
*

*

*

*

*

113
I.

Counting of Patient Days for Purposes of Calculating Medicare DSH Payments

NAPH strongly opposes a proposed change in the treatment of dual eligible patients who have exhausted their
Medicare coverage for the purpose of counting patient
days for the calculation of the Medicare DSH patient percentage. CMS is proposing that dual eligible patients

who have exhausted their Medicare coverage would no
longer be considered part of the Medicare fraction and
instead would be counted in the Medicaid fraction.

This change will have the effect of reducing DSH payments across-the­board, while imposing costly new administrative burdens on hospitals, which they are not
equipped to fulfill. At a time of increasing demand and
shrinking public support for safety net hospitals, such a
policy change is extremely ill-advised.

In the preamble, CMS explains that under current policy, patients entitled to both Medicare Part A and SSI
benefits who have exhausted their Medicare coverage
are included in the Medicare fraction of the patient percentage, but not the Medicaid fraction. CMS notes
that “this interpretation is consistent with the statutory
intent.” Despite express acknowledgement that the
current interpretation is consistent with the intent of
the statute, CMS is proposing to change its policy to one
that by its own admission is merely a “plausible” interpretation of the language (with seemingly no regard to
implementing congressional intent). CMS is proposing to shift these patient days associated with dual eligibles who have exhausted their Medicare coverage to
the Medicaid fraction instead of the Medicare fraction.
NAPH strongly urges CMS to consider the ramifications
of this change and to maintain its current policy.

114
The proposed policy would have an across-the-board negative financial impact on all hospitals that receive MediThe two fractions that comprise
care DSH payments.

the DSH patient percentage are structured such that
the Medicare fraction is always more heavily weighted
than the Medicaid fraction. The denominator of the
Medicare fraction is total Medicare patient days while
the denominator of the Medicaid fraction is total patient
days. Thus the transfer of any particular patient day
from the Medicare to the Medicaid fraction will always
dilute the value of that day and therefore reduce the
overall patient percentage and the resulting DSH adjustment.

Moreover, the proposed change would place a significant
new regulatory and administrative burden on hospitals in
order to receive payments for these patient days. Under

the proposed change, CMS would require hospitals to
submit documentation to their fiscal intermediaries to
justify the inclusion in the Medicaid fraction of any days
for patients who have exhausted their Medicare benefits. This shift of the burden onto hospitals is inappropriate given their relative lack of access to information
as compared to the fiscal intermediary and the state regarding the Medicaid or Medicare status of their patients and whether they have exhausted benefits.
Moreover, CMS does not even acknowledge this burden
in its assessment in the preamble of the information collection and recordkeeping requirements it is imposing,
as required by the Paperwork Reduction Act of 1995.
While we acknowledge the practical difficulties of the
current policy outlined in the preamble, we do not think
that the solution to these practical difficulties lies in either the change in policy or the imposition of the entire

115
burden of classification of patients onto hospitals.

Rather, NAPH urges CMS to develop uniform data collection
and reporting requirements on the part of both the intermediaries. and the state in order to facilitate accurate
counting of patient days.

Such a solution would be consistent with Congress’ intent that states accurately identify Medicaid managed
care days for purposes of the Medicare DSH formula
(see 42 U.S.C. § 1396u-2(g)) and the current efforts in
Congress to require fiscal intermediaries to provide certain data in connection with DSH payments (see Medicare Prescription Drug and Modernization Act of 2003,
H.R. 1, § 951).
Ironically, CMS accurately notes that its current policy
is consistent with its inclusion of Medicaid patient days
in the Medicaid fraction even after a patient exhausts
his or her Medicaid coverage. Prior to 1997, the Secretary applied a policy that excluded from the Medicaid
fraction of the Medicare DSH calculation the patient
days associated with those patients eligible for Medicaid, but for which the hospital did not receive payment
(because, for example, Medicaid benefits have been exhausted). That policy was soundly rejected by four
United States Courts of Appeal. See Cabell v. Huntington Hosp. v. Shalala, 101 F.3d. 984 (4th Cir. 1996);
Legacy Emanuel Hosp. & Health Ctr. v. Shalala, 97 F.3d
1261 (9th Cir. 1996); Deaconess Health Serv. Corp. v.
Shalala, 83 F.3d 1041 (8th Cir. 1996); Jewish Hosp., Inc.
v. Secretary of Health & Human Services, 19 F.3d 270
(6th Cir. 1994). It was only in response to these federal
court decisions that CMS (then the Health Care Financing Administration (“HCFA”)) implemented its current
policy. See HCFA Ruling 97-2 (Feb. 27, 1999). Indeed,

116
the litigation is still ongoing even with respect to the retroactive application of the mandated policy change.
See Monmouth Medical. Center v. Thompson, 257 F.3d
807 (D.C. Cir. 2001). The new policy with regards to
Medicare beneficiaries who have exhausted their Part A
coverage will undoubtedly invite similarly lengthy legal
challenges to which neither CMS nor the hospital industry should have to devote resources.

If, despite these concerns, CMS decides to move forward with its new policy, we urge you to clarify that the
new policy will enable hospitals to include certain days
in the Medicaid fraction that previously were included
in neither fraction. In particular, if SSI recipients who
have exhausted their Medicare coverage are to be treated
as not entitled to Medicare (and therefore included in
the Medicaid fraction) than other, non-SSI Medicaid recipients who have exhausted their Medicare coverage
should also be included in the Medicaid fraction. Under the current policy, these individuals are included in
neither fraction because they are considered to be entitled to Medicare (and therefore ineligible for the Medicaid fraction) but they are not SSI recipients (and therefore ineligible for the Medicare fraction). CMS should
clarify for hospitals and fiscal intermediaries that this
new class of patient days will now be included in the DSH
patient percentage.

117
Finally, we are deeply troubled by the recent web posting
of a modification of these comments on the CMS website.43 Our understanding is that this modification ap-

peared with no formal notification by CMS and without
the opportunity for provides to comment. The notification states:

In the May 19, 2003 proposed rule (68 FR 27207) we
indicated, with respect to dual-eligibles, that the policy described above currently applies even after the
patient’s Medicare Part A coverage is exhausted.
That is, we stated that if a dual-eligible patient is admitted without any Medicare Part A coverage remaining, or the patient exhausts Medicare Part A
coverage while an inpatient, the non-covered patient
days are counted in the Medicare fraction. It has
come to our attention, however, that this statement
is not accurate. Our policy has been that only covered patient days are included in the Medicare fraction (42 CFR § 412.106 (b)(2)(i)).
Although CMS states “Our policy has been that only
covered patient days are included in the Medicare fraction,” we believe this is far from a settled issue. At the
very least, CMS’s unequivocal statement in the FY 2004
proposed rule that “a dual-eligible patient . . . [who]
exhausts Medicare Part A coverage while an inpatient
. . . [is] counted in the Medicare fraction before and
after Medicare coverage is exhausted” clearly indicates

“Disproportionate Share Hospital Adjustment—Dual Eligible
Patient Days,” available at:
http://www.cms.hhs.gov/providers/
hipps/dual.asp; last modified July 7, 2005.
4

118
uncertainty within the agency about CMS’s policy.54 Furthermore, a plain reading of the federal regulation cited
by CMS in support of this web posting does not support
the wholesale exclusion of non-covered days. The regu-

lation provides that the numerator of the Medicare fraction includes, inter alia, patient days “entitled to Medicare Part A . . .’’65 It is important to note that Medicare Part A benefit not only includes inpatient services
but other services such as skilled nursing facility care,
some home health services, and hospice care. The reg-

ulation does NOT specify that patients included in the
DSH Medicare Fraction numerator must be entitled to
Medicare Part A inpatient services but rather Medicare
Part A generally. We would assert that, at a minimum,
a plain reading of the regulation requires that patients
entitled to any Part A benefit be included in the DSH
Medicare fraction numerator (regardless of whether they
have exhausted their Medicare Part A inpatient benefit).

As discussed above, we also believe that such an interpretation is “consistent with the statutory intent” of the
Social Security Act § 1886(d)(5)(F)(vi)(II) as CMS itself
stated in the FY 2004 proposed rule.76 Finally, as noted
in the Medicaid fraction discussion above, federal courts
are apt to interpret the requirement that patients are
“eligible” or “entitled” to a government benefit to include patients that generally meet the criteria necessary
to receive the benefit (e.g. age, disability status, income)
but have exhausted their coverage.

5
6
7

68 Fed Reg. 27207 (May 19, 2003).
42 CFR § 412.106(b)(2)(i)(B):
68 Fed Reg. 27207 (May 19, 2003).

119
Even more troubling is the manner in which CMS has
chosen to release this “clarification.’’ By obscurely posting this policy-change on the CMS website and providing very limited notification,87it is uncertain the degree
to which providers are aware of the new policy. In addition, by posting it a few days before FY 2005 IPPS
proposed rule comments are due, CMS has limited the
ability of the provider community to properly analyze
and comment on this policy in the context of the proposed rule.
For these reasons, we urge CMS to withdraw the notification and enter into a collaborative discussion with the
provider community. At the very least, CMS should re-

spond to comments submitted in relation to this year’s
and last year’s IPPS proposed rules before formally
adopting any policy excluding patients from the Medicare DSH calculation. CMS must utilize the rule making process to adopt this new policy.
*

*

*

*

*

Notification was sent via email on the CMS Open Door Forum
Hospital Acute list-serve, on Friday, July 9th at midnight two days
before these comments were due.
8

120

July 8, 2004
Mark McClellan, M.D., Ph.D.
Administrator, Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004

Dear Dr. McClellan:
Thank you for the opportunity to comment on the Centers for Medicare & Medicaid Services (CMS) proposed
rule establishing new policies and payment rates for
hospital inpatient services for fiscal year (FY) 2005.
We are pleased that Congress acknowledged that Medicare payments to hospitals were inadequate and provided $25 billion in relief through the Medicare Modernization Act of 2003 (MMA). We are concerned, however, that the agency is proposing provisions that would
reduce these gains.
The adequacy and equity of Medicare payments to hospitals is essential, yet 39 percent of hospitals lost money
providing inpatient services to Medicare patients in FY

121
2001, and preliminary estimates indicate that figure has
jumped to almost 50 percent in FY 2002.
Our detailed comments are contained in the following
sections of this letter and address CMS’s proposed
changes to the inpatient payment system, including those
related to the outlier threshold, transfer policy and new
technology.
*

*

*

*

*

Dual-Eligible Patient Days
We oppose CMS’ proposed changes last year in the counting of dual-eligible patient days for the purpose of calculating the DSH patient percentage. CMS did not final-

ize its proposal last year, but indicates in this year’s proposed rule that it will respond to last year’s comments
and make a decision in its FY 2005 final rule.

The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the number of patient days attributable to patients eligible for
Medicaid but not entitled to Medicare Part A benefits
divided by total patient days. CMS proposes changing
how it treats dual eligible patients who have exhausted
their Medicare coverage.
Rather than continue to include these patients as part of the Medicare fraction,
CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory in-

122
tent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dualeligible patients whose Part A coverage has been exhausted. The degree of difficulty depends on the data
provided by the States, which may vary from one State
to the next.” The shift of this administrative burden to
hospitals is unjustified, especially given the inability of
hospitals to access this information.
Government
agencies, specifically the FIs and the states, have records regarding the Medicaid and Medicare status of patients as well as whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be changed.

*

*

*

*

*

123

July 8, 2004
Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004

Dear Sirs:
Thank you for the opportunity to comment on the Centers for Medicare & Medicaid Services’ (CMS) proposed
rule establishing new policies and payment rates for
hospital inpatient services for fiscal year (FY) 2005.
The Tennessee Hospital Association (THA), established
in 1938, serves as an advocate for hospitals, health systems and other healthcare organizations and the patients they serve. THA represents over 200 healthcare
facilities, including hospitals, home care agencies, nursing homes, and health-related agencies and businesses
and over 2,000 employees of member healthcare institutions, such as administrators, board members, nurses
and the many health professionals. THA is the premi-

124
ere organization in Tennessee that promotes and represents the interests of all health careers, hospitals and
health systems.
The proposed rule would increase a hospital’s patient
PPS rates by 3.3 percent in 2005, if the hospital submits
data on 10 specific clinical measures of quality care.
Hospitals that do not submit quality data would receive
a reduced payment update to reflect market basket less
0.4 percentage points, or 2.9 percent
THA continues to urge adequate Medicare reimbursement to hospitals which reflects cost increases and applaud Congress and CMS for the full market basket increase for the upcoming year.

The THA is concerned about the redistribution of hospital payments due to the proposed revisions to metropolitan statistical areas (MSAs), the implementation of an
occupational mix adjustment, and changes to geographic
reclassification. Specifically, the THA urges the agency
to implement a 3-year “stop-loss provision” to protect
those hospitals that would experience a decline in their
wage Index value due to the revised MSAs.

THA is greatly concerned about those critical access
hospitals (CAHs) that now would be designated as “urban” hospitals due to the new geographic boundaries.
It is essential that these facilities maintain their CAH
status, even though they may no longer be located in extended to those spending their first year in internal
medicine, pediatrics or surgery. The THA believes that
this Issue needs to be addressed and corrected in the final
regulation.

125
Dual-Eligible Patient Days
The THA is in opposition to CMS’ proposed changes last
year in the counting of dual-eligible patient days for the
purpose of calculating the DSH patient percentage.

CMS did not finalize its proposal last year, but indicates
in this year’s proposed rule that it will respond to last
year’s comments and make a decision in its FY 2005 final
rule.

The DSH patient percentage is a sum of two fractions,
the “Medicare traction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the number of patient days attributable to patients eligible for
Medicaid but not entitled to Medicare Part A benefits
divided by total patient days. CMS proposes changing
how it treats dual eligible patients who have exhausted
their Medicare coverage. Rather than continue to include these patients as part of the Medicare fraction.
CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on hospitals. CMS indicates, “it is often difficult for fiscal intermediaries (FIs) to differentiate days for dual-eligible
patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.”
The shift of this administrative burden to hospitals is
unjustified, especially given the inability of hospitals to

126
access this information. Government agencies, specifically the FIs and the states, have records regarding the
Medicaid and Medicare status of patients as well as
whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be changed.
*

*

*

*

*

127
185 Berry Street
Suite 300
San Francisco, CA 94107-1739
(415) 438-5500 Telephone
(415) 438-5724 Facsimile
* * * * *
July 9, 2004
Mark B. McClellan, M.D., Ph.D.
Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Hubert H. Humphrey Building
200 Independence Avenue, SW
Room 443-G
Washington, D.C. 20201
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Payment Rates; Proposed Rule (69 Federal
Register 28196), May 18, 2004

Dear Dr. McClellan:
Catholic Healthcare West (CHW), on behalf of our 43
hospitals in California, Arizona and Nevada, is pleased
to submit the following comments on the notice of proposed rulemaking (NPRM) on the Medicare Hospital
Inpatient Prospective Payment System for Fiscal Year
2005, as published in the May 18, 2004 Federal Register
(Vol. 69, No. 96, page 28196). In addition to proposing
rates of increase for hospital payments and updates to

128
Diagnosis Related Groups (DRG) weights and calibrations for FY 2005, the proposed rule includes potential
changes to regulations governing several important areas affecting the care we provide to Medicare beneficiaries.
Our comments will address the following issues:
•

Proposed increase in the Medicare fixed-loss cost
outlier payment threshold;

•

Proposed expansion of DRGs subject to the Medicare post-acute transfer policy;

•

Proposed changes to counting of dual-eligible patient days in calculating Disproportionate Share
Hospital (DSH) patient percentage

In addition to these comments, we also support the comments and recommendations of the American Hospital
Association, the Catholic Health Association, Premier,
Inc. and the California Healthcare Association.
Dual-Eligible Patient Days

Last year, CMS proposed changes in the counting of
dual eligible patient clays for the purpose of calculating
the DSH patient percentage. CMS did not finalize this
proposal last year, but indicates in this year’s proposed
rule that it will respond to last year’s comments and
make a decision in its FY 2005 final rule. CHW strongly
opposes these proposed changes in the counting of dualeligible patient days for the purpose of calculating the
DSH patient percentage.

The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare

129
days, and the “Medicaid fraction,” calculated as the
number of patient days attributable to patients eligible
for Medicaid but not entitled to Medicare Part A benefits divided by total patient days. CMS proposes changing how it treats dual eligible patients who have exhausted their Medicare coverage. Rather than continue to include these patients as part of the Medicare
fraction, CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dualeligible patients whose Part A coverage has been exhausted. The degree of difficulty depends on the data
provided by the states, which may vary from one state
to the next.” The shift of this administrative burden to
hospitals is unjustified, especially given the inability of
hospitals to access this information.
Government
agencies, specifically the FIs and the states, have records regarding the Medicaid and Medicare status of patients as well as whether they have exhausted their benefits.
Further, it is likely that this proposed change would result in reduced DSH payments to hospitals. Any transfer of a particular patient day from the Medicare fraction (based on total Medicare patient days) to the Medicaid fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.

130
Therefore, CHW makes the following recommendation
with regard to the proposed changes to the counting of
dual-eligible patient days:
CHW respectfully requests that CMS not change the calculation of dual-eligible days for the purpose of calculating the DSH patient percentage.

131
Illinois Hospital Association
July 9th, 2004
Dr. Mark B. McClellan, M.D., Ph.D.
Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Room 443-G, Hubert H. Humphrey Building
200 Independence Avenue, S.W.,
Washington, D.C. 20201
ATTN.:

CMS-1428-P

Re: Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2005
Rates; Proposed Rule, Federal Register, Volume 69, No.
96, Tuesday, May 18th, 2004

Dear Dr. McClellan:
On behalf of our approximately 190 member hospitals or
health care systems, the Illinois Hospital Association
(IHA) is taking this opportunity to formally comment on
the proposed rule establishing new policies and payment
rates for hospital inpatient services for fiscal year 2005.
The FY 2005 rule is one of the most lengthy and complicated since the inception of the Medicare program; it not
only proposes a significant number of complex regulatory changes, but also implements a number of provisions of the Medicare Prescription Drug, Improvement
and Modernization Act (MMA) of 2003. IHA commends the Centers for Medicare and Medicaid Services
(CMS) for its exhaustive and thorough analyses that are
presented in this rule. However, the Illinois Hospital

132
Association is concerned that some of the financial relief
that hospitals received through the MMA will be compromised with some of the provisions of the proposed
rule. Therefore, the Illinois Hospital Association presents the following comments for your consideration.
*

*

*

*

*

> Change in the DSH calculation-Counting Dualeligible days: The proposed rule contains a provision whereby CMS is changing its treatment of
“dual-eligible” patient days in the payment formula for the purposes of calculating a hospital’s
specific Medicare disproportionate share patient
percentage. Specifically, the agency is proposing to include patient days applicable to MedicareMedicaid cases when the patients have exhausted
their Medicare Part A benefits in the Medicaid
fraction of the formula as opposed to the Medicare SSI fraction. The Illinois Hospital Association urges CMS not to make this change for the
following reasons:

1. The current Medicare disproportionate
share payment formula is consistent with
statutory intent.
2. This change would require additional
recordkeeping on the part of hospitals to
determine the number of patient days to
include in the Medicaid fraction. Currently, the CMS database includes, by hospital, the number of dual eligible days to
include as part of the Medicare SSI fraction. This data is reported to the individual hospitals by the Medicare Part A fiscal

133
intermediaries as part of the Medicare SSI
percentage and is one less documentation
burden on the shoulders of hospitals.
Implementing this change places even
more of a reporting burden on hospitals, a
result undoubtedly unintended given
CMS’ willingness to examine cost reporting
“streamlining” in the future.
3. There is no estimate as to the financial impact of this change on aggregate Medicare
payments; hence, there is no information
as to whether implementation of this change
results in more or less cumulative Medicare payments to hospitals. The final
rule must include an estimate as to the impact of this change, which, at a minimum,
should be budget-neutral.
*

*

*

*

*

134
Jewish Hospital
HealthCare Services
July 9, 2004
Mark McClellan, M.D., Ph.D.
Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Dear Dr. McClellan:
On behalf of Jewish Hospital Healthcare Services (JHHS)
we appreciate the opportunity to comment on the Centers for Medicare and Medicaid Services (CMS) proposed rule establishing new policies and payment rates
for hospital inpatient services for the federal fiscal year
2005. The following are our comments:
*

*

*

*

*

III. Dual-Eligible Patient Days

It is our understanding that CMS will make a decision in the final rule regarding the counting of dualeligible days for disproportionate share (DSH) purposes. We oppose CMS’s proposal to include dualeligible days where Pert A coverage has been exhausted in the “Medicaid fraction”. The current
methodology has proven consistent with regulations;
and, shifting the burden of proof to the providers and
intermediaries will only make the task of determining eligible days more burdensome and costly to the
facility. The result of this shift will be lower DSH

135
payments due to a greater decrease in the SSI ratio
than the resulting increase in the Medicaid ratio.
The SSI ratio is only subject to Medicare days in the
denominator while the Medicaid ratio is subject to all
days in its denominator. We believe CMS mut abandon this proposal.

*

*

*

*

*

136

July 9th, 2004
Dr. Mark B. McClellan, Administrator
Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attention: CMS-1428-P
P.O. Box 8010
Baltimore, MD 21244-1850
Re:

CMS 1428-P—Medicare Program; Changes to the
Inpatient Prospective Payment System and FY 2005
Rates; Proposed Rule, May 18, 2004 Federal Register

Dear Dr. McClellan:
On behalf of its 143 member hospitals, the Michigan
Health and Hospital Association welcomes this opportunity to comment to the Centers for Medicare & Medicaid Services regarding the proposed rule for the FY
2005 Inpatient Prospective Payment System, released
on the CMS website on May 11, 2004 and published in
the May 18, 2004 Federal Register. Although this rule
provides a 3.3 percent market basket increase for hospitals that participate in the CMS quality initiative project, we are very concerned about other policy changes
which will result in significant payment decreases for
some hospitals.

137
The adequacy of Medicare payments to cover the cost
of services provided is crucial for ensuring the future viability of Michigan's nonprofit hospitals. Based on the
latest data available, 44 percent of Michigan hospitals experienced a negative margin on Medicare inpatient services while 74 percent experienced a negative margin on
Medicare outpatient services. As such, we are gravely
concerned about the consequences of the additional negative financial impact of the proposed changes, particularly implementation of the new Core Based Statistical
Areas based on the 2000 Census data, the increased outlier threshold, expansion of the post-acute transfer policy, and the long term care hospital changes. These
changes will further threaten the future viability of hospitals and access to healthcare services for Medicare
beneficiaries and other residents of the state of Michigan.
*

*

*

*

*

Dual-Eligible Patient Days
The MHA would like to reiterate its opposition to the
CMS’ proposed changes in the FY 2004 rule regarding the
counting of dual-eligible patient days for the purpose of
calculating the DSH patient percentage. Although the

CMS did not finalize its proposal last year, in this year’s
proposed rule the agency indicates that it will respond
to last year’s comments and make a decision in its FY
2005 final rule.

The DSH patient percentage is a sum of two fractions,
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare

138
days, and the “Medicaid fraction,” calculated as the number of patient days attributable to patients eligible for
Medicaid but not entitled to Medicare Part A benefits
divided by total patient days. CMS proposes changing
how it treats dual eligible patients who have exhausted
their Medicare coverage. Rather than continue to include these patients as part of the Medicare fraction, CMS
proposes to exclude them from the Medicare fraction
and count them in the Medicaid fraction.
There are important reasons not to make this change.
First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on hospitals. The CMS indicates, “it is often difficult for fiscal intermediaries to differentiate days for dual-eligible
patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.”
The shift of this administrative burden to hospitals is
unjustified, especially given the inability of hospitals to
access this information. Government agencies, specifically the fiscal intermediaries and the states, have records regarding the Medicaid and Medicare status of patients as well as whether they have exhausted their benefits.

It also is likely that this proposed change would result in reduced DSH payments to hospitals. Any transfer of a particular patient day from the Medicare fraction (based on total Medicare patient days) to the Medicaid fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient
percentage and the resulting DSH adjustment. The

139
MHA strongly believes that the calculation of dualeligible days must not be changed.

*

*

*

*

*

140

Marc D. Smith, Ph.D., President
July 9, 2004
Mark McClellan
Administrator
Centers for Medicare & Medicaid Services
200 Independence Avenue, S.W.
Room 443-G
Washington, D.C. 20201
Ref:

CMS-1428-P—Medicare Program; Changes to
the Hospital Inpatient Prospective Payment
System and Fiscal Year 2005 Rates; Proposed
Rule (69 Federal Register 28196), May 18, 2004.

Dear Dr. McClellan:
On behalf of our member hospitals, health care systems,
networks and other care providers, the Missouri Hospital Association appreciates the opportunity to comment
on the Centers for Medicare & Medicaid Services’ proposed rule establishing new policies and payment rates
for hospital inpatient services for fiscal year 2005.
The rule is one of the most complicated and lengthy in
the history of the Medicare program. It not only implements a number of provisions of the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 but also proposes a significant number of complex

141
regulatory changes. MHA is pleased with Congress’
acknowledgement that Medicare payments to hospitals
were inadequate and provided $25 billion in relief through
this bill. However, we are concerned the CMS is proposing provisions that would reduce these gains. In its
March 2004 report to Congress, the Medicare Payment
Advisory Commission said that hospitals’ overall Medicare margins had dropped from 4.1 percent in 2001 to
1.7 percent in 2002, the most recent year for which data
is available. Although the act was a good first step, we
will continue urging Congress to provide adequate Medicare reimbursement to hospitals. In our following comments on this proposed rule, we encourage CMS to make
changes that would prevent a further decline in Medicare payment.
MHA is concerned about the redistribution of hospital
payments because of proposed revisions to metropolitan
statistical areas, the implementation of an occupational
mix adjustment and changes to the geographic reclassification. Specifically, MHA urges CMS to implement a
three-year “stop-loss provision” to protect those hospitals
that would experience a decline in their wage index value
of 5 percent or more because of the revised MSAs.
Dual-Eligible Patient Days
MHA would like to reiterate its opposition to last year’s
proposed changes from CMS in the counting of dualeligible patient days for the purpose of calculating the
DSH patient percentage. CMS did not finalize its pro-

posal last year but in this year's proposed rule indicates
it will respond to last year’s comments and make a decision in its FY 2005 final rule.

142
The DSH patient percentage is a sum of two fractions—
the “Medicare fraction” and the Medicaid fraction.
The “Medicare fraction” is calculated as the number of
patient days attributable to patients eligible for both
Medicare Part A and Supplemental Security Income
benefits divided by total Medicare days—and the “Medicaid fraction,” calculated as the number of patient days
attributable to patients eligible for Medicaid but not entitled to Medicare Part A benefits divided by total patient days. CMS proposes changing how it treats dualeligible patients who have exhausted their Medicare
coverage. Rather than continuing to include these patients as part of the Medicare fraction, the CMS proposes to exclude them from the Medicare fraction and
count them in the Medicaid fraction.
There are important reasons not to make this change.

First, in the FY 2004 proposed rule CMS clearly states
the current formula is consistent with statutory intent
Second, the proposed change would place a significant
new regulatory and administrative burden on hospitals.
CMS indicates “it is often difficult for fiscal intermediaries to differentiate days for dual-eligible patients whose
Part A coverage has been exhausted. The degree of
difficulty depends on the data provided by the states,
which may vary from one state to the next.” The shift
of this administrative burden to hospitals is unjustified,
especially given the hospitals’ inability to access this information. Government agencies, specifically the fiscal intermediaries and the states, have records regarding the Medicaid and Medicare status of patients, as well
as if they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer of

143
a particular patient day from the Medicare fraction (based
on total Medicare patient days) to the Medicaid fraction
(based on total patient days) will dilute the day’s value,
which reduces the overall patient percentage and the
resulting DSH adjustment. The calculation of dualeligible days must not be changed.
*

*

*

*

*

144

July 12, 2004
Mark B. McClellan, M.D., Administrator
Centers for Medicare & Medicaid Services
Attention: CMS-1428-P
Room 443-G, Hubert H. Humphrey Building
200 Independence Avenue, S.W.
Washington, D.C. 20201
Re: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
The California Healthcare Association (CHA), on behalf
of its nearly 500 member hospitals, health systems and
ancillary providers, respectfully submits its comments
regarding the proposed inpatient prospective payment
system (IPPS). We want to thank the Centers for
Medicare & Medicaid Services (CMS) for the extraordinary effort that was clearly invested in preparing the
proposed rule and implementing the Medicare Prescription Drug, Improvement, and Modernization Act
(MMA) of 2003 provisions in a timely fashion.
*

*

*

*

*

145
DSH ADJUSTMENT

In the 2004 IPPS rule, CMS proposed changing the
treatment of dual eligible patients who had exhausted
their Medicare coverage. Currently, the DSH patient
percentage is the sum of two fractions: the “Medicare
traction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A
and SSI benefits, divided by total Medicare days; and
the “Medicaid fraction,” calculated as the number of patient days attributable to patients eligible for Medicaid
but not entitled to Medicare Part A benefits, divided by
total patient days. Rather than continue to include
these patients as part of the Medicare fraction, CMS
proposed excluding them from the Medicare fraction
and counting them in the Medicaid fraction.
There are important reasons not to make this change.
First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dual-eligible patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.”
The shift of this administrative burden to hospitals is
unjustified, especially given the inability of hospitals to
access this information. Government agencies, specifically the FIs and the states, have records regarding the
Medicaid and Medicare status of patients as well as
whether they have exhausted their benefits.
It is also likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer

146
of a particular patient day from the Medicare traction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be
changed.
*

*

*

*

*

147

ATTACHMENT 4 TO #284
July 12, 2004
Centers for Medicare and Medicaid Services
Room C5-14-03
Central Building
7500 Security Boulevard
Baltimore, MD 21244-1850
Re:

CMS-1428-P
Hospital Inpatient PPS Proposed Rule for
FY 2005
DSH Adjustment

Dear Sir or Madam:
The Detroit Medical Center (DMC) Hospitals—
Children’s Hospital of Michigan, Detroit Receiving Hospital, Harper-Hutzel Hospital Huron, Valley-Sinai Hospital, Rehabilitation Institute of Michigan and SinaiGrace Hospital are submitting this comment in connection with the notice of proposed rulemaking (the “NPRM”)
addressing proposed changes to the inpatient prospective payment system for Federal Fiscal Year 2005.
Specifically, this comment relates to the proposed implementation of changes to the methodology for calculating the disproportionate share hospital (“DSH”) pa-

148
tient percentage. In connection with a proposal initially set forth last year, the Centers for Medicare and
Medicaid Services (“CMS”) has proposed to shift patient
days attributable to dual-eligible patients who have exhausted their Medicare Part A coverage from the Medicare Proxy to the Medicaid Proxy. The DMC strongly
disagrees with this policy and urges CMS to withdraw
it.
DSH payments are payments to hospitals that serve
a disproportionate share of low-income patients. DSH
payments are paid based on the sum of two computations. The first computation, which is referred to as
the Medicare Proxy, is calculated by taking the number
of patient days that are furnished to patients entitled
both to Medicare Part A and Supplemental Security Income and dividing this number by the total number of
patient days attributable to patients entitled to benefits
under Medicare Part A.
42 U.S.C. §
1395ww(d)(5)(F)(vi)(I).
The second computation,
which is referred to as the Medicaid Proxy, is calculated
by taking the number of patient days that are furnished
to patients eligible for Medicaid but who are not entitled
to benefits under Medicare Part A and dividing this
number by total patient days.
42 U.S.C. §
1395ww(d)(5)(F)(vi)(II). The proposal in the NPRM
relates to dual-eligible patients, referring to Medicare
beneficiaries who are also eligible for Medicaid. Patient
days attributable to these patients are now included in
the Medicare Proxy numerator. However, the NPRM
proposes to include these days in the Medicaid Proxy
numerator when the dual-eligible patient has exhausted
his or her Medicare Part A coverage.

149
CMS has offered little justification for this policy in
its NPRM. CMS does not assert that its proposal reflects a better interpretation of the statute than present
policy or one mandated by recent court decisions or
changes in the applicable statute, but rather that its proposal reflects a “plausible” interpretation. 69 Fed.
Reg. at 27208. Its primary purpose in suggesting this
revision is to alleviate difficulties for its fiscal intermediaries, who may have difficulty identifying dual eligible
patients who have exhausted their Part A benefits and
verifying that hospitals furnishing Medicaid Proxy data
have not included patient days relating to these patients.
Id. Ostensibly, the intermediaries face this difficulty
because hospitals do not submit claims to their intermediaries for dual eligible patients who have exhausted
their Part A coverage. Id.
The DMC asserts that this proposal runs counter to
the law and is otherwise inequitable to hospitals receiving DSH funding. As CMS has acknowledged in the
NPRM, it is consistent with the statute to include in the
Medicare Proxy numerator days attributable to dual eligible patients with exhausted Part A benefits. Indeed, even under the proposed policy, CMS would still
include in the Medicare Proxy numerator days attributable to patients who have exhausted their Part A benefits if these patients are not eligible for Medicaid.
However, CMS offers no basis in the statute for treating
these similarly situated groups differently. Furthermore, CMS has not claimed that it intends to remove
from the Medicare Proxy denominator days attributable
to dual eligible patients with exhausted Part A benefits.
Thus, the policy would result in an impermissible mismatching of data.

150
The proposal is also entirely inequitable to providers.
Essentially, the genesis of the policy is the difficulty intermediaries face verifying which Medicaid patients are
also Medicare beneficiaries who have exhausted their
Part A benefits. It remains unclear why CMS believes
that hospitals will be better able to access this information. Intermediaries have access to CMS databases
that collect information about beneficiaries over the
course of their participation in Medicare. Hospitals
only have access to information about the patient’s admissions to that hospital or information otherwise selfreported by their patients. As is apparent, intermediaries have access to a greater wealth of information.
While hospitals are thus in a weaker position to collect
this data, the consequences of being inaccurate can be
severe, ranging from overpayment liability to potential
False Claims Act allegations. Such consequences are
unacceptable, given that CMS and its intermediaries
can take the alternative approach of refining their systems to allow for a more accurate system of matching
Medicare beneficiary names against names on Medicaid
beneficiary lists furnished by the States. This inequity
militates in favor of discarding this policy.
Not only is this an unwarranted shifting of an administrative burden that is more appropriately borne by
CMS’ intermediaries, this policy would also result in a
decrease in reimbursement. Since the denominator of
the Medicaid Proxy is larger than the denominator of
the Medicare Proxy, the days in question will have a
more diluted effect if shifted to the Medicaid Proxy.
Thus, merely for the sake of administrative convenience
for the intermediaries, CMS is proposing to reduce reimbursement to hospitals in violation of the applicable
statutory provisions.

151
At a minimum, even if CMS were to implement this
policy (which it clearly should not), it should clarify that
it intends to subtract the corresponding days from the
Medicare Proxy denominator. Otherwise, it would be
compounding the inequities inherent in this policy through
further distorting the Medicare Proxy.
*

*

*

*

*

152

July 12, 2004
Dr. Mark McClellan, Administrator
Centers for Medicare and Medicaid Services
Department of Health and Human Services
Room 443-G
Hubert H. Humphrey Building
200 Independence Avenue, S.W.
Washington, DC 20201
Re: CMS Proposed Rule with Comment Period,
Medicare Program; Changes to the Hospital Inpatient Prospective Payment Systems and Fiscal Year 2005 Rates, Federal Register (May 18,
2004)
Dear Administrator McClellan:
The Federation of American Hospitals (“FAH”) is
the national representative of privately owned or managed community hospitals and health systems throughout the United States. Our members are full service
community hospitals, teaching and non­teaching, urban
and rural, who provide critical health care services across
the ambulatory, acute, and post-acute spectrum. We
appreciate the opportunity to comment on the Centers
for Medicare and Medicaid Services’ (“CMS”) proposed

153
rule regarding changes to the hospital inpatient prospective payment system and fiscal year (“FY”) 2005
rates. Attached as Exhibit A to this letter, FAH has
set forth a list of all major issues commented upon in
this letter (and the corresponding page number where
discussion of each issue begins).
*

*

*

*

*

Dual-Eligible Patient Days

In the May 19, 2003 Proposed Rule (68 Fed. Reg. at
27207-08), CMS proposed to “change” the treatment, for
DSH purposes, of days attributable to patients who are
eligible for both Medicare Part A and Medicaid , but who
are admitted as an inpatient without any Medicare Part
A coverage remaining or who exhaust Medicare Part A
coverage while admitted (“Part A Exhausted/Noncovered
Days”). CMS stated that these days had historically
been counted in the Medicare fraction of the DSH calculation and then proposed to change their treatment, so
that prospectively such days would be counted in the
Medicaid fraction. This change has not yet been implemented. Instead, in the August 1, 2003 Final Rule (68
Fed. Reg. at 45421), CMS stated that it was still reviewing the large number of comments that it received on
this issue and would address those comments in a separate document. In the current Proposed Rule, CMS
stated that it would address this issue in the Final Rule
for FY 2005 (69 Fed. Reg. at 28286).
In response to the May 19, 2003 Proposed Rule, FAH
submitted comments on this issue (pages 15 to 17 of its
July 8, 2003 comment letter). Information has come to
FAH’s attention which has caused a reconsideration of
those comments. Accordingly, FAH is submitting these

154
additional comments pertaining to this issue and requests that, in light of the delay in implementation of the
May 19, 2003 proposal, these comments be taken into
consideration. (As noted in the following paragraph,
CMS published some misinformation in its May 19, 2003
Proposed Rule. Thus, CMS should continue to accept
comments on this issue.)
When drafting its comments for FY 2004, FAH took
at face value CMS’s statement that, historically, Part A
Exhausted/Noncovered Days have been included in the
Medicare fraction. Assuming that this was true, and
concerned that, if moved to the Medicaid fraction, the
burden would be on the provider to identify these days,
which might result in a lower number of days counted,
FAH argued for a continuation of the existing policy to
include these days in the Medicare percentage. Since
submitting those comments, however, FAH has been informed that at least one knowledgeable fiscal intermediary, and possibly members of CMS staff, have indicated that further research has confirmed that such
days are, in fact, not currently (and never were) included
in the Medicare percentage. This possibility makes
sense, because it is FAH’s understanding that the Medicare fraction (i.e., the percentage of Medicare inpatient
days attributable to patients entitled to both Medicare
Part A and supplemental security income (“SSI’’) benefits) is calculated by matching a tape from the Social Security Administration (containing SSI eligibility data)
with Medicare Provider Analysis & Review (“MedPAR”)
files. Since MedPAR only contains patient days that
have been paid by Medicare, FAH questions how days
that are unpaid due to the exhaustion or noncoverage of
Part A benefit were being accounted for in the calculation.

155
Indeed, as discussed below, CMS admitted in a July
7, 2004 bulletin that it had been mistaken in its assertion
that Part A Exhausted/Noncovered Days were in the
Medicare percentage. Thus, CMS has confirmed FAH’s
suspicion.
FAH also notes that CMS’s previously published assertion that all Part A Exhausted/Noncovered Days are
being currently included in the Medicare fraction could
only be accurate if all dual eligible recipients (i.e., eligible for Medicare Part A and Medicaid) whose Part A
hospital benefits were exhausted were also eligible for
SSI FAH believes there may be certain dual eligibles
who are receiving Medicaid but not SSI and questions
how Part A Exhausted/Noncovered Days associated with
such patients are being treated.
FAH notes that CMS has just recently issued a bulletin, on July 7, 2004, stating that it had previously made
an inaccurate statement when it indicated that Part A
Exhausted/Noncovered Days have historically been included in the Medicare fraction. This finally confirms
FAH’s belief that these days had not been included in
the Medicare fraction.
Part A Exhausted/Noncovered Days must be counted
in the DSH calculation. If, in the future, Part A Exhausted/
Noncovered Days are counted in the Medicare fraction,
CMS should publish an explanation of how such days
will be included in the calculation, so that providers can
have assurances that they will be included. If such
days are not counted in the Medicare fraction, then the
days must be counted in the Medicaid fraction.

156
Regardless of how CMS ultimately elects to treat
Part A Exhausted/Noncovered Days in the future, CMS
should take action to address how such days have been
counted in the past. Previously, CMS had instructed
intermediaries to deny these days if a provider claimed
them as part of the Medicaid fraction, on the grounds
that the days were already counted in the Medicare fraction. Since CMS now acknowledges that this was not
accurate, it must take affirmative action to allow providers to claim Part A Exhausted/Noncovered Days for past,
open or reopenable fiscal years.
*

*

*

*

*

157

July 12, 2004
Mark McClellan, M.D., Ph.D.
Administrator
Centers for Medicare & Medicaid Services
200 Independence Avenue, S.W.
Room 443-G
Washington, DC 20201
Ref: CMS-1428-P—Medicare Program; Changes to the
Hospital Inpatient Prospective Payment System and Fiscal Year 2005 Rates; Proposed Rule (69 Federal Register
28196), May 18, 2004.

Dear Dr. McClellan:
On behalf of our 109 member hospitals, and health care
systems, networks and other providers of care, the New
Jersey Hospital Association (NJHA) appreciates the opportunity to comment on the Centers for Medicare &
Medicaid Services (CMS) proposed rule establishing
new policies and payment rates for hospital inpatient
services for fiscal year (FY) 2005.
The rule is one of the most complicated and lengthy in
the history of the Medicare program. It not only implements a number of provisions of the Medicare Modernization Act of 2003 (MMA), but also proposes a significant number of complex regulatory changes. NJHA
is pleased that Congress acknowledged that Medicare

158
payments to hospitals were inadequate and provided $25
billion in relief through the MMA. We are concerned,
however, that the agency is proposing provisions that
would reduce these gains. The Medicare Payment Advisory Commission (MedPAC) in its March 2004 report
to Congress said that hospitals’ overall Medicare margins had dropped from 4.1 percent in 2001 to 1.7 percent
in 2002 the most recent year for which data is available.
In New Jersey our own analysis shows that hospitals receive on average just 90 cents on the dollar for the services they provide to Medicare beneficiaries. While
the MMA was a good first step, we will continue to urge
Congress to provide adequate Medicare reimbursement
to hospitals, and, in our attached comments on this proposed rule, we encourage CMS to make changes that
would prevent a further decline in Medicare payment.
NJHA is encouraged that previously the OMB and now
CMS (through the proposed rule) recognize that commuting, settlement and employment patterns change
over time and therefore so should the labor markets
used to calculate the Medicare wage index. New Jersey is uniquely positioned between the first and fifth
largest cities in the country. Wage index parity in this
market will allow New Jersey hospitals to fairly compete
for the scarce labor resources available.
NJHA is however concerned about the redistribution of
hospital payments due to the proposed revisions to metropolitan statistical areas (MSAs), the implementation
of an occupational mix adjustment. And that only discharges involving ESRD Medicare beneficiaries who
have received a dialysis treatment during an inpatient
hospital stay would be counted toward qualifying for this
adjustment, rather than all ESRD discharges. These

159
payments were established because of the higher cost of
treating patients who are critically ill, even though they
may not receive a dialysis treatment during their inpatient admission. The adjustment is used to help defray
the extra costs of treating ESRD patients in their entirety, not just to defray dialysis costs. CMS has not
explained why it proposes the change in policy, nor presented a sound argument for doing so—except to say
that the effect of the change would be reduced Medicare
program expenditures. This is a real cut to hospitals
treating these very ill and costly patients. NJHA opposes any change to this provision, which was put in
place to protect access to care for Medicare beneficiaries and help offset the financial losses associated with
hospitals treating a high concentration (10 percent or
more of a hospitals total Medicare discharges) of dialysis patients.
Dual-Eligible Patient Days
NJHA would like to reiterate its opposition to CMS’ proposed changes last year in the counting of dual-eligible
patient days for the purpose of calculating the DSH patient percentage. CMS did not finalize its proposal last

year, but indicates in this year’s proposed rule that it
will respond to last year’s comments and make a decision in its FY 2005 final rule.

The DSH patient percentage is a sum of two fractions.
the “Medicare fraction,” calculated as the number of patient days attributable to patients eligible for both Medicare Part A and SSI benefits divided by total Medicare
days, and the “Medicaid fraction,” calculated as the
number of patient days attributable to patients eligible
for Medicaid but not entitled to Medicare Part A bene-

160
fits divided by total patient days. CMS proposes changing how it treats dual eligible patients who have exhausted their Medicare coverage. Rather than continue to include these patients as part of the Medicare
fraction, CMS proposes to exclude them from the Medicare fraction and count them in the Medicaid fraction.
There are important reasons not to make this change.

First, CMS clearly states in the FY 2004 proposed rule
that the current formula is consistent with statutory intent. Second, the proposed change would place a significant new regulatory and administrative burden on
hospitals. CMS indicates, “it is often difficult for fiscal
intermediaries (FIs) to differentiate days for dual-eligible patients whose Part A coverage has been exhausted.
The degree of difficulty depends on the data provided by
the States, which may vary from one State to the next.”
The shift of this administrative burden to hospitals is
unjustified, especially given the inability of hospitals to
access this information. Government agencies, specifically the FIs and the states, have records regarding the
Medicaid and Medicare status of patients as well as
whether they have exhausted their benefits.
It also is likely that this proposed change would result
in reduced DSH payments to hospitals. Any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) will dilute the
value of that day, and therefore reduce the overall patient percentage and the resulting DSH adjustment.
The calculation of dual-eligible days must not be changed.

161
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 403, 412, 413, 418, 460, 480, 482, 483, 485, and
489
[CMS–1428–F]
RIN 0938–AM80
Medicare Program; Changes to the Hospital Inpatient
Prospective Payment Systems and Fiscal Year 2005 Rates
AGENCY: Centers for Medicare and Medicaid Services (CMS), HHS.
ACTION:

Final rule.
*

I.

*

*

*

*

Background

A. Summary
1. Acute Care Hospital Inpatient Prospective Payment System (IPPS)
Section 1886(d) of the Social Security Act (the Act)
sets forth a system of payment for the operating costs
of acute care hospital inpatient stays under Medicare
Part A (Hospital Insurance) based on prospectively set
rates. Section 1886(g) of the Act requires the Secretary to pay for the capital-related costs of hospital inpatient stays under a prospective payment system (PPS).
Under these PPSs, Medicare payment for hospital inpatient operating and capital-related costs is made at predetermined, specific rates for each hospital discharge.
Discharges are classified according to a list of diagnosisrelated groups (DRGs).

162
The base payment rate is comprised of a standardized amount that is divided into a labor-related share
and a nonlabor-related share. The labor-related share
is adjusted by the wage index applicable to the area
where the hospital is located; and if the hospital is located in Alaska or Hawaii, the nonlabor-related share is
adjusted by a cost-of-living adjustment factor. This
base payment rate is multiplied by the DRG relative
weight.
If the hospital treats a high percentage of low-income
patients, it receives a percentage add-on payment applied to the DRG-adjusted base payment rate. This
add-on payment, known as the disproportionate share
hospital (DSH) adjustment, provides for a percentage increase in Medicare payments to hospitals that qualify
under either of two statutory formulas designed to identify hospitals that serve a disproportionate share of lowincome patients. For qualifying hospitals, the amount
of this adjustment may vary based on the outcome of the
statutory calculations.
If the hospital is an approved teaching hospital, it receives a percentage add-on payment for each case paid
under the IPPS (known as the indirect medical education (IME) adjustment). This percentage varies, depending on the ratio of residents to beds.
Additional payments may be made for cases that involve new technologies or medical services that have
been approved for special add-on payments. To qualify, a new technology or medical service must demonstrate that it is a substantial clinical improvement over
technologies or services otherwise available, and that,
absent an add-on payment, it would be inadequately
paid under the regular DRG payment.

163
The costs incurred by the hospital for a case are evaluated to determine whether the hospital is eligible for
an additional payment as an outlier case. This additional payment is designed to protect the hospital from
large financial losses due to unusually expensive cases.
Any outlier payment due is added to the DRG-adjusted
base payment rate, plus any DSH, IME, and new technology or medical service add-on adjustments.
Although payments to most hospitals under the IPPS
are made on the basis of the standardized amounts,
some categories of hospitals are paid the higher of a
hospital-specific rate based on their costs in a base year
(the higher of FY 1982, FY 1987, or FY 1996) or the IPPS
rate based on the standardized amount. For example,
sole community hospitals (SCHs) are the sole source of
care in their areas, and Medicare-dependent, small rural
hospitals (MDHs) are a major source of care for Medicare beneficiaries in their areas. Both of these categories of hospitals are afforded this special payment protection in order to maintain access to services for beneficiaries (although MDHs receive only 50 percent of the
difference between the IPPS rate and their hospitalspecific rates if the hospital-specific rate is higher than
the IPPS rate).
Section 1886(g) of the Act requires the Secretary to
pay for the capital-related costs of inpatient hospital
services ‘‘in accordance with a prospective payment system established by the Secretary.’’ The basic methodology for determining capital prospective payments is
set forth in our regulations at 42 CFR 412.308 and
412.312. Under the capital PPS, payments are adjusted
by the same DRG for the case as they are under the operating IPPS. Similar adjustments are also made for

164
IME and DSH as under the operating IPPS. In addition, hospitals may receive an outlier payment for those
cases that have unusually high costs.
The existing regulations governing payments to hospitals under the IPPS are located in 42 CFR part 412,
subparts A through M.
*

*

*

*

*

3. Counting Beds and Patient Days for Purposes of
Calculating the IME Adjustment (§ 412.105(b)) and
DSH Adjustment ((§ 412.106(a)(1)(i))
As stated in section IV.K.1 of the preamble, § 412.105
of our existing regulations specifies that the calculation
of the IME adjustment is based on the IME adjustment
factor, which is calculated using hospitals’ ratios of residents to beds. The determination of the number of beds
is based on available bed days. This determination
of the number of available beds is also applicable for
other purposes, including the level of the disproportionate share hospital (DSH) adjustment payments under
§ 412.106(a)(1)(i).
In the FY 2004 IPPS proposed rule (68 FR 27201
through 27208, May 19, 2003), we proposed changes to
our policy on determining the number of beds and patient days as it pertains to both the IME and DSH adjustments. In the FY 2004 IPPS final rule (68 FR 45415
through 45422), we indicated that, due to the nature and
number of public comments we received on the proposed
policies regarding unoccupied beds, observation beds
for patients ultimately admitted as inpatients, dualeligible patient days, and Medicare+Choice (M+C) days,
we would address the comments in a separate document.
In the May 18, 2004 proposed rule, we stated that we

165
planned to respond to comments in this final rule. Under section IV.L.3. of this preamble, we are responding
to public comments received on the proposals in the May
19, 2003 and the May 18, 2004 proposed rules as they
relate to both the IME and DSH payment adjustments
and finalizing our policies in these four areas.
*

*

*

*

*

L. Payment to Disproportionate Share Hospitals
(DSHs) (Section 402 of Pub. L. 108-173 and § 412.106 of
Existing Regulations)
1.

Background

Section 1886(d)(5)(F) of the Act provides for additional
payments to subsection (d) hospitals that serve a disproportionate share of low-income patients. The Act specifies two methods for a hospital to qualify for the Medicare disproportionate share hospital (DSH) adjustment.
Under the first method, hospitals that are located in an
urban area and have 100 or more beds may receive a
DSH payment adjustment if the hospital can demonstrate that, during its cost reporting period, more than
30 percent of its net inpatient care revenues are derived
from State and local government payments for care furnished to indigent patients. These hospitals are commonly known as ‘‘Pickle hospitals.’’ The second method, which is also the most commonly used method for a
hospital to qualify, is based on a complex statutory formula under which payment adjustments are based on
the level of the hospital’s DSH patient percentage,
which is the sum of two fractions: the ‘‘Medicare fraction and the Medicaid fraction.’’ The Medicare fraction
is computed by dividing the number of patient days that

166
are furnished to patients who were entitled to both Medicare Part A and Supplemental Security Income (SSI)
benefits by the total number of patient days furnished
to patients entitled to benefits under Medicare Part A.
The Medicaid fraction is computed by dividing the number of patient days furnished to patients who, for those
days, were eligible for Medicaid but were not entitled to
benefits under Medicare Part A by the number of total
hospital patient days in the same period.

*

*

*

*

*

3. Counting Beds and Patient Days for the IME and
DSH Adjustments
In the May 19, 2003 IPPS proposed rule for FY 2004
(68 FR 27201), we proposed changes to our policy on
counting beds and patient days for the purposes of the
DSH and IME adjustments. We proposed changes to
the way unoccupied beds are counted. We also proposed
to clarify how observation beds and swing-beds are
counted, as well as our policy regarding nonacute care
(that is, a level of care that would not generally be payable under the IPPS) beds and days. In regard to patient days, we proposed changes to the way observation
days, dual-eligible days and M+C days are counted.
*

*

*

*

*

Due to the number and nature of the public comments
received on the proposals regarding the counting of
available beds and patient days in the May 19, 2003 proposed rule, we did not respond to the public comments
on some of the proposals in the final rule for FY 2004

167
(August 1, 2003 final rule (68 FR 45415)). We indicated
in that final rule that we would address public comments
regarding unoccupied beds, observation beds, dualeligible days, and M+C days in a separate document.
In the May 18, 2004 proposed rule, we indicated that we
planned to address the comments in this IPPS final rule
for FY 2005.
a. Provisions of the FY 2004 Proposed Rule, Responses to Public Comments, and Provisions of the FY
2005 Final Rule
*

*

*

*

*

The final categories of patient days addressed in the
proposed rule of May 19, 2003 were the dual-eligible patient days and the Medicare+Choice (M+C) days. We
proposed in the rule that the days of patients who are
dually-eligible, (that is, Medicare beneficiaries who are
also eligible for Medicaid) and have exhausted their
Medicare Part A coverage will not be included in the
Medicare fraction. Instead, we proposed that these days
should be included in the Medicaid fraction of the DSH
calculation. In regard to M+C days, we proposed that
once a beneficiary elects Medicare Part C, those patient
days attributable to the beneficiary should not be included in the Medicare fraction of the DSH patient percentage. The patient days should be included in the
count of total patient days in the denominator of the
Medicaid fraction, and if the M+C beneficiary is also eligible for Medicaid, the patient’s days would be included
in the numerator of the Medicaid fraction as well.
In the August 1, 2003 final rule (68 FR 45346), we finalized some of these proposals. For the proposals we
did not finalize, we indicated that we would address the

168
comments in a separate document. The proposals for
nonacute care beds and days, observation and swing-bed
days, LDP beds and days, and days for 1115 demonstration projects were finalized in the August 1, 2003 final
rule. However, due to the large number of comments
we received on our proposals for unoccupied beds, observation beds for patients ultimately admitted as inpatients, dual-eligible patient days, and M+C days, we decided to address the comments on these proposed policies in a separate final document. In this IPPS final
rule, we are addressing those comments, as well as some
additional comments that we received in response to the
May 18, 2004 proposed rule, and finalizing the policies.
As we did in the IPPS proposed rule of May 19, 2003
and the August 1, 2003 IPPS final rule, we are combining our discussion of policies for counting beds and patient days in relation to the calculations at §§ 412.105(b)
and 412.106(a)(1) which relate to the IME and DSH payment adjustments, because the underlying concepts are
similar, and we believe they should generally be interpreted in a consistent manner for both purposes. Specifically, we clarified that beds and patient days that are
counted for these purposes should be limited to beds or
patient days in hospital units or wards that would be directly included in determining the allowable costs of inpatient hospital care payable under the IPPS on the
Medicare cost reports. As a preliminary matter, beds,
and patient days associated with these beds, that are located in units or wards that are excluded from the IPPS
(for example, psychiatric or rehabilitation units, or outpatient areas), and thus from the determination of allowable costs of inpatient hospital care under the IPPS on
the Medicare cost report, are not to be counted for purposes of §§ 412.105(b) and 412.106(a)(1)(ii).

169
The remainder of this discussion pertains to beds and
patient days in units or wards that are not excluded from
the IPPS and for which costs are included in determining the allowable costs of inpatient hospital care under
the IPPS on the Medicare cost report.
*

*

*

*

*

We received numerous comments on our May 19,
2003 and May 18, 2004 proposals and our responses and
final policies are included in this preamble.
*
3.

*

*

*

*

Dual-Eligible Patient Days

As described above, the DSH patient percentage is
equal to the sum of the percentage of Medicare inpatient
days attributable to patients entitled to both Medicare
Part A and SSI benefits, and the percentage of total inpatient days attributable to patients eligible for Medicaid but not entitled to Medicare Part A benefits. If a
patient is a Medicare beneficiary who is also eligible for
Medicaid, the patient is considered dual-eligible and
the patient days are included in the Medicare fraction of
the DSH patient percentage but not the Medicaid fraction. This is consistent with the language of section
1886(d)(5)(F)(vi)(II) of the Act, which specifies that patients entitled to benefits under Part A are excluded
from the Medicaid fraction.
It has come to our attention that we inadvertently misstated our current policy with regard to the treatment
of certain inpatient days for dual-eligibles in the proposed rule of May 19, 2003 (68 FR 27207). In that proposed rule, we indicated that a dual-eligible beneficiary

170
is included in the Medicare fraction even after the patient’s Medicare Part A hospital coverage is exhausted.
That is, we stated that if a dual-eligible patient is admitted without any Medicare Part A hospital coverage remaining, or the patient exhausts Medicare Part A hospital coverage while an inpatient, the non-covered patient days are counted in the Medicare fraction. This
statement was not accurate. Our policy has been that
only covered patient days are included in the Medicare
fraction (§ 412.106(b)(2)(i)). A notice to this effect
was posted on CMS’s Web site (http://www.cms.hhs.gov/
providers/hipps/dual.asp) on July 9, 2004.
Comment: We received numerous comments that
commenters were disturbed and confused by our recent
Web site posting regarding our policy on dual-eligible
patient days. The commenters believed that this posting was a modification or change in our current policy to
include patient days of dual-eligible Medicare beneficiaries whose Medicare Part A coverage has expired in
the Medicaid fraction of the DSH calculation. In addition, the commenters believed that the information in
this notice appeared with no formal notification by CMS
and without the opportunity for providers to comment.
Response: The notice that was posted on our Web
site was not a change in our current policy. Our current policy is, if a patient is a Medicare beneficiary who
is also eligible for Medicaid, the patient is considered
dual-eligible and the patient days are included in the
Medicare fraction of the DSH patient percentage but
not the Medicaid fraction. This is consistent with the
language of section 1886(d)(5)(F)(vi)(II) of the Act, which
specifies that patients entitled to benefits under Medicare Part A are excluded from the Medicaid fraction.

171
The Web site posting is a correction of an inadvertent
misstatement made in the May 19, 2003 proposed rule
(68 FR 27207). This Web site posting was not a new
proposal or policy change. As a result, we do not believe it is necessary to utilize the rule making process in
correcting a misstatement that was made in the May 19,
2003 proposed rule regarding this policy.
In the proposed rule of May 19, 2003 (68 FR 27207),
we proposed to change our policy to begin to count in the
Medicaid fraction of the DSH patient percentage the patient days of dual-eligible Medicare beneficiaries whose
Medicare coverage has expired. We note that the statutory provision referenced above stipulates that the
Medicaid fraction is to include patients who are eligible
for Medicaid. However, the statute also requires that
patient days attributable to patients entitled to benefits
under Medicare Part A are to be excluded from the Medicaid fraction.
Comment:
Numerous commenters opposed our
proposal to begin to count in the numerator of the Medicaid fraction of the DSH patient percentage, the patient
days of dual-eligible Medicare beneficiaries whose Medicare inpatient coverage has expired. They objected that
the proposal would result in a reduction of DSH payments when the exhausted coverage days are removed
from the Medicare fraction and included in the Medicaid
fraction. According to these commenters, any transfer
of a particular patient day from the Medicare fraction
(based on total Medicare patient days) to the Medicaid
fraction (based on total patient days) would dilute the
value of that day and, therefore, reduce the overall patient percentage and the resulting DSH payment adjustment.

172
One commenter observed that a patient who exhausts
coverage for inpatient hospital services still remains entitled to other Medicare Part A benefits. This commenter found it difficult to reconcile the position that
these patients are not entitled to Medicare Part A benefits when they can receive other covered Part A services, such as SNF services.
In addition, some commenters stated that these days
should not be included in either the Medicare or Medicaid fraction. They indicated that the days should not
be included in the Medicare fraction because that computation includes the number of patient days actually
furnished to patients who were entitled to both Medicare Part A and SSI benefits. The commenters stated
that the days should also be excluded from the Medicaid
fraction because that computation excludes hospital patient days for patients who, for those days, were entitled
to benefits under Medicare Part A.
Commenters also indicated that the proposal would
put an increased administrative burden on the hospitals
to support including these patient days in the Medicaid
fraction. They recommended that if we finalize this
policy, the requirement that hospitals submit documentation justifying the inclusion of the days in the Medicaid
fraction should be removed.
Response: We proposed this change to facilitate
consistent handling of these days across all hospitals, in
recognition of the reality that, in some States, fiscal intermediaries are reliant upon hospitals to identify days
attributable to dual-eligible patients whose Medicare
Part A hospitalization benefits have expired. We believe it is important that all IPPS policies be applied consistently for all hospitals around the country.

173
However, we acknowledge the point raised by the
commenter that beneficiaries who have exhausted their
Medicare Part A inpatient coverage may still be entitled
to other Part A benefits. We also agree with the commenter that including the days in the Medicare fraction
has a greater impact on a hospital’s DSH patient percentage than including the days in the Medicaid fraction.
This is necessarily so because the denominator of the
Medicare fraction (total Medicare inpatient days) is
smaller than the denominator of the Medicaid fraction
(total inpatient days). However, we note that we disagree with the commenter’s assertion that including days
in the Medicaid fraction instead of the Medicare fraction
always results in a reduction in DSH payments. For
instance, if a dual-eligible beneficiary has not exhausted
Medicare Part A inpatient benefits, and is not entitled
to SSI benefits, the patient days for that beneficiary are
included in the Medicare fraction, but only in the denominator of the Medicare fraction (because the patient is
not entitled to SSI benefits). The inclusion of such patient days in the Medicare fraction has the result of decreasing the Medicare fraction in the DSH patient percentage.
For these reasons, we have decided not to finalize our
proposal stated in the May 19, 2003 proposed rule to include dual-eligible beneficiaries who have exhausted
their Part A hospital coverage in the Medicaid fraction.
Instead, we are adopting a policy to include the days associated with dual-eligible beneficiaries in the Medicare
fraction, whether or not the beneficiary has exhausted
Medicare Part A hospital coverage. If the patient is
entitled to Medicare Part A and SSI, the patient days
will be included in both the numerator and denominator
of the Medicare fraction. This policy will be effective

174
for discharges occurring on or after October 1, 2004.
We are revising our regulations at § 412.106(b)(2)(i) to
include the days associated with dual-eligible beneficiaries in the Medicare fraction of the DSH calculation.
*

*

*

*

*

■ 15. Section 412.106 is amended by
*
■ C.

*

*

*

*

Revising paragraph (b)(2)(i) introductory text.
*

*

*

*

*

to read as follows:
§ 412.106 Special treatment: Hospitals that serve a disproportionate share of low-income patients.

*

*

*

*

*

(b)

***

(2)

***

(i)

Determines the number of patient days that—
*

*

*

*

*

I. Impact of Policy Changes for Available Beds and
Patient Days Used in the IME and DSH Adjustments
Under the IPPS, the IME and the DSH adjustments
utilize statistics regarding the number of beds and patient days of a hospital to determine the level of the respective payment adjustment. For IME, hospitals receiving this adjustment want to minimize their number
of beds in order to maximize their resident-to-bed ratio.
For DSH, urban hospitals with 100 or more beds qualify

175
for a higher payment adjustment, so some hospitals
have an incentive to maximize their bed count to qualify
for higher payments. Existing regulations specify that
the number of beds is determined by counting the number of available bed days during the cost reporting period and dividing that number by the number of days in
the cost reporting period.
In this final rule, we finalized our policy regarding unoccupied beds, observation beds of patients ultimately admitted as inpatients, dual-eligible patient days, and
Medicare+Choice patient days. We do not anticipate
that these policy changes will have a significant impact
on payments. Based on an analysis from our actuarial
staff, we anticipate the impact of all four of these policy
changes to be less than $50 million for FY 2005.
*

*

*

*

*

176
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 412, 413, 415, 424, 440, 441, 482, 485, and 489
[CMS-1498-Fand CMS-1498-IFC; CMS-1406-F]
RIN 0938-APS0; RIN 0938-AP33
Medicare Program; Hospital Inpatient Prospective Payment Systems for Acute Care Hospitals and the Long­
Term Care Hospital Prospective Payment System Changes
and FY2011 Rates; Provider Agreements and Supplier Approvals; and Hospital Conditions of Participation for Rehabilitation and Respiratory Care Services; Medicaid
Program: Accreditation for Providers of Inpatient Psychiatric Services

*

*

*

*

*

We are committed to continue working with SSA to ensure that the file we receive from SSA for the purposes
of the SSI fraction data matching process is complete
and comprehensive and includes all individuals who are
entitled to SSI. To our knowledge, there are no omissions or data errors on the SSI file that we receive from
SSA. If we become aware of any such omissions or errors, we will work with SSA to correct them as quickly
as possible. With respect to obtaining an SSN for each
record in the EBD that does not have an SSN, we remind the commenters that “of the more than 100 million
records in the EDB, less than 0.07 percent (that is, fewer
than 7 of every 10,000 records) relate to individuals for
whom the EDB does not include a SSN for the person.”
There are valid reasons that a person in the EDB may
not have an SSN. For example, as we noted in the proposed rule, a person could live in a country other than

177
the United States, but be entitled to Medicare benefits
through his or her spouse. Another example of a record in the EDB that may validly lack an SSN is if the
person filed for a spouse’s or widower’s benefit prior to
the 1980’s because SSA did not require that the person
filing for benefits have an SSN at that time. There
may be other valid reasons that a record in the EDB
does not have an SSN, and as we previously stated, less
than 0.07 percent of records in the EDB lack an SSN.
We do not believe that it is possible to add an SSN for
every record if the person became entitled to Title II or
Medicare benefits without ever applying or receiving an
SSN. However, we note that the EDB is populated by
SSA on a frequent basis; to the extent that a record is
added to the EDB, the SSN that SSA has on file for that
person should be included in the EDB as well. Moreover, even if there were instances in which a record in the
EDB was missing an SSN, the lack of an SSN for certain
records in the EDB should have no effect on the data
matching process because, in order to be entitled to SSI
benefits, an individual must have an SSN. That is, a
person who does not have an SSN, by definition, cannot
be entitled to SSI (We refer readers to the proposed rule
language at 75 FR 24003 that states: “However, if an
applicant for SSI benefits does not already have a SSN,
SSA then assigns a SSN to the person.”) Thus, in the
SSI eligibility data that SSA provides to CMS, each individual identified in those data should have a unique
SSN. Additionally, as we stated under Step 2 of the
proposed data matching process, if an individual is entitled to SSI benefits and Medicare benefits, the new format of the SSI eligibility file will contain up to 10 Title
II numbers and, if they have not already been captured,
each of those numbers will be included in our revised

178
match process. Even if an individual does not have a
SSN in the EDB, this second step should ensure that our
revised match process will include that individual.
In response to the comment that CMS share the SSI
file data with hospitals, the SSI program is under the
authority of SSA and CMS is not authorized to share
SSA data. Additionally, CMS is only permitted to use
the SSI data for the sole purpose of conducting the data
match process and calculating the SSI fractions. To
the extent that a third party wishes to obtain direct access to the SSI file, it must contact SSA directly and
meet SSA’s requirements to become an authorized user.
Comment: One commenter stated that CMS uses
total (that is, “paid and unpaid”) Medicare days in the
denominator of the SSI fraction, but uses paid SSI days
in the numerator of the SSI fraction. The commenter requested that CMS interpret the word “entitled” to mean
“paid” for both SSI­entitled days used for the numerator and Medicare-entitled days used in the denominator,
or alternatively, that CMS include both paid and unpaid
days for both SSI entitlement and Medicare entitlement
such that there is consistency between the numerator
and the denominator of the SSI fraction. The commenter
stated that there were several SSI codes that represent
individuals who were eligible for SSI, but not eligible for
SSI payments, that should be included as SSI-entitled
for purposes of the data matching process. Specifically, the commenter stated that at least the following
codes should be considered to be SSI-entitlement:

179
• E01 and E02
• N06, N10, N11, N18, N35, N39, N42, N43, N46,
N50, and N54
• P01
• S04, S05, S06, S07, S08, S09, S10, S20, S21, S90,
and S91
• T01, T20, T22, and T31
Response: In response to the comment that we are
incorrectly applying a different standard in interpreting
the word “entitled” with respect to SSI entitlement versus Medicare entitlement, we disagree. The authorizing DSH statute at section 1886(d)(5)(F)(vi)(I) of the Act
limits the numerator to individuals entitled to Medicare
benefits who are also “entitled to supplemental security
income benefits (excluding any State supplementation)”
(emphasis added).198 Consistent with this requirement,
we have requested, and are using in the data matching
process, those SSA codes that reflect “entitlement to”
receive SSI benefits. Section 1602 of the Act provides
that “[e]very aged, blind, or disabled individual who is
determined under Part A to be eligible on the basis of
his income and resources shall, in accordance with and
subject to the provisions of this title, be paid benefits by
the Commissioner of the Social Security” (emphasis
As a side note, we have used the phrase “SSI­eligible” interchangeably with the term “SSI­entitled” in the FY 2011 proposed rule
as well as prior proposed and final rules, but the statute requires that
we include individuals who were entitled to SSI benefits in the SSI
fractions. Although we have used these terms interchangeably, we
intended no different meaning, and our policy has always been to
include only Medicare beneficiaries who are entitled to receive SSI
benefits in the numerator of the SSI fraction.
19

180
added). However, eligibility for SSI benefits does not
automatically mean that an individual will receive SSI
benefits for a particular month. For example, section
1611(c)(7) of the Act provides that an application for SSI
benefits becomes effective on the later of either the
month following the filing of an application for SSI benefits or the month following eligibility for SSI benefits.
On the other hand, section 226 of the Act provides
that an individual is automatically “entitled” to Medicare Part A when the person reaches age 65 and is entitled to Social Security benefits under section 202 of the
Act (42 U.S.C. 402) or becomes disabled and has been
entitled to disability benefits under section 223 of the
Act (42 U.S.C. 423) for 24 calendar months. Section
226A of the Act provides that qualifying individuals with
end-stage renal disease shall be entitled to Medicare
Part A. In addition, section 1818(a)(4) of the Act provides that, “unless otherwise provided, any reference to
an individual entitled to benefits under [Part A] includes
an individual entitled to benefits under [Part A] pursuant to enrollment under [section 1818] or section 1818A.”
We believe that Congress used the phrase “entitled to
benefits under part A” in section 1886(d)(5)(F)(vi) of the
Act to refer individuals who meet the criteria for entitlement under these sections.
Moreover, unlike the SSI program (in which entitlement to receive SSI benefits is based on income and resources and, therefore, can vary from time to time), once
a person becomes entitled to Medicare Part A, the individual does not lose such entitlement simply because
there was no Medicare Part A coverage of a specific inpatient stay. Entitlement to Medicare Part A reflects
an individual’s entitlement to Medicare Part A benefits,

181
not the hospital’s entitlement or right to receive payment for services provided to such individual. Such
Medicare entitlement does not cease to exist simply because Medicare payment for an individual inpatient hospital claim is not made. Again, we are bound by section
1886(d)(5)(F)(vi)(I) of the Act, which defines the SSI
fraction numerator as the number of SSI-entitled inpatient days for persons who were “entitled to benefits under [P]art A,” and the denominator as the total number
of inpatient days for individuals who were “entitled” to
Medicare Part A benefits.
In response to the comment about specific SSI status
codes, SSA has provided information regarding all of the
SSI status codes mentioned by the commenter to assist
in the determination of whether any of these codes represent individuals who were entitled to SSI benefits for
the purposes of calculating the SSI fraction for Medicare DSH. With respect to the codes that begin with
the letter “T,” SSA informed us that all of the codes represent individuals whose SSI entitlement was terminated. Code “T01” represents records that were terminated because of the death of the individual, but we
confirmed that this code would not be used until the first
full month after the death of the individual. That is, for
example, if a Medicare individual was entitled to SSI
during the month of October, was admitted to the hospital on October 1 and died in the hospital on October 15,
the individual would show up as entitled to SSI for the
entire month of October on the SSI file (code T01 would
not be used on the SSI file until November) and 15
Medicare/SSI inpatient hospital days for that individual
would be counted in the numerator and the denominator
of the SSI fraction for that hospital.

182
Codes beginning with the letter “S” reflect records that
are in a “suspended” status and, according to SSA, do not
represent individuals who are entitled to SSI benefits.
SSA maintains that code “P01” is obsolete and has
not been used since the mid-1980s. Therefore, it would
not be used on any SSI files reflecting SSI entitlement
for FY 2011 and beyond.
Codes that begin with the letter “N” represent records on “nonpayment” and are not used for individuals
who are entitled to SSI benefits.
Code “E01” represents an individual who is a resident of a medical treatment facility and is subject to a
$30 payment limit, but has countable income of $30 or
more. Such an individual is not entitled to receive SSI
payment. Alternatively, an individual who is a resident
of a medical treatment facility and is subject to a $30
payment limit, but does not have countable income of at
least $30, would be reflected on the SSI file as a “C01”
(which denotes SSI entitlement) for any month in which
the requirements described in this sentence are met.
Code “E02” is used to identify a person who is not entitled to SSI payments in the month in which that code is
used pursuant to section 1611(c)(7) of the Act, which
provides that an application for SSI benefits shall be effective on the later of (1) the first day of the month following the date the application is filed, or (2) the first
day of the month following the date the individual becomes eligible for SSI based on that application. Such an
individual is not entitled to SSI benefits during the month
that his or her application is filed or is determined to be
eligible for SSI, but, for the following month, would be
coded as a “C01” because he or she would then be entitled to SSI benefits.

183
Therefore, both codes E01 and E02 represent individuals who are not entitled to SSI benefits and are reflected accordingly on the SSI file. If the individual’s
entitlement to SSI benefits is initiated the ensuing month,
that individual would then be coded as a “C01” on the
SSI file and would be included as SSI-entitled for purposes of the data matching process.
As we have described above, none of the SSI status
codes that the commenter mentioned would be used to
describe an individual who was entitled to receive SSI
benefits during the month that one of those status codes
was used. SSI entitlement can change from time to
time, and we believe that including SSI codes of C01,
M01, and M02 accurately captures all SSI-entitled individuals during the month(s) that they are entitled to receive SSI benefits.
After consideration of the public comments we received, we are adopting the proposed data matching process for FY 2011 and beyond as final. The only modification we are making to the proposed data matching
process is adopting a policy to exclude a record from
the data matching process if we find a HICAN in the
MedPAR file that we are not able to locate in the EDB,
which is an extremely unlikely situation as noted in the
prior discussion in this final rule. We are adopting this
additional step in our validation process in response to
public comments to provide even more assurances that
our data matching process will yield accurate SSI fractions and capture all Medicare beneficiaries who were
entitled to SSI at the time of their inpatient hospital stay.
*

*

*

*

*

184
QUALITY REIMBURSEMENT SERVICES, INC.
Healthcare Consultants
PRRB Case No. 15-3126GC

Feb. 8, 2016
Mr. Michael W. Harty, Chairman
Department of Health and Human Services
Provider Reimbursement Review Board
2520 Lord Baltimore Dr.—Suite L
Baltimore, Maryland 21244-2670
RE: QRS Empire Health 2008 SSI Percentage CIRP
Group—NPR Based PRRB Case No. 15-3126GC
Provider Nos.: 50-0044 and 50-0119
FYE: 09/30/2008
Request for EJR

Dear Mr. Harty:
I accordance with PRRB Rule 42 I am writing to request
Expedited Judicial Review for the above referenced case
number 15-3126GC. The request to form this Common
Issue Related Party group appeal was received by the
Board on August 3, 2015. The Board issued an acknowledgement letter on August 6, 2015 assigning the above
referenced case number.
The Board also issued a Critical Due Dates letter on August 6, 2015. Subsequently, per the Group representatives’ request, the Board revised the critical due dates.
Per the revised Critical Due Dates notice the Group
Representative sent the Schedule of Providers and supporting documentation with a cover letter to the Board

185
demonstrating that the Board has jurisdiction over the
providers named in the group appeal. The Group Representative also sent a complete copy of the Schedule of
Providers with all supporting documentation to the Lead
Intermediary. A preliminary position paper has also
been submitted to the Lead Intermediary. The Lead
Intermediary in this case is Wisconsin Physicians Service.
The Issue For Which EJR Is Requested

The Provider is challenging the validity of CMS’s regulation, 42 CFR § 412.106(b)(2), specifically the application of “entitled” to the denominator of the SSI fraction
for DSH purposes. Effective October 1, 2004 CMS
amended section 412.106 to change the previous language “(i) Determines the number of covered patient
days” to “(i) Determines the number of patient days.”
That is, CMS amended the regulation to remove the
word “covered” so that any days for which CMS considers the individual to be “entitled to benefits under part
A” (e.g., exhausted days, Part C days, MSP days), regardless of whether the days were covered or paid by
Medicare Part A will be included in the denominator of
the SSI fraction. However, the change only affected
the denominator. For purposes of the numerator,
CMS requires that beneficiary was paid SSI benefits
during the period of his or her hospital stay in order for
such days to be included in the numerator. See 75 Fed.
Reg. 50280-81. The Provider challenges the regulation
as contrary to Medicare Statute and arbitrary and capricious because CMS is not permitted to have two different meanings of “entitled” within the SSI Fraction—
either CMS is incorrect in applying a stricter standard

186
with respect to entitled to SSI for purposes of the numerator or CMS’s change to its regulation to place exhausted days, MSP days and Part C days in the denominator regardless of whether they were paid or covered
by Medicare Part A is invalid.119
There Are No Factual Issues In Dispute

EJR is appropriate because the above-referenced appeal challenges CMS’ revised/changed interpretation
(effective October 1, 2004) of the term “entitled” as used
in 42 U.S.C. § 1395ww(d)(5)(F)(vi)(I).
There is no dispute that CMS changed its regulation at
42 CFR 412.106(b)(2) effective October 1, 2004 by eliminating the word ‘covered’ when referring to days used
in calculating SSI fractions. There is also no dispute
that effective October 1, 2004 CMS stopped using ‘covered’ days in the denominator of the SSI fraction and
began using ‘total’ days instead.
Effective October 1, 2004 the Secretary began including
‘covered’, ‘non-covered’, ‘exhausted benefit’, ‘Medicare
secondary payer’ and Medicare ‘Part C’ days in the denominator of the SSI fraction calculations. Previously
only ‘covered’ / ‘paid’ Medicare Part A days were included
in both the numerator and denominator of the SSI fraction. The Secretary, effective October 1, 2004, began
including days in the denominator that were ‘not covered’ / ‘not paid’ by Medicare Part A, yet continued requiring that only ‘paid’ SSI days be included in the numerator.

The Provider notes that, as applied to Part C days, the 2004
amendment to section 412.106(b)(2) has been vacated. See Allina
Health Servs, v. Sebelius, 746 F.3d 1102 (D.C. Cir. 2014).
1

187
There is also no dispute that CMS will include ‘covered’,
‘non-covered’, ‘exhausted benefit’, ‘Medicare secondary
payer' and Medicare ‘Part C’ days in the numerator of
the SSI fraction calculations, but only if the individual(s)
also received SSI cash payments. CMS made it clear
in the Federal Register that only days for which SSI
payments were actually made will be included in the numerator. 75 Fed. Reg. 50042, 50280-81 Aug. 16, 2010
CMS does not include days in the numerator when individuals were eligible for SSI but were not due a payment.
There is no dispute that only Social Security Administration payment status codes (‘PSC’s) C01, M01 and
M02 are utilized to identify individuals whose patient
days will be included in the numerator of the SSI fraction. On April 29, 2003 Pat Cribbs, a team leader for
the database analysis section at the Social Security Administration, with 24 years of experience, testified at a
PRRB evidentiary hearing related to PRRB Case Nos.
96-1882, 97-1579, 98-1827, and 99-2061 (Baystate). Ms.
Cribbs worked with the preparation of the SSI file that
was sent to CMS for the purpose of developing the SSI
fractions for hospitals. In her testimony Ms. Cribbs
stated that in order for an individual to be included in
the file that SSA sent to CMS, the individual would have
to have been active with one of three SSA payment status codes (C01, M01 or M02) and have been paid at least
a penny for the month in question.
CMS reaffirmed their position to only include payment
status codes C01, M01 and M02 in their response to a
comment letter related to proposed rule 1498-P in the
Federal Register/Vol. 75, No. 157/Monday, August 16,
2010 on pages 50280 and 50281 when it stated:

188
“ . . . we believe that including SSI codes of C01,
M01, and M02 accurately captures all SSI-entitled individuals during the month(s) that they are entitled to
receive SSI benefits.” There is no dispute that CMS
does not include and has no intention of including any
other PSCs in determining the numerator of the SSI
fraction. The following are some additional excerpts
from CMS’ response in the Federal Register referenced
above.
“Codes beginning with the letter “S” reflect records that
are in a “suspended” status and, according to SSA, do
not represent individuals who are entitled to SSJ benefits.”
“Codes that begin with the letter “N” represent records
on “nonpayment” and are not used for individuals who
are entitled to SSI benefits.”
“Code “EOI” represents an individual who is a resident
of a medical treatment facility and is subject to a $30
payment limit, but has countable income of $30 or
more. Such an individual is not entitled to receive SSI
payment.”
“Code “E02” is used to identify a person who is not entitled to SSI payments in the month in which that code
is used pursuant to section 1611(c)(7) of the Act, which
provides that an application for SSI benefits shall be effective on the later of (I) the first day of the month following the date the application is filed, or (2) the first
day of the month following the date the individual becomes eligible for SSI based on that application. Such
an individual is not entitled to SSI benefits during the

189
month that his or her application is filed or is determined to be eligible for SSI, but, for the following
month, would be coded as a “C01” because he or she
would then be entitled to SSI benefits. "
“As we have described above, none of the SSI status
codes that the commenter mentioned would be used to
describe an individual who was entitled to receive SSI
benefits during the month that one of those status codes
was used”
The Controlling Law

42 U.S.C. § 1395ww(d)(5)(F)(vi) is controlling, and is
printed below:
(vi) In this subparagraph, the term “disproportionate
patient percentage” means, with respect to a cost reporting period of a hospital, the sum of—
(I)

the fraction (expressed as a percentage), the numerator of which is the number of such hospital’s
patient days for such period which were made up
of patients who (for such days) were entitled to
benefits under part A of this subchapter and
were entitled to supplementary security income
benefits (excluding any State supplementation)
under subchapter XVI of this chapter, and the
denominator of which is the number of such hospital's patient days for such fiscal year which
were made up of patients who (for such days)
were entitled to benefits under part A of this
subchapter, and

(II) the fraction (expressed as a percentage), the nu-

merator of which is the number of the hospital's
patient days for such period which consist of pa-

190
tients who (for such days) were eligible for medical assistance under a State plan approved under subchapter XIX of this chapter, but who
were not entitled to benefits under part A of this
subchapter, and the denominator of which is the
total number of the hospital’s patient days for
such period.
(emphasis added)
CMS’s Regulation(s)

Section 42 CFR 412.106, which applied to the SSI Percentage prior to the 10/1/2004 change, is reprinted below:
42 CFR § 412.106 Special treatment: Hospitals that
serve a disproportionate share of low-income patients.
(b) Determination of a hospital's disproportionate patient percentage—
(1) General rule. A hospital’s disproportionate patient percentage is determined by adding the results of
two computations and expressing that sum as a percentage.
(2) First computation: Federal fiscal year. For
each month of the Federal fiscal year in which the hospital’s cost reporting period begins, CMS—
(i) Determines the number of covered patient
days that—
(A) Are associated with discharges occurring during each month; and
(B) Are furnished to patients who during
that month were entitled to both Medi-

191
care Part A and SSI, excluding those patients who received only State supplementation; (emphasis added)
(ii) Adds the results for the whole period; and
(iii) Divides the number determined under paragraph (b)(2)(ii) of this section by the total number of
patient days that—
(A) Are associated with discharges that occur during that period; and
(B) Are furnished to patients entitled to
Medicare Part A.
Section 42 CFR 412.106, which applies to the SSI Percentage after to the 10/1/2004 change, is reprinted below:
Determination of a hospital’s disproportionate patient
percentage.
(1) General rule. A hospital’s disproportionate patient percentage is determined by adding the results of
two computations and expressing that sum as a percentage.
(2) First computation: Federal fiscal year. For
each month of the Federal fiscal year in which the hospital’s cost reporting period begins, CMS—
(i) Determines the number of patient days that—
(A) Are associated with discharges occurring during each month; and
(B) Are furnished to patients who during
that month were entitled to both Medicare Part A
and SSI, excluding those patients who received
only State supplementation;

192
(ii) Adds the results for the whole period; and
(iii) Divides the number determined under paragraph (b)(2)(ii) of this section by the total number of
patient days that—
(A) Are associated with discharges that occur during that period; and
(B) Are furnished to patients entitled to
Medicare Part A. (emphasis added)
Why The Board Does Not Have Authority To Decide The
Legal Question

The Board does not have authority in this case to give
the Provider the relief it seeks because it is challenging
the validity of the 2004 regulation. The Provider challenges the regulation as contrary to Medicare Statute
and arbitrary and capricious because CMS is not permitted to have two different meanings of “entitled”
within the SSI Fraction—either CMS is incorrect in applying a stricter standard with respect to entitled to SSI
for purposes of the numerator or CMS’s change to its
regulation to place exhausted days, MSP days and Part
C days in the denominator regardless of whether they
were paid or covered by Medicare Part A is invalid
Attached is a Schedule of Providers along with copies of
all necessary jurisdictional documents as required by
PRRB Rule 42.
Also attached is an analysis of the patient days used to
determine Valley Hospital Medical Center’s SSI fraction for Federal Fiscal Year ending September 30, 2008.
Redacted Social Security Administration records are included documenting patient days not included in the numerator of the SSI fraction for specific individuals that

193
were eligible for SSI however were not due SSI payments. The redacted Social Security Administration
records, for these individuals, reflect the assignment of
PSC codes CMS refuses to recognize in the numerator
of the SSI fraction (per the response she provided in the
above referenced Federal Register).
Should you have any questions or require additional documentation please feel free to call me at (509) 924-3824.
Sincerely
/s/ DELBZERT NORD
DELBERT NORD
Associate
Encl
Cc:

Byron Lamprecht, Wisconsin Physicians Service, Omaha, NE

194
SDX

Using IEVA—Chapter 9

Exchange 6—

SDX Payment Status Codes

The first position of the payment status code indicates the status of SSI/SS payment eligibility and the
second and third positions indicate the reasons for
the status.
C

Indicates recipient is eligible for SSI/SS payment.

E

Indicates eligibility for Federal and/or State
benefit based on the eligibility computation but
no payment is due based on the payment computation.

H

Indicates a case in hold status, final disposition
pending.

M

Indicates case under manual control. Case is
known as “force payment” although a payment
may not be involved.

N

Indicates applicant is not eligible for SSI/SS
payment or that a previously eligible recipient
is no longer eligible.

P

Indicates suspension with the probability of reinstatement.

S

Indicates recipient may still be eligible for
SSI/SS but payment is being withheld.

T

Indicates SSI/SS eligibility is terminated.

C01 Current pay status.

195
E01 Eligible for Federal and/or State benefits based
on eligibility computation, but no payment is due
based on payment computation.
H10 Living arrangement change is in process.
H20 Marital status change in process.
H30 Resource change in process,
H40 Student status change in process.
H50 Head of Household change in process.
H60 Hold pending receipt of date of death.
H70 Hold pending transmission of one-time payment data
H80 Early input.
H90 Systems limitation involved. SSA District office (DO) must manually compute and input payment amount.
M01 Force Payment—Recipients may be in payment
or nonpayment status. See SSI Gross Payable
Amount field or State Supplemental Gross Payable Amount field for eligibility amount. These
fields will contain zeros if in non-payment status.
M02 Payment status posted to indicate that the record is under “force due” control.
N01 Non-pay Recipient’s countable income exceeds
Title XVI payment amount and his/her State’s
payment standard.
N02 NONPAY recipient is inmate of public institution.

196
N03 NONPAY recipient is outside U.S.
N04 NONPAY recipient’s nonexcludable resources
exceed Title XVI limitations.

197
SM 01601.805 Payment Status codes in
Computation History—List
Code

Status

Disability determination pending, an edit
condition exists or verification is pending.

BLANK

C01

Explanation

CURRENT
PAY

E01

E02

NONPAY

H10

HOLD

H20

HOLD

H30

HOLD

H40

HOLD

Systems
generated
payment currently, or
FO transmitted PSC01
Eligibility for Federal
and/or State benefits
based on the eligibility
determination but no
payment is due based
on the payment computation (not applicable
before 4/82). FLA-D
or PCI is equal to FBR.
Eligible for benefits
but not due a payment
(applies to first month
of eligibility only)
Living arrangements
change in process
Martial status change
in process
Resource change in
process
Student status change
in process

198
Head of Household
change in process
Hold Pending receipt
of date of death

H50

HOLD

H60

HOLD

H70

HOLD

One-time payment or
other PE data to be
transmitted

H80

HOLD

H90

HOLD

Early input
Systems limitation regarding computation;
FO must manually
compute and input payment amounts
Force payment case,
recipient may be in current payment or nonpayment status, depending on payment
history (PMTR)

M01

M02

N01

NONPAY

Force Due Case (FO
controls case through
MSSICS),
recipient
may be in current payment or nonpayment
status, depending on
payment
history
(PMTH)
Recipient’s countable
income exceeds title
XVI, FBR and OSS if
applicable

199
Recipient is inmate of
public institution
Recipient is outside
U.S.

N02

NONPAY

N03

NONPAY

N04

NONPAY

Recipient’s nonexcludable resources exceed
title XVI limitations

N05

NONPAY

Field Office is unable to
determine
eligibility
for some period of nonpayment or failure to
provide information for
children overseas

N06

NONPAY

N07

NONPAY

Recipient failed to file
for other benefits
Cessation of recipient’s
disability

N08

NONPAY

N09

NONPAY

N53

NONPAY

Deleted from State
rolls after 12/73 payment

N54

NONPAY

P01

PROVISIONAL

Denied—Whereabouts
unknown (obsolete)
Possible reinstatement
ending development of
SGA (obsolete)

Cessation of recipient’s
blindness
Recipient refused vocational
rehabilitation
without good cause

200
System is awaiting disability determination
input (system generated)
Prerequisite payment
month
development
pending to determine
eligibility for special
1619(a) payments to
disabled individuals

S04

SUSPENDED

S05

SUSPENDED

S06

SUSPENDED

S07

SUSPENDED

S08

SUSPENDED

Representative payee
development pending

S09

SUSPENDED

Temporary Institutionalization
Suspense
(system generated)

S10

SUSPENDED

S20

SUSPENDED

Recipient has a bank
account and refuses to
receive payments via
direct deposit
The recipient is presumptively disabled or
blind and has received
6 months payments
(FO input)

Recipient’ address unknown
Returned checks for
other than death, idenaddress,
tification,
death of payee or duplicate check (systems
generated)

201
S21

SUSPENDED

S90

SUSPENDED

The recipient is presumptively disabled or
blind and has received
6 months payments
(system generated)
PR1 change in process

S91

SUSPENDED

PR1 change in process

T01

TERMINATED Death of recipient

T20

TERMINATED Received

T22

T30
T31

T32

a duplicate
payment based on two
different
numbers:
(applied by FO or CO
1719B input)
duplicate
TERMINATED Received
payment based on the
same number on different SSRs or on two different numbers: (applied internally by the
system)
TERMINATED Manual termination
TERMINATED Systems generated ter-

mination (payment previously made or refund
on record)
systems
TERMINATED Automated
termination of a paid
record that has exceeded certain size limitation

202
T33
T50

T51

*

TERMINATED Manual

termination
(through MSSICS)
TERMINATED Manual termination (no
previous
payment
made)
TERMINATED Systems generated termination (no previous
payment made)
Data transmitted in error.
Surface edit in
PS field on 450SI

203
PAYMENT STATUS CODES (PS)
SM 01305.001
SM 01601.805

The following list includes abbreviated definitions.
Complete instructions and definitions may be found in
SM 01305.001. The PS Code is found in the PSY field
and CMPH segment of SSI2, SSID, QUJ, QUS, and the
PSY field of the SSI3 and SSIF query.
Code

Explanation

C01

Current pay

E01

Eligible but no payment due

H10

Living arrangement change pending

H20

Martial status change pending

H30

Resource change pending

H40

Student status change pending

H50

Head of household change pending

H60

Hold for PE input to post death

H70

Hold for subsequent PE input

H80

Hold for early input (allowance/denial
pending)

H90

Systems limitation regarding computations

M01

Force payment case

N01

Nonpay—excess income

N02

Nonpay—inmate of public institution

N03

Nonpay—outside of US

N04

Nonpay—excess resources

204
N05

Nonpay—unable to determine if eligibility exists

N06

Nonpay—failed to file for other benefits

N07

Nonpay—medical cessation of disability

N08

Nonpay—medical cessation of blindness

N09

Nonpay—refused VR without good cause

N10

Nonpay—failure to comply with treatment plan for DAA

N11

Nonpay—benefit sanction month due to
noncompliance DAA

N12

Nonpay—voluntary withdrawal

N13

Denial—not a citizen or eligible alien

N14

Denial—aged claim, denied for age

N15

Denial—blind claim, denied not blind (obsolete)

N16

Denial—disability claim, denied not disabled (obsolete)

N17

Denial—failure to pursue

N18

Denial—failure to cooperate

N19

Denial—voluntary termination

N20

Nonpay—failure to provide requested report of evidence

N27

Termination due to SGA

N30-N40

Disability Denials—No Visual Impairments

N30

Denial—slight impairment medical consideration only

205
N31

Denial—capacity for SGA—customary
work

N32

Denial—capacity for SGA—other work

N33

Denial—engaging in SGA

N34

Denial—lack of severity and duration

N35

Denial—lack of duration

N36

Denial—insufficient or no medical evidence submitted

N37

Denial—refused consultative examination

N38

Denial—discontinue development claimant’s request

N39

Denial—willful failure to follow prescribed treatment

N40

Denial—impairment(s) does not meet or
equal listings—DC under age 18 only

206
QUALITY REIMBURSEMENT SERVICES
Healthcare Consultants

June 9, 2010
CERTIFIED MAIL—RETURN RECEIPT REQUSTED

Centers for Medicare & Medicaid Services
Department of Health and Human Services
Attn: CMS 1498-P
P.O. Box 8011
Baltimore, MD 21244-1850
REF: CMS 1498-P/April 23, 2010/Proposed Rules
To Whom It May Concern:
Subject: Comments regarding section IV, Other Decisions and Proposed Changes to the IPPS for Operating
Costs and GME Costs, part G, Payment Adjustment for
Medicare Disproportionate Share Hospitals (DSHs): Supplemental Security Income (SSI) Fraction, of CMS 1498-P
proposed rules.

My name is Delbert Nord. I am an associate at Quality
Reimbursement Services, a company that specializes in
Medicare Disproportionate Share payments and represents hospitals across the country. As an interested
party, I am compelled to write this letter and comment
on the proposed rule change because it is my belief that
an obvious and material inequity exists between the numerator of the SSI fraction and the denominator of the
SSI fraction.
SUMMARY

At its inception, the SSI fraction was to include only paid
days. The numerator required an SSI payment to be

207
made for the days to be included, and only days paid by
Medicare Part A were included in the denominator.
While payment continues to be a requirement for the numerator of the SSI fraction, the denominator changed
effective October 1, 2014 such that total days began being used. Thus the denominator, by current definition,
includes covered (paid) days, non­covered (not paid) and
exhausted days (not paid). Medicare Part A payment·
is no longer a requirement for days to be included in the
denominator. In other words, only paid SSI days are
being included in the numerator while both paid and not
paid Medicare Part A days are being included in the denominator. The restriction of the numerator to only
paid days is an obvious and material inequity. To compare “apples to apples” it is necessary to include both
paid and not paid SSI days in the numerator. Action to
correct the numerator of the SSI fraction to include all
paid and not paid SSI days is required by CMS such that
in implementing the newly proposed matching process,
accurate and fair SSI percentages are calculated.
The other alternative would be to stop including not paid
days in the denominator of the SSI fraction.
BACKGROUND

From the inception of the DSH adjustment in 1986,
CMS stated that the SSI fraction would include days
paid by Medicare, consistent with CMS’ original policy
regarding the composition of the Medicaid fraction before the issuance of HCFA Ruling 97-2. See, e.g., 51
Fed. Reg. 31454, 31460 (Sep. 3, 1986). In defending its
original policy concerning the Medicaid fraction, CMS
represented to several federal courts that the Medicare/SSI fraction counts only Medicare paid days. See,

208
e.g., Legacy Emanuel Hospital & Health Center v.
Shalala, 97 F.3d 1261, 1265 (9th Cir. 1996).
The Secretary’s regulation that was in effect for the
time periods beginning before October 1, 2004 stated
that the Medicare/SSI fraction includes only “covered
patient days.”
42 C.F.R. § 412.106(b)(2)(i) (1998).
However, CMS Ruling 1498-R requires that the Medicare fraction include “inpatient days where the patient
was entitled to Part A benefits but the inpatient hospital
stay was not covered under Part A.” Therefore, the
CMS ruling is inconsistent with the language of the regulation in effect during the time periods prior to October
1, 2004.
Denominator:
While CMS repeatedly stated that the SSI fraction
would only include inpatient days paid by Medicare Part
A, CMS changed 42 CFR 412.106 removing the word
“covered” (“covered” and “paid” are considered synonymous terms) from the regulation. Now the regulation
simply refers to total days being used in the denominator (i.e. paid and not paid).
CMS 1498-P states, “ . . . CMS determines the denominator of the hospital’s SSI fraction by calculating
the sum of the number of the hospital’s inpatient days
for patients entitled to benefits under Medicare Part A
(regardless of SSI eligibility) that are included in the
hospital’s inpatient claims for the period.” Ruling
1498-R states, “More specifically, we believe that the inpatient days of an individual who was entitled to Part A
belong in the DSH SSI fraction even if the inpatient stay
was not covered under Part A or the patient’s Part A

209
hospital benefits were exhausted.” Thus, based on
CMS rules and regulations, entitled=paid and not paid.
Numerator:
On April 29, 2003 Pat Cribbs, a team leader for the database analysis section at the Social Security Administration, with 24 years of experience, testified at a
PRRB evidentiary hearing related to PRRB Case Nos.
96-1882, 97-1579, 98-1827, and 99-2061. Ms. Cribbs
worked with the preparation of the SSI file that was sent
to CMS for the purpose of developing the SSI percentages for hospitals. In her testimony Ms. Cribbs stated
that in order for an individual to be included in the file
that SSA sends to CMS (the very file CMS 1498-P claims
it will use in the proposed matching process), the individual would have to have been active with one of three
pay codes (CO-1, MO-1 or MO-2) and have been getting
paid at least a penny for the month in question.
CMS 1498-P states, “ . . . CMS determines the numerator of the hospital’s SSI fraction (that is, the number of the hospital's inpatient days for all its patients
who were simultaneously entitled to Medicare Part A
benefits and SSI benefits) . . . ” It follows then
that if CMS interprets the term “entitled” to include
both paid and not paid patient days in the denominator
of the SSI fraction that the numerator of the SSI fraction should also include both paid and not paid patient
days.
THE PROBLEM

The proposed new matching process is to be implemented and used to finalize open cost reports for cost
reporting periods beginning prior to October 1, 2010 as
well as properly pending appeals and then be used in the

210
forthcoming 2011 fiscal year. CMS 1498-P does not address the inequity of the composition of the fraction
which has existed since the regulation changed effective
October 1, 2004 when total days began being used in the
denominator.
While I commend CMS on their attempt to correct the
SSI matching process to more accurately capture all entitled patient days in the numerator; CMS needs to go a
step further to capture and include all not paid SSI patient days in the numerator as well. It often takes two
to three years or more for SSI determinations to be
made. The additional time CMS proposes to allow for
retroactive SSI determinations and lifting of payment
suspensions to be recognized is inadequate, and it continues to focus upon the necessity of SSI payment rather
than focusing upon SSI eligibility.
The proposed rules talk a great deal about matching SSI
eligibility records with MedPAR data (i.e. “CMS
matches the Medicare records and SSI eligibility records for each hospital’s patients. . . . ” “The data
underlying the match process are drawn from: (a) the
. . . MedPAR data file; and (b) SSI eligibility data
. . . ” “The SSI eligibility data that CMS receives
from SSA contain monthly indicators to denote which
month(s) each person was eligible for SSI benefits
. . . ” “CMS’ Proposed Process for Matching Medicare and SSI Eligibility Data”). In the final count of
SSI days however CMS is still restricting the numerator
of the SSI fraction to actual payment.
CMS has defined the term entitled when referencing the
denominator to include both paid and not paid patient
days. It only makes sense to apply the same definition

211
to the numerator. Otherwise, the fraction is not an
equal or useful comparison.
CMS includes Medicare Part A exhausted days (for
which there was no Medicare payment made) in the denominator of the SSI percentage—thus shouldn’t SSI
days be included in the numerator for SSI patients that
are eligible for SSI but did not receive a SSI payment?
There are a number of other status codes used by the
Social Security Administration besides the C-01, M-01
and M-02 codes identified by Pat Cribbs that indicate
the individual was eligible for or entitled to SSI benefits,
however payment was not made.
For example: Per Pat’s testimony, the individual has
to be active to be counted (i.e. C-01, M-01 or M-02).
Pat said the patient must have received at least a penny
to be included in the file being sent over from SSA to
CMS. What if a SSI patient were in a skilled nursing
facility and did not receive their SSI payment simply because Medicaid covered the cost of the skilled nursing
care provided? The patient would be eligible for SSI;
however would not receive their SSI payment because
another form of Federal payment was made in place of
it. As soon as this patient is discharged from the
skilled nursing facility their SSI payments will resume.
The individual is still a low-income patient which the
Medicare DSH program seeks to measure. What’s the
difference between this type of SSI patient and the Part
A patient that exhausted their benefits whereupon Medicaid stepped in and mad payment in place of Medicare
Part A?

212
There are other SSA Status codes that should be included in the numerator of the SSI percentage besides
the few that restrict the numerator to requiring payment. If the denominator includes non­covered days
and exhausted days—(i.e. payment is no longer required), then the numerator needs to be changed to allow days where the patient is not receiving a SSI check.
Additional code that should be counted in the numerator
include suspended codes such as S-06 where the payment was suspended because, “recipient's address is unknown” and S10, “Recipient has a bank account and refuses to receive payments via direct deposit.” Clearly,
these patients are entitled to SSI and should be counted
in the numerator even though they are not receiving
payment. These patients are low-income whether SSA
knows their address or not and whether they have direct
deposit or not. It is my belief, position, and recommendation that all suspended SSA status codes be included
in the numerator of the SSI percentage regardless of
whether the payment suspensions are ever lifted or not.
More specifically status codes S-04, S-05, S-06, S-07,
S-08, S-09. S-10, S-20, S-21, S-90, and S-91 should be included in the numerator of the SSI fraction.
I also recommend that SSA status codes E-01 and E-02,
“Eligibility for Federal and/or State benefits based on
the eligibility determination but no payment is due
based on the payment computation,” and, “Eligible for
benefits but not due a payment,” respectively should be
included. The explanation of these codes alone indicates the individuals were eligible for SSI benefits, however payment was not made.
Furthermore; there are several “Terminated” status
codes that should be counted or at least considered for

213
inclusion. These include T-01, “Death of Recipient.”
A deceased recipient will have their SSI payment terminated, however this does not discount the fact that they
were an SSI entitled individual at the time services were
rendered. Other terminated status codes deserving of
consideration for inclusion involve duplicate payments
and payments previously made, T-20, T-22, and T-31.
Finally, there are many SSA status codes where the explanations are less clear, but what is clear is that if these
are in fact SSI eligible patients not receiving payment,
then they should be included and, counted in the numerator of the SSI fraction. For instance, Non-Pay codes
N-06, “Recipient failed to file for other benefits,” and
N-18, “Failure to cooperate,” indicate payment was not
made for reasons other than the individuals eligibility
for SSI benefits. These individuals are still low-income
regardless of whether they file for other benefits or cooperate. Additional codes deserving of serious consideration are: N-10, N-11, N-35, N-39, N-42, N-43, N-50,
N-54, and P-01.
IN SUMMARY

The current restriction of the SSI numerator to SSA
status codes C-01, M-01 and M-02 needs to be expanded
to include all SSI status codes for which individuals are
eligible for SSI benefits however are not receiving payment. An obvious inequity exists. If the denominator
of the SSI fraction includes days that were not paid by
Medicare, namely non-covered and exhausted days, then
the numerator of the SSI fraction should include not
paid SSI days as well. Although improving the matching process is a much needed improvement, it is not
enough, nor is the additional time CMS proposes to allow for the lifting of payment suspensions. The SSI

214
fraction needs to be a fair and equal comparison. In
order to achieve this, the new data matching process
needs to include the following:
•

A provision to include all SSI eligible patient
days in the numerator of the SSI percentage, including but not limited to the following codes:
o E01, E02.
o N06, N10, N11, N18, N35, N39, N42, N43,
N46, N50, and N54
o P01
o S04, S05, S06, S07, S08, S09, S10, S20, S21,
S90, and S91
o T01, T20, T22, and T31

The other alternative is to go back to the use of the term
“covered” in the regulation and stop including days for
which Medicare failed to make payment.
I urge that the above stated be added to the public record for discussion in regards to Section IV, part G, Payment Adjustment for Medicare Disproportionate Share
Hospitals (DSHs):
Supplemental Security Income
(SSI) Fraction, of CMS 1498-P proposed rule change.
Respectfully,
/s/ DELBERT NORD
DELBERT NORD
Associate
Quality Reimbursement Services

215
Social Security
Official Social Security Website
Program Operations Manual System (POMS)
Effective Dates:

04/25/2013 - Present

GN 02210.008 Cross Program Recovery (CPR) from
Monthly Title II, Title VIII, and Title XVI Benefits to
Recover Other Program Overpayments

Citations: Social Security Act § 1147
Social Security Act § 808
20 CFR § 404.530, 20 CFR § 416.572, 20 CFR § 408.930
A.

Authority for mandatory (CPR) from Social Security
administered program benefits

Section 210 of the Social Security Protection Act of 2004
expanded the Social Security Administration’s (SSA)
authority to conduct CPR. The 2004 amendment of
Section 1147 of the Social Security Act (Act) permits
SSA to recover Social Security (title II), Special Veterans Benefits (title VIll), and Supplemental Security Income (title XVI) overpayments from a debtor by decreasing any amount payable to that debtor under title
II, title VIII, or title XVI. With the change in the law.
a debtor does not have to provide permission for SSA to
collect the overpayment from any program benefit due
the debtor.
In general, CPR may recover only ten percent of a
monthly benefit paid.
The law limits the amount of CPR recovery from regularly due monthly title XVI benefits to the lesser of:

216
•

the amount of that monthly benefit or

•

ten percent of the debtor’s income for that
month. Such income includes the monthly benefit but excludes payments under title II when
we are recovering a title n overpayment from title II benefits and income excluded under section 1612(b) of the Act

In addition, the law provides that none of the above limits on CPR recovery apply if the debtor requests a
greater CPR recovery or if the debtor, or the spouse of
the debtor, was involved in willful misrepresentation or
concealment of material information in connection with
the overpayment amount.
B.

General rules for CPR from monthly title II benefits

1.

If we terminated or suspended the title II benefit retroactively, the overpayment recovery for
the other program ceases as of the current operating month (COM). Any amount with title II
benefit used to reduce the other program debt
effective with the retroactive termination month
of is a title II overpayment

2.

Cessation or suspension of the title II benefit
precludes cross program recovery of benefits
not regularly paid due to the suspension or cessation. See SM 00610.815 if the ledger account
file (LAF) status of the debtor changes from current pay to a non-pay status. Initiate a new
CPR action if the debtor becomes eligible again.

3.

CPR applies nationwide.
However, special
procedures apply, effective November 21, 2000,
to members of the Ellender Class (certain Supplemental Security Income (SSI) recipients who

217
resided in New York State who had title XVI
overpayments from the 1980’s), see SI
02220.020A.8.
We must send all class members notices which
advise them:
o

the time periods during which overpayment of SSI benefits arose;

o

the amount of overpayment in each time
period and in total;

o

the amount of any prior repayments;

o

the reason for overpayment;

o

that the recipient has a right to appeal or
reconsideration;

o

that under specified conditions, the recipient may have the right to waive repayment
and

o

that the time period in which the Government should have collected the overpayments may have passed, but if the recipient pays back any installment or writes a
letter acknowledging the overpayment the
Government’s right to collect may be revived (i.e., the statute of limitations may
have run, but partial repayment or a written acknowledgment by the debtor may revive the claim).

218
C.

Recovery of title VIII overpayments from monthly
title II and title XVI benefits

Under Social Security Act § 808(e), we recover title VII
overpayments by decreasing a beneficiary’s monthly
title II benefits or title XVI payments by CPR. For information about CPR recovery of title VIII overpayments from title II and title XVI benefits, see VB
02005.101.
D.

Recovery of title XVI overpayments from monthly
title II benefits

The Recovery and Collection of Overpayments (RECOOP)
system automatically selects title XVI debts for CPR
from title II benefits. For the automated process, see
SI 02220.0208.
Process Non-RECOOP cases manually per SI 02220.020C.
E.

Recovery of title XVI overpayments from monthly
VIII benefits

Title XVI and title VIII are two separate programs, but
both utilize the Social Security Record (SSR) for record
keeping and systems processing. Prior to July 5, 2002,
the SSR limited refund of the overpayment efforts to recover title XVI overpayments from title VIII benefits.
See VB 02020.005 for CPR recovery of title XVI overpayments from title VIII benefits.
F.

Recovery of title II overpayments from monthly title
VIII Benefits

Recovery of title II overpayments from monthly title
VIII benefits is a manual process; for the recovery procedures, see SM 01311.320.

219
G. Recovery of title II overpayments from monthly
title XVI benefits
Recovery of title II overpayments from monthly title
XVI benefits is a manual process; for the recovery procedures, see SM 00610.820 and SM 01311.320.
H. References

•

SI 02220.020 Cross Program Recovery (CPR) of
SSI Overpayment from Monthly Title II Benefits

•

SM 00610.815 A LAF Status Change in a CrossProgram Recovery Case

•

SM 00610.820 Recovery of a Title II Overpayment from Title XVI Benefits

•

SM 01311.320 Recovery of Title II Overpayment
from Monthly SSI Benefits and Special Veterans
Benefits

•

VB 02005.101 SVB Overpayments—Overview

•

VB 02020.005 Collection of SSI Overpayments
From Special Veterans Benefits

220
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

Case No. 2:16-cv-00209-RMP
EMPIRE HEALTH FOUNDATION FOR VALLEY HOSPITAL
MEDICAL CENTER, MEDICARE COST REPORT
09/30/2008, PLAINTIFF
v.
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
DEFENDANT

Filed: May 9, 2018
Noted: July 10, 2018 1:30 p.m.
With Oral Argument
DEFENDANT’S COMBINED CROSS-MOTION FOR
SUMMARY JUDGMENT AND OPPOSITION TO
PLAINTIFF’S MOTION FOR SUMMARY JUDGMENT

*

*

*

*

*

The challenged regulation provides that all “patient
days” for Medicare Part A beneficiaries, 42 C.F.R.
§ 412.106(b)(2)(i), are to be counted as days on which the
hospitalized patient is “entitled to benefits under [Medicare] part A,” 42 U.S.C. § 1395ww(d)(5)(F)(vi)(I). Until 2004, only “covered patient days” were so counted.
See 42 C.F.R. § 412.106(b)(2)(i) (2003). The difference
between these phrases is that days on which a Medicare
Part A beneficiary is hospitalized but Medicare will not

221
pay for his care, for one of several reasons discussed below, are “patient days,” but not “covered patient days.”
Empire Health challenges the current regulatory provision because, on its view, only covered patient days are
days on which a patient is “entitled to benefits under
[Medicare] part A” and days for which Medicare did not
pay should not be included in the Medicare fraction.
Empire Health is mistaken; entitlement to Medicare
part A is a status that does not change from day-to-day.
Medicare beneficiaries are always “entitled to benefits
under [Medicare] part A,” regardless of whether Medicare covered a particular patient day. The Sixth Circuit has upheld the Secretary’s regulation on both substantive and procedural grounds, Metro. Hosp. v. U.S.
Dep’t of Health & Human Servs., 712 F.3d 248, 269-70
(6th Cir. 2013), and the D.C. Circuit has said that it contains “the better” reading of the statutory language,
Catholic Health Initiatives Iowa Corp. v. Sebelius, 718
F.3d 914, 920 (D.C. Cir. 2013). This aspect of the regulation is valid, and should be upheld.
The challenged regulation also provides that patients
who participate in Medicare Advantage, and therefore
receive their Medicare benefits (which they would otherwise receive through Parts A and B) through a private
health insurance plan under Part C of the statute,
are “entitled to benefits under [Medicare] part A.”
42 U.S.C. § 1395ww(d)(5)(F)(vi)(I).
See 42 C.F.R.
§ 412.106(b)(2)(i)(B), (iii)(B). However, this part of the
regulation has been vacated by the D.C. Circuit as procedurally invalid, Allina Health Servs. v. Sebelius, 146
F.3d 1102, 1111 (D.C. Cir. 2014) (“Allina I ”), and the
Secretary has acquiesced to that vacatur. This Court
should therefore remand this case to the Provider Reimbursement Review Board so that it can determine

222
whether these Part C days should be included in the
Medicare fraction, without reference to 42 C.F.R.
§ 412.106(b)(2)(i)(B) or (iii)(B).

* * * * *

